<html>
<title> - IVORY AND INSECURITY: THE GLOBAL IMPLICATIONS OF POACHING IN AFRICA</title>
<body><pre>[Senate Hearing 112-602]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 112-602

 
  IVORY AND INSECURITY: THE GLOBAL IMPLICATIONS OF POACHING IN AFRICA

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2012

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
76-689                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a9ced9c6e9cadcdaddc1ccc5d987cac6c487">[email&#160;protected]</a>  


                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
               William C. Danvers, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Cardamone, Tom, managing director, Global Financial Integrity, 
  Washington, DC.................................................    15
    Prepared statement...........................................    17
Coons, Hon. Christopher, U.S. Senator from Delaware, statement...     4
Douglas-Hamilton, Dr. Iain, founder, Save the Elephants, Nairobi, 
  Kenya..........................................................     4
    Prepared statement...........................................     9
    Responses to questions submitted for the record by Senator 
      James E. Risch.............................................    47
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Scanlon, John, Secretary General, Convention on International 
  Trade in Endangered Species of Wild Fauna and Flora, Geneva, 
  Switzerland....................................................    22
    Prepared statement...........................................    25
    Responses to questions submitted for the record by Senator 
      James E. Risch.............................................    48

              Additional Material Submitted for the Record

Prepared statement of Ginette Hemley, senior vice president, 
  Conservation Strategy and Science, World Wildlife Fund and Tom 
  Milliken, Elephant and Rhino Leader, TRAFFIC...................    50
Additional items of testimony from Dr. Iain Douglas-Hamilton
    Item 1: The African Elephant Specialist Group................    61
    Item 2: Prepared statement of Dr. Holly Dublin, chair, IUCN/
      SSC African Elephant Specialist Group to the Fourth African 
      Elephant Range State Meeting Conducted Under the Auspices 
      of the CITES MIKE Programme in Africa at UNEP-Gigiri, 
      Kenya, 26-27 April 2012....................................    62
    Item 3: A motion, cosponsored by the U.S. Department of 
      State, with the title ``Conservation of African Elephants'' 
      submitted for consideration to the IUCN World Conservation 
      Congress at its fifth session in Jeju, Korea, 6-15 
      September 2012.............................................    62

                                 (iii)

  


  IVORY AND INSECURITY: THE GLOBAL IMPLICATIONS OF POACHING IN AFRICA

                              ----------                              


                         THURSDAY, MAY 24, 2012

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:38 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Coons, Udall, and Risch.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. The hearing will come to order.
    Thank you all for coming. I apologize for starting a few 
moments late.
    I realize that the issue that we are going to discuss today 
may seem to some to be slightly off the beaten path of the 
usual topics that our committee has tackled, but I believe very 
strongly that one of the responsibilities of our committee is 
and always has been to make sure that issues deserving 
attention receive focus. Whether people believe that before 
they have heard about the issue or not, whether they are on the 
front pages of our national consciousness today or not, it is 
our job, I think, to help put them there.
    And certainly even if we are not today thinking much about 
the global implications of poaching in Africa, I can guarantee 
that we will be if it goes unabated. In other words, in a 
country with a deep and abiding conservationist conviction 
which has rallied to the defense of our bald eagle and our 
American bison, it is just a matter of time before we awaken to 
poaching's consequences, and if we do not act now, then the 
time will come too late. It would come too late for the 
elephants, these enormous, lumbering, majestic animals which 
have been a sentimental favorite with people the world over. 
They are a living connection to prehistoric times and a 
reminder of our responsibility to the future by preserving the 
past. And just as we have fought to save tuna, salmon, sharks, 
tigers, whales, the American eagle, and other endangered 
species, here too we have a special responsibility to future 
generations to live out our steward-caretaker responsibilities. 
How shockingly destructive and historically shameful it would 
be if we did nothing while a great species was criminally 
slaughtered into extinction.
    And yet here we are in the midst of one of the most tragic 
and outrageous assaults on our shared inheritance that I have 
seen in my lifetime where an elephant's dead ivory is prized 
over its living condition, where corruption feeds on its body 
and soul and where money only makes matters worse.
    Yes, we have a lot of urgent, everyday problems that 
consume our politics. I am more than well aware of that. 
Deficits, unemployment, terror--those are challenges that we 
know too well and numerous enough to make anyone dizzy. But 
history reminds us that we never have the right to turn our 
backs on the values that define us. It is said that the 
elephant never forgets. Well, nor should we.
    We are fortunate to have a strong panel of witnesses who 
will help us shine a spotlight on this horrific and regrettable 
widespread trade. Like all of you, I was shocked and saddened 
by recent news reports of the mass poaching of elephants in 
Cameroon and the surge in rhino and elephant poaching across 
Africa over the course of the past year. The pictures of dead 
elephants and hornless rhinos are heartbreaking. They stand as 
a grim reminder of our capacity to inflict harm on the natural 
world.
    But I would also emphasize that the human costs of 
trafficking in ivory and other animal parts need to be focused 
on. This is a multimillion dollar criminal enterprise. The 
ivory trade stretches from the African savannah to the Asian 
marketplace, and the United Nations Office on Drugs and Crime 
ranks it as a significant form of transnational organized 
crime.
    Poaching is not just a security threat for Africa. It is 
also a menace to developing economies, and it thrives where 
governance is weakest. Poachers with heavy weapons are a danger 
to lightly armed rangers and civilians, as well as to the 
animals that they target. They operate in remote territories 
and cross borders with impunity, wreaking havoc on villages and 
families. Increasingly, criminal gangs and militias are wiping 
out entire herds and killing anyone who gets in their way.
    We also know that poaching is interwoven into some of 
central and east Africa's most brutal conflicts and that many 
of those combatants are essentially members of criminal gangs 
preying upon the communities. One begets the other, and they 
are interrelated.
    In the Democratic Republic of Congo, U.N. reports charge 
that all the parties to the conflict, including the Congolese 
Army, have participated in this lucrative trade. Multiple 
reports describe armed men coming across the border from Sudan 
into the Central African Republic or from Somalia into Kenya to 
kill elephants and smuggle out the ivory. And the scope of 
lethality of the poaching industry is only increasing as armed 
groups expand their criminal networks and profit from the 
lucrative trade in conflict minerals and illegal timber. It is 
all part of a network. I learned that a long time ago when I 
was a prosecutor.
    Do not take my word for it. Just look at the facts. 
According to the African Wildlife Fund, poachers have claimed 
more than 900 rhinos across Africa these past 3 years. Between 
2007 and 2011, rhino poaching increased by 3,000 percent in 
South Africa alone. Black market prices for these commodities 
are surging, with rhino horn at times more valuable per ounce 
than gold. And if that is not troubling enough, consider that 
more than 23 metric tons of illegal ivory were seized last 
year. That is nearly 2,500 elephants.
    The net effect of these depredations is more insecurity, 
more violence, and more corruption, not to mention the 
devastation of existing and potential opportunities for tourism 
and economic development, and ultimately the degradation of 
stability of whole regions.
    So given these very real risks, I am convinced it is 
incumbent on all of us to ask what is causing this resurgence 
in poaching and what can be done to combat it.
    The demand side of this equation is crucial. According to 
U.N. assessments, East Asia is the primary destination for 
ivory and other products. People are buying it. The Chinese 
Government and others have made some substantial seizures, but 
clearly a lot more needs to be done to eliminate the illegal 
marketplace.
    On that front, I want to recognize the work of the U.S. 
Fish and Wildlife Service. In coordination with the State 
Department and other agencies, the service is vigorously 
prosecuting illegal ivory importers here in the United States 
and working collaboratively with Asian countries in order to 
reduce demand.
    But we have other options as well. Along with several 
members of this committee, including Senators Coons and 
Isakson--Senator Isakson, by the way apologizes--he had a 
conflict. He wanted to be here today as the ranking member of 
the African Subcommittee. Senator Coons is the chair. And 
Senator Isakson is concerned about it but he simply had a 
conflict. As I was saying along with several members of the 
committee, I have introduced legislation, S. 2318, to expand 
the State Department's Rewards program to include transnational 
organized crime so that we can improve international efforts to 
reduce trafficking of all kinds.
    And we will hear today from our witnesses that the 
international community has also expanded its efforts to track 
money and to follow that money throughout the trafficking 
business.
    Before it is too late, we need to explore how we can 
strengthen our partnerships with regional law enforcement 
services to help enhance their capacities to protect their 
communities, patrol their borders, and safeguard their 
countries' natural resources.
    I am pleased to note that Dr. Julius Kipng'etich is here. 
He is the Director of the Kenya Wildlife Service, and we 
appreciate his presence here today.
    And with that, I want to welcome our very distinguished 
witnesses.
    Dr. Iain Douglas-Hamilton visited with me last week, and we 
scheduled this hearing on somewhat short notice based on that. 
I appreciate his leadership over many, many years, as does 
everyone. He is the founder of Save the Elephants and has spent 
the last 40 years working on elephant conservation in Africa.
    John Scanlon is Secretary General of the Convention on 
International Trade in Endangered Species of Wild Fauna and 
Flora.
    And Tom Cardamone is the managing director of Global 
Financial Integrity which focuses on illicit financial flows 
internationally.
    So, gentlemen, we welcome you here today. I am very 
appreciative of you being here.
    Since this is a somewhat out-of-the-ordinary hearing, I am 
going to ask Senator Coons if he wants to make any opening 
comments. Then we will proceed with the testimonies.

              STATEMENT OF HON. CHRISTOPHER COONS,
                   U.S. SENATOR FROM DELAWARE

    Senator Coons. Thank you, Chairman Kerry, for calling this 
hearing, and thank you to our witnesses for everything you are 
doing.
    I was just sharing with Dr. Douglas-Hamilton before we 
begin that my own experiences traveling in Uganda and Kenya and 
Tanzania 25 years ago included visiting a national park that 
had been almost completely emptied of wildlife in the course of 
what was at that point a brutal conflict. This was when now-
President Museveni was really just on the verge of sweeping 
back into control. This was in 1987 actually.
    And I was left haunted by the destruction to God's creation 
caused by human conflict. And in the decades since then, across 
many countries, there has been this virtuous cycle where 
recognizing the value of conservation of preserving elephants 
and other majestic animals for their own sake has also led to 
improvement in the prospect for development for the nations 
that host these amazing creations and creatures and has also 
led to a steady drop in the benefits, the proceeds, from the 
illegal trade in animals and in poaching.
    What we are here to consider today is an unfortunate venal 
vortex that is going the opposition direction. Just as in 
central Africa, a number of countries have suffered from the 
Lord's Resistance Army because of a lack of central control, a 
lack of organized armed opposition, a lack of coordination and 
collaboration across countries, so too we put at risk majestic 
species, biodiversity, the opportunity to preserve amazing 
wildlife and habitat, and we put at risk the prospects for 
conservation, for development, for security, for humanity. And 
as I know we will hear, there has been a report that details 
just how many billions of dollars go into the coffers of 
resistance movements, terrorist groups, those who operate at 
the margins or outside the rule of law.
    So I am grateful for your work. I look forward to your 
testimony. To Chairman Kerry, I know that my ranking minority, 
Senator Isakson, and I reflect what is a broad community across 
the House and Senate, Republican and Democrat, who care deeply 
about Africa and who welcome your effort to make certain that 
we put conservation at the top of our multinational agenda for 
moving forward the people and the nations of Africa.
    Thank you.
    The Chairman. Well, thank you very much, Senator Coons. 
Again and again, I say to you thank you for your concern and 
for your leadership in this area. It has been enormously 
important. We appreciate it.
    Dr. Douglas-Hamilton, thank you for being with us. Why 
don't you lead off and we will just run down the table from 
there and then have a chance to have a dialogue?

   STATEMENT OF DR. IAIN DOUGLAS-HAMILTON, FOUNDER, SAVE THE 
                   ELEPHANTS, NAIROBI, KENYA

    Dr. Douglas-Hamilton. Thank you, Mr. Chairman, Senator John 
Kerry. I am deeply grateful for this response from the highest 
political levels in the United States of America, and I am 
honored to appear before this committee. I have actually 
appeared both in the 1970s and the 1980s on the same issue when 
elephants were in peril, and I have testified three times 
before Congress.
    We are now again in that situation. What is happening to 
elephants is appalling and more so since we have been through 
these ivory crises before and should have found solutions by 
now.
    Quickly to summarize my points, in case I run out of time, 
there is an escalating crisis in poaching across Africa. It is 
driven by demand in China. The demand exceeds the supply. It 
creates security threats as well as conservation impacts, much 
of the trading being led by organized crime which undermines 
good governance, destabilizes security, and causes the illegal 
killing of elephants on a massive scale. Urgent action is 
critical to stem this decline.
    The solutions are to increase funding for antipoaching 
efforts and environmental governance through programs managed 
by the U.S. Fish and Wildlife Service and the State Department, 
including USAID funding. We should explore opportunities to use 
the resources of Homeland Security to address this global 
security threat because otherwise if allowed to develop, it 
could breed something that comes back to hit you.
    We should use new ways of thinking outside the box, using 
high-tech solutions, and above all, we should work more closely 
in partnership with China to reduce demand, at the highest 
levels of diplomacy.
    I want to thank you for the role the United States has 
played in helping to conserve African elephants. Key funding 
has come from U.S. agencies, specifically from the U.S. Fish 
and Wildlife Service which has provided consistent funding 
through the African Elephant Conservation Fund, and from USAID 
which has helped save landscapes where elephants live. Together 
with the State Department, these U.S.-led efforts have made a 
huge impact on improving elephant conservation.
    I cannot forget the NGOs who have played a critical role, 
who have always been out there on the front line: WWF, Wildlife 
Conservation Society; Liz Claiborne and Art Ortenberg 
Foundation, International Fund for Animal Welfare; Wildlife 
Conservation Network, Nature Conservancy, and African Wildlife 
Foundation, among many others.
    Well, we have been there before with this elephant crisis. 
If you go back long enough, elephants were nearly exterminated 
in the Victorian era, and it was only in the early 20th century 
that they were able to recover when new game laws came in. This 
culminated in the 1960s which was a golden era for the national 
parks, where animals, for the first time, became tame and 
approachable and exposed to tourism.
    Unfortunately, the ivory trade surged in the 1970s and 
1980s, driven by prosperity in the Far East, mainly from Japan, 
where ordinary people could now buy ivory. This caused massive 
losses. Seven hundred tons of ivory a year, on average, 
representing about 70,000 elephants, left Africa annually for 
the best part of a decade. The estimated elephant population 
dropped from 1.3 million in 1979 to half that number by the 
mid-1980s. And in most of the savannahs of East Africa, central 
Africa, with a few exceptions in southern Africa, there were 
massive drops in numbers. The evidence now is that that strong 
demand for ivory has surged again.
    I would like to talk about a case study which is in Samburu 
in northern Kenya where Save the Elephants, my organization, 
conducts minute, detailed research by recording the births, 
deaths, and population dynamics of about 500 elephants. This 
has allowed us to record that elephants, protected by the Kenya 
Wildlife Service, recovered very well in the last two decades 
up until about 2008. We found that there was a steady increase 
in poaching and a tipping point was reached in 2008 where the 
elephants nosed over, starting with a big drought and ending 
with a big decline caused by ivory poaching, which is ongoing 
for the first 4 months of 2011.
    This has caused terrible suffering for the elephants. The 
big bulls have been largely wiped out, and now the big cows are 
being attacked. The females, the matriarchs, are being removed, 
leaving great suffering amongst the family and a higher death 
rate amongst the offspring.
    The worst-hit place in Africa is central Africa. There is a 
very good documentation of this by Fiona Maisels of the 
Wildlife Conservation Society and her colleagues. The paper is 
coming out soon and it will show that central Africa has lost 
over one-half its elephants in the last 10 years.
    I want to say that all these threads of information have 
come together from different sources. They have cross-
triangulated. At the front line there are scientists, there are 
wardens and rangers of wildlife departments. There is the 
press, journalists, and there are the NGOs.
    The second line is African Elephant Specialist Group of the 
International Union for the Conservation of Nature. This group 
has a program that coordinates reports coming in, and 
increasingly, puts the information immediately on public 
record.
    The next group is TRAFFIC, a joint program of WWF and the 
IUCN. They have an Elephant Trade Information Service that 
tracks illegal ivory, and it relies on hard data that gives the 
big picture across the world. In 2009, 2010, and 2011, there 
has been a rapid escalation in the seizures of illegal ivory. 
Tom Milliken, the head of TRAFFIC's ETIS referred to 2011 as an 
``annus horribilis'' for elephants because it exceeded all 
others.
    Finally, the program that really allows us to get a handle 
on what is happening is Monitoring the Illegal Killing of 
Elephants (MIKE), which is a program of the Convention on 
International Trade in Endangered Species. Data gathered from 
this program have shown that illegal killing again matched what 
happened with the ivory data. It increased from 2006 on, and 
finally last year, 2011, was a record bad year in levels of 
illegal killing of elephants. This covered all four regions of 
Africa. Once again, central Africa was shown to be the worst, 
but East Africa was also bad. West Africa is so small that 
there is hardly anything left there, but now even southern 
Africa that formerly had been well protected had levels of 
illegal killing which were beyond the level that the experts 
think is sustainable.
    The implications for security are enormous. This crime is 
opportunistic. In large tracts of Africa, the poachers target 
the softest populations, and they will move from one population 
to another.
    The reason we became so worried in Samburu was because it 
was a well-protected population, and if that could happen in 
well-protected population, we feared that this could happen to 
other well-protected populations elsewhere. And we wrote a 
paper that would be on the record in Nature.
    The worst case that has been recorded recently is the 
terrible incident that took place in Cameroon where 200 and 
perhaps upward of 400 elephants were killed by heavily armed, 
well-organized militia. The poachers traveled probably 1,000 
miles on horseback to get there. They may have come from Sudan 
or from Chad. And it is interesting that they are now avoiding 
the park of Zakouma in Chad because it has received good 
funding and has now become a slightly harder target to hit.
    Also, in Garamba National Park in DRC, there has recently 
been another massacre, where a military helicopter was 
involved, and again a group of elephants were shot down.
    Now, despite the fact that the overall picture is very 
dire, there are some success stories that point to what can be 
done. There have been successes recently in places that have 
received good funding and good programs with strong NGO or 
foreign aid support. These include protected areas in Gabon, 
Zakouma in Chad, Amboseli, Tsavo and the Mara in Kenya, Dzangha 
Dzangha in the Central African Republic. In Zakouma, elephants 
were being killed at the rate of 800 per year that dropped to 7 
last year. In Kenya's largest national park, Tsavo, poaching 
gangs have been confronted and a reduction in the number of 
poached elephants has been observed from the air and 
independently confirmed. Likewise in northern Kenya, a similar 
surge has resulted in a notable decrease in illegally killed 
elephants over the last 6 weeks.
    The way that we have to tackle this problem--there are 
three main ways: to confront elephant poaching in the field; to 
reduce the illegal trade nationally and internationally; and to 
reduce excessive demand.
    The methods that I know best are used in northern Kenya by 
the Northern Rangelands Trust and the Kenya Wildlife Service. 
This NGO and wildlife authority make deals with communities so 
that they get a benefit from the conservation option. The 
nomadic people of northern Kenya are being settled through the 
creation of group ranches, and this allows them to adopt a 
conservation option which will benefit them. It is vital that 
they do so with good governance. The community conservancy 
movement in northern Kenya aims to get that good governance so 
that the communities elect officials, chairmen, and treasurers, 
hold annual elections, and have accounts, and does not escape 
those essentials which could lead to corruption. The result is 
you then get support from the communities. And we have seen an 
amazing increase in information about poachers coming in there.
    Of course, there is a need for a good informer network 
which comes from community good will, linked to rapid response 
antipoaching teams, skilled trackers, and local volunteer 
scouts. We want in northern Kenya to create role models of 
African conservationists who will be looked up to and to found 
a conservation effort based on local values. Local ranger 
forces trained by the Kenya Wildlife Service can become an 
elite.
    I personally believe also that high-tech solutions can 
help. We have got to think outside the box. Tracking of 
elephants by GPS and satellites has been pioneered by Save the 
Elephants in Kenya, Mali, central Africa, and South Africa. It 
has now proved greatly useful to improving elephant security, 
by developing algorithms to detect wounded animals and 
mortality and to relate to the patrol centers, giving instant 
feedback. If there were ever the possibility to engage such a 
U.S. agency as DARPA to harness their intellectual and 
financial resources, a small investment could enormously help 
to save elephants and to promote stability. We dream of 
developing a high-tech collar that will incorporate more 
sensors and can be used for tactical use, including gunshot 
detectors, accelerometers to measure fine movements, and the 
ability to track ivory and rhino horn as it goes through its 
illegal movements.
    The other main priority is to tackle demand for ivory. 
Currently China emerges as the leading driver of illegal trade 
in ivory. According to the Kenya Wildlife Service, 90 percent 
of ivory seized at Kenya's airports involve Chinese nationals, 
and since 2007, the amount of illegal ivory seized in Kenya has 
gone up by 800 percent.
    In hindsight, it looks as if the new spike in demand for 
ivory and the resulting poaching crisis was exacerbated by the 
decision in 2008 to allow a one-off sale to China of legal 
ivory. This seems to have stimulated demand, as we predicted 
might be the case. It does not seem to be problematical now for 
Chinese consumers to buy ivory if some of it is legal and some 
is not. It creates confusion.
    I visited China in October 2010 to learn how the Chinese 
regarded their own elephants. In Xishuangbanna, the last of the 
wild Chinese elephants still hold out in the forests. I learned 
that the Chinese highly value their own wild elephants, and 
they are strictly protected. If China would develop a 
leadership role in 
Africa, as well as in their own country, with respect to 
elephants, much of the problem could be solved. ``If the buying 
stops, the killing can too.'' It is a phrase borrowed from an 
NGO, WildAid, that has much truth.
    So for the first time in history of continental Africa, 
large numbers of Chinese are living in Africa and individually 
shipping out the ivory. There is more disposable income in 
China today than in history, ivory being a luxury commodity.
    The ivory trade controls internally in China have broken 
down. In other words, those controls that were imagined to be 
at the heart of the last one-off sales permitted by CITES have 
failed.
    Finally, the United States Government should/could use its 
considerable diplomatic influence to join with China in a 
leadership role to take immediate measures to end the illegal 
trade. China's recent law enforcement actions are very welcome, 
but they need to be enshrined and sustained over the long term. 
Ideally the U.S. Government could share some awareness of the 
current elephant situation and work in a joint leadership with 
China to solve the problem. If China would declare a unilateral 
10-year moratorium on all ivory imports, there would be a 
better future for elephants in Africa.
    And Thailand must enact serious legislative reforms to 
control its internal ivory market.
    Failing these needed actions, the U.S. Government should 
ensure that those countries driving the demand are held to task 
at the upcoming CITES Conference of the Parties in March 2013. 
Maybe the United States should consider application of the 
Pelly amendment and the sanctions process that law offers in 
cases where CITES is being seriously undermined. I can think of 
no wildlife trade situation more serious than that facing the 
African elephant.
    Thank you for giving your precious time to listen to the 
plight of elephants. Referring to prehistoric elephants 10,000 
years ago, they lived here in this country, and I hope we can 
avoid repeating the hunting that led to their demise. Thank 
you.
    [The prepared statement of Dr. Douglas-Hamilton follows:]

              Prepared Statement of Iain Douglas-Hamilton

                              INTRODUCTION

    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to testify today. I am honoured to appear 
before your committee. My name is Iain Douglas-Hamilton, and I have 
been studying elephants in Africa since 1966. I founded the African 
Elephant Specialist Group of the IUCN in 1975 and launched the first 
pan-African elephant survey in 1977, funded by WCS and WWF. I have 
testified three times before Congress in the 1970s and 1980s when 
elephants were in peril from the ivory trade. We are once again in that 
situation. We are experiencing a huge upsurge in poaching, possibly to 
levels as high as those witnessed in the 1980s before the ivory ban. 
This time, however, we have more eyes on the ground and some unified 
systems endorsed by parties of the CITES treaty, for monitoring illegal 
killing of elephants (MIKE) and monitoring illegal trafficking of ivory 
through TRAFFIC, and their Elephant Trade Information System (ETIS). 
There are also many independent elephant scientists on the ground and 
trained rangers of wildlife authorities.
    We have slid into an acute crisis with the African elephant that 
does not appear to be on many people's radar in the United States. 
What's happening to the elephants is outrageous, and the more so since 
we have been through these ivory crises before and should have found 
solutions by now. It is time for concerned individuals, NGOs, and 
Governments to take action.

Role of the United States
    I want to acknowledge the profound leadership role that the United 
States has played in conserving the African elephants. In particular, I 
want to thank Congress for providing key funding for U.S. agencies that 
are working to conserve elephants in the wild. Specifically, there is 
the U.S. Fish & Wildlife Service, which has provided a consistent 
source of funding through the African Elephant Conservation Fund. Then 
there is USAID, which is helping to conserve the large landscapes that 
elephants call home through its biodiversity conservation programs in 
Africa. Moreover, the U.S. State Department has played a central role 
that bolsters wildlife trade enforcement efforts around the world. 
Collectively, these United States led efforts have made a huge 
contribution to elephants' survival. Without them the elephants would 
be in a much worse state than they are now.
    Moreover U.S. conservation groups like World Wildlife Fund, 
Wildlife Conservation Society, International Fund for Animal Welfare, 
Wildlife Conservation Network, The Nature Conservancy, and African 
Wildlife Foundation, and many others, are working across Africa to 
provide essential financial support, strategic guidance, scientific 
research, political connections, and capacity-building opportunities on 
the ground for addressing the elephant crisis.It is vital that this 
American support continues, and if possible be increased to deal with 
the current crisis.

               HISTORICAL PERSPECTIVE AND CURRENT TRENDS

    Historically, the ivory trade has been the greatest threat to the 
continued survival of elephants in Africa. It was in the late 19th 
century that the trade first grew large and efficient enough to drive 
down elephant numbers in Africa significantly. Protective measures 
introduced in some countries in colonial times allowed a recovery in 
the 20th century. The 1960s was the golden era for the national parks, 
when animals were exposed to mass tourism and became tame and 
approachable. Unfortunately, the ivory trade surged again in the 1970s 
and 1980s, driven by prosperity in the Far East, mainly from Japan. 
This caused massive elephant losses in East, West, and Central Africa 
and parts of Southern Africa. The estimated minimum elephant population 
of 1.3 million in 1979 fell to half that number by the mid 1980s and to 
the approximately 450,000 (with wide error margins), by 2007, the last 
time a continental estimate was made by the African Elephant Specialist 
Group. In 1989, the international ban on ivory trade went into effect, 
resulting in an increase in elephants in many parts of Africa, 
especially in the Savannahs of East and Southern Africa, though 
notably, the elephants of Central Africa continued to decline.
    Evidence now shows, that strong demand for ivory is once again 
driving the illegal killing of elephants to unsustainable levels, and 
that most elephant populations in Africa are already in decline or soon 
will be so, some of them dramatically.

Samburu Case Study
    I want to refer to a case study where rising ivory prices threaten 
elephants. This is in Northern Kenya where my organization, Save the 
Elephants, has been working for over 15 years, together with 
researchers from Oxford University (my own alma mater), Colorado State 
University, and many other world class institutions in America and 
abroad. We have trained a first class team of local staff who take 
their place among African elephant experts. We record in minute detail 
the births, deaths, movements and social dynamics of a sample of about 
500 known elephants, making it one of the world's best-studied 
populations. During this time, Samburu was a safe haven, and the 
elephant numbers increased. But a tipping point was reached in 2008 
when elephant numbers were reduced when drought and a spike in illegal 
killing took its toll. Since then, poaching rates have steadily risen, 
and last year saw the highest poaching rates recorded. Selection of 
bulls with big tusks has resulted in a population with less than half 
the number of males to females. And now poachers have begun to target 
adult females. This often has the terrible effect of leaving families 
without their leaders. The number of orphans within the population is 
increasing rapidly.
    These changes correlate with rising ivory prices and a near 
tripling of the total number of seizures of illegal ivory in or coming 
from Kenya. Our work with the Kenya Wildlife Service (KWS) and the 
security team of the Northern Rangeland Trust (an NGO supported by The 
Nature Conservancy (TNC), that engages local communities in 
conservation), has shown that local black-market ivory prices around 
Samburu have more than doubled since 2007. Now they are an order of 
magnitude greater than in 1990. A year ago we calculated that ivory of 
the largest male elephant poached in the Samburu population was 
equivalent to 1.5 years' salary for a wildlife ranger, or 15 years' 
salary for an unskilled worker. Since then ivory prices have soared yet 
higher to 18,000 Kenya Shillings per kilo. The incentives to kill 
elephants are threatening to overwhelm the capacity to protect them.
    For poachers in the field across Africa, local ivory prices have 
reached a point at which criminals are willing to target even well 
protected, closely monitored populations. But in Africa, it is a fact 
that most poaching is easy--most elephant populations are poorly 
protected and offer soft targets. Based on the trends we were 
observing, Save the Elephants warned a year ago that the growing 
pressure on the Samburu elephant population, which is one of the better 
protected populations in Africa, might be a harbinger of what was to 
come for Africa's other protected areas.\1\ I am sad to say that, in 
the intervening months, we have been proven correct, and elephant 
poaching rates have spiked across the continent. The least well-
protected populations have been the hardest hit.
---------------------------------------------------------------------------
    \1\ Wittemyer, G., D. Daballen, and I. Douglas-Hamilton. 2011. 
Rising ivory prices threaten elephants. Nature 476:282-283.
---------------------------------------------------------------------------
    Scientific evidence from Central Africa has shown a devastating 
decline of forest elephants, documented in detail by Fiona Maisels of 
WCS and her numerous colleagues. Their exhaustive studies and analysis 
show that the African forest elephants (Loxodonta cyclotis)--which are 
taxonomically and functionally unique from the better known savannah 
elephants--are being poached at accelerating rates and have lost 62 
percent of their numbers between 2002-2011. Their paper, now being 
reviewed for a scientific journal, compiles all previous references and 
is the latest and most comprehensive paper on the status and trends of 
African forest elephants.
    An analysis for West African elephant trends has been made by 
Bouchet, et al., that shows a similar downward trajectory. However, 
these elephants only comprise about 3 percent of the continental 
population at most.
    Information has now come in from highly credible independent data 
sources and been triangulated, and all of it points in the same 
direction of a massive poaching surge.

TRAFFIC/ETIS
    TRAFFIC, a joint program of WWF and IUCN--The World Conservation 
Union, is the world's leading wildlife trade monitoring organization. 
ETIS is TRAFFIC's Elephant Trade Information System that tracks illegal 
trade in elephant ivory using records of ivory seizures that have 
occurred anywhere in the world since 1989. Illegal trade in ivory has 
been steadily increasing since 2004. The increases were rather modest 
initially, but since 2009 the upward escalation has surged. Looking at 
23 years of date, 3 of the 5 years in which the greatest volumes of 
ivory were seized globally occurred in 2009, 2010, and 2011. Tom 
Milliken, head of TRAFFIC's ETIS, referred to 2011 as the ``annus 
horribilis'' for elephants.

MIKE (Monitoring the Illegal Killing of Elephants)
    The Monitoring Illegal Killing of Elephants (MIKE) program is a 
site-based monitoring system under the Convention on International 
Trade in Endangered Species of Wild Fauna and Flora (CITES). The data 
gathered by the program show that illegal killing of elephants has 
increased steadily since 2006, with 2011 showing record levels since 
MIKE began in 2002. The increases are statistically significant, and 
poaching increases are happening in all four regions of Africa. Central 
Africa continues to show the worst levels of illegal killing relative 
to other regions, but all regions, even Southern Africa, had levels of 
illegal killing above the level thought to be sustainable by the 
Technical Advisory Group of the MIKE programme. Central African PIKE 
values, which consistently register at the highest levels, are coming 
now to East Africa.

Independent NGO Project Reports, Press Sources and the Scientific 
        Literature
    In 2012, there is currently no let up in reports of the illegal 
killing of elephants. Unprecedented large-scale killings have been 
reported from Cameroon, from Garamba in Northern DRC, and from Kenya, 
Tanzania, Mocambique and many other countries. This suggests that this 
illegal killing is widespread across the continent and is at a greater 
level than any year since the ivory trade ban of 1989.

                       IMPLICATIONS FOR SECURITY

    Poaching, by definition, entails armed individuals, often gangs, 
operating illegally in wildlife habitats that, in many cases, are 
protected areas that attract tourists and contribute to the economic 
development of many African countries. Where poaching is particularly 
entrenched and pernicious, armed militias from one country temporarily 
occupy territory in another country, destroying its wildlife assets and 
posing serious national security threats on many levels. Every year, 
throughout Africa, dozens of game scouts are killed by poachers while 
protecting wildlife.
    The increase of large scale (>800kg) ivory seizures is evidence of 
the growing involvement of organized crime in the illicit trade in 
wildlife. Illegal wildlife trade is often conducted by well-organized 
criminal networks that are undermining efforts to strengthen the rule 
of law and governance in many countries. Illegal wildlife trade in the 
21st century has an estimated value of $7.8-$10 billion per year, a 
figure which, if correct, would make it the fifth-largest illicit 
transnational activity worldwide, after counterfeiting and the illegal 
trades in drugs, people, and oil.\2\ In terms of its size, wildlife 
trade outranks the small arms trade. It also has connections to these 
other illegal activities--guns, drugs, and ivory may be smuggled by the 
same criminal networks and using the same techniques and smuggling 
routes. The White House recognized the importance of addressing the 
issue last July. when it issued the President's National Strategy to 
Combat Transnational Organized Crime and Converging Threats to National 
Security. This highlighted environmental crimes as being among the top 
five most lucrative criminal activities.
---------------------------------------------------------------------------
    \2\ http://transcrime.gfintegrity.org/.
---------------------------------------------------------------------------
    Middleman, ivory traders, often direct poaching activity and engage 
in targeted efforts to corrupt law enforcement and protection efforts. 
In some cases, organized Asian criminal syndicates, which are now 
increasingly active in Africa, work with local economic and political 
elites to subvert control systems and operate with relative impunity. 
The trends in both the MIKE and ETIS data sets are highly correlated 
with governance shortfalls and corruption. In other words, where 
poaching of elephants and illegal trade in ivory is most acute, poor 
governance is likely to be a serious operating factor. A related issue 
is the theft of government ivory stocks, a persistent problem in many 
African countries. Just last month in Mozambique, 266 pieces of 
elephant ivory, representing over one tonne of ivory, were stolen from 
the government ivory store in the Ministry of Agriculture building in 
Maputo. Overall, illegal trade in ivory produces a broad corrupting 
influence on governments.
    Poachers who profit from killing elephants and harvesting illegal 
ivory may also have ties to criminal gangs and militias based in 
countries such as Sudan (in the case of Central Africa) and Somalia (in 
the case of East Africa). Longstanding historical ties between slave 
trading, elephant poaching and the tribes that now form Sudan's 
Janjaweed militia (which has been responsible for many of the worst 
atrocities in Darfur) mean that illegal ivory may well being used as 
powerful currency to fund some of the most destabilizing forces in 
Central Africa and East Africa.
    It is in parts of West and Central Africa where the situation is 
most dire and severe poaching is already resulting in the local 
extinction of elephant populations. This fact--and the connection 
between wildlife crime and regional security--has been dramatically 
driven home in recent months due to several high-profile poaching 
incidents involving large-scale massacres of elephants, violations of 
international sovereignty and the need for military engagement, both by 
Central African governments and the U.S. military.
    Garamba National Park is located in northeastern Democratic 
Republic of Congo (DRC), on the border with South Sudan. For many 
years, this park was supported by World Wildlife Fund and African Parks 
Network to protect the last remaining population of northern white 
rhino, as well as the park's elephants. The park was invaded many times 
by both sides during the long civil war in Sudan, and poaching by well-
armed militias was common. The result was a steady decline in rhino 
populations from at least 500 in the 1970s to the last observation in 
the wild several years ago. As a result of the ongoing poaching, 
Northern White Rhino are now considered extinct in the wild.
    Garamba NP is still home to one of the few remaining elephant 
populations in DRC, however. An analysis of elephant trends in DRC 
shows that there are probably now only remnant populations of elephants 
in that country. The country's total elephant population is estimated 
at less than 20,000 and declining rapidly \3\--down from an estimated 
377,000 as recently as 30 years ago.\4\. Garamba NP is now comanaged by 
DRC's national park agency and Africa Parks Network, a Dutch NGO. Due 
to their efforts and the improved security following the tentative 
peace in southern Sudan, the situation in the Park has seen a steady 
improvement in recent years and a reduction in poaching. This was true 
up until March 15 of this year. On that day, a foreign helicopter 
entered DRC airspace, and 22 elephants were killed by a marksman firing 
from the helicopter, killing the elephants with a single shot to the 
top of the head. While the actual slaughter was not witnessed, a 
Russian manufactured Mi-17 troop-carrying helicopter was photographed 
in the vicinity at the same time. The helicopter was illegal and of 
unknown origin.
---------------------------------------------------------------------------
    \3\ http://www.bonoboincongo.com/2009/02/01/how-many-elephants-are-
left-in-dr-congo/.
    \4\ Douglas-Hamilton, I (1979) African Elephant Action Plan--report 
to IUCN.
---------------------------------------------------------------------------
    However, the most notorious and well-reported incident in recent 
memory involving the slaughter of elephants and violations of national 
sovereignty took place this past winter, when at least 200 and perhaps 
upward of 400 elephants were killed in northern Cameroon by heavily 
armed, well-organized militia coming from Sudan and perhaps Chad.\5\ In 
early February 2012, bands of heavily armed poachers illegally crossed 
from Chad into northern Cameroon's Bouba N'Djida National Park and, 
over the course of two months, massacred hundreds of the park's 
elephants for their tusks. The poachers, believed to be Sudanese with 
ties to the Janjaweed, travelled over 1,000 miles on horseback, 
disregarding international borders to target systematically the 
elephants of Bouba N'Djida NP. The park guards were ill equipped, 
unarmed and few in number, and the Sudanese militants were able to 
operate with impunity for weeks. The Cameroonian Government was slow to 
react and recognize the severity of the problem. Repelling the invaders 
eventually required the involvement of the Cameroonian military, with 
casualties on both sides and a resulting seizure of both ivory and 
weapons. The crisis even provoked the engagement of the U.S. military, 
including an in-person meeting between the President of Cameroon and 
U.S. General Carter F. Ham, Commander of U.S. AFRICOM.
---------------------------------------------------------------------------
    \5\ http://www.usatoday.com/news/world/environment/story/2012-03-
16/cameroon-elephants- poaching/53564500/1.
---------------------------------------------------------------------------
    Over the past year, similar poaching attempts have been made by 
Sudanese militants targeting elephants in Central African Republic's 
Dzanga-Sangha Reserve. Armed horsemen, believed to belong to the same 
band of Sudanese who raided northern Cameroon earlier this year, have 
twice attempted to enter the Dzanga-Sangha protected area complex, home 
to the majority of the remaining elephants in Central African Republic 
(CAR). The first attempt, in the fall of 2011, was successfully 
repelled by the CAR army after World Wildlife Fund and other partners 
on the ground alerted the government to the imminent threat. The most 
recent incursion by the poachers is still ongoing at the time of this 
testimony. In early May 2012, about three-dozen Sudanese raiders were 
discovered in CAR moving toward the Dzanga-Sangha Reserve. At least 8-
10 elephants have been killed outside of the park, and operations to 
capture and repel the invaders by the CAR military are currently 
underway. Both Cameroon and the Republic of Congo are coordinating with 
CAR in the effort and have stationed troops along their shared borders 
to prevent the poachers from moving into their territory. While the 
outcome remains uncertain at the present time, such cross-border 
cooperation and a history of CAR's ability to activate its military and 
respond quickly and effectively to address these kinds of invasions 
inspires hope.

                            SUCCESS STORIES

    There are specific examples where support for increased security 
has shown measurable success and has lowered the level of illegal 
killing as measured by the MIKE programme. These include the 
populations in Zakouma in Chad, Amboseli and Tsavo in Kenya, and 
Dzangha Dzangha in Central African Republic. In each case, funding for 
an intensive antipoaching programme has been instituted, having a 
positive effect. African Parks Network reported that by employing 
strategic antipoaching tactics, they reduced poaching at Zakouma from 
an average of 800 elephants killed per year to 7 in 2011. In Kenya in 
the last 6 weeks there has been a surge in antipoaching actions 
implemented by the Kenya Wildlife Service (KWS). For example, in the 
largest Kenyan national park, Tsavo, poaching gangs have been 
confronted, and a reduction in the number of poached elephants has been 
observed from the air and independently confirmed. Likewise, in 
Northern Kenya, a similar surge assisted by the KWS, the Northern 
Rangeland Trust and Save the Elephants has resulted in a recent 
measurable decrease in illegally killed elephants. These examples 
demonstrate that it is not impossible to win, and good enforcement on 
the ground can work.
    As the example of Dzanga-Sangha demonstrates, this is even true in 
Central Africa, which is the hardest hit region of the continent and in 
many ways the most difficult one in which to work successfully as an 
elephant conservationist. Despite the repeated threats from militarized 
Sudanese poachers and the nearby massacre in Cameroon this past winter, 
not a single elephant was poached in Dzanga-Sangha in 2011, the first 
such achievement in many years. This was due in large part to strong 
protection efforts that have been developed over several years by 
conservation NGOs, such as World Wildlife Fund, and governmental and 
nongovernmental partners, including USAID through its Central African 
Regional Program for the Environment (CARPE). Another major factor 
helping to secure the park has been the cross-border cooperation that 
has been developed between park guards of the three bordering 
countries--CAR, Cameroon and Republic of Congo--each of which contain a 
portion of the Sangha River Tri-national landscape (Dzanga-Sangha is 
the CAR portion). Park guards engage in regular communication, joint 
patrols and joint law enforcement, so that information is rapidly 
shared and potential poachers can be pursued across international 
borders.
    Another example comes from Gabon, where it is believed that more 
than half the remaining forest elephants exist. The Wildlife 
Conservation Society, using equipment supported by the U.S. Fish & 
Wildlife Service, discovered an elephant killing field in Wonga-Wongue 
Reserve, where more than 30 large adult bulls were slaughtered for 
their tusks, and their carcasses left untouched. The ensuing 
intervention cleared the reserve of poachers and provided a necessary 
call to action, which the Government of Gabon heeded.
    The examples in CAR and Gabon demonstrate that it is not impossible 
to win, and good enforcement on the ground can work. Central African 
countries can combat the environmental and security threats posed by 
transnational wildlife crime when governments engage and prioritize the 
issue, when enough capacity is in place to respond effectively, and 
when countries cooperate on a regional and transboundary basis. Such 
regional cooperation can also help to foment stronger regional ties on 
other issues and reduce regional tensions, as evidenced by the fact 
that countries that were at war not long ago are now engaged in joint 
security missions to protect their shared wildlife resources, including 
elephants. These resources, if properly protected, can form the basis 
for future economic growth in these impoverished, rural regions of the 
continent. In several African countries, this is already happening.

                               SOLUTIONS

    There are several main issues that need to be confronted, elephant 
poaching in the field, illegal trade both national and international, 
and excessive demand for ivory at the consuming end that drives the 
whole process.

Boosting Antipoaching in the Field
    The methods used in Northern Kenya are the ones with which I am 
most familiar and are particularly revealing. I have been working 
closely with the Northern Rangelands Trust, which is a programme 
supported by the Nature Conservancy and USAID, where a detailed written 
strategy has been worked out, in close collaboration with the police 
and the Kenya Wildlife Service of how to deal with insecurity resulting 
from poaching.
    The nomadic people of Northern Kenya are being settled through the 
creation of group ranches. It is important to build community 
institutions with good governance. When this happens the support of the 
people is guaranteed. The rules are that each community should elect 
officials, a chairman and a treasurer, and have annual meetings and 
regular elections to office. The Northern Rangelands Trust is not 
shirking all these essentials as part of its strategy as a donor.
    For this, resources are needed. Political will and support from the 
government are essential, and these we already have. We also need 
helicopters, planes, more trained tracker teams as well as the informer 
network, the rapid response team, the skilled trackers, the local 
volunteer scouts. We want to create role models of African 
conservationists who will be looked up to and to found a conservation 
effort based on local values. Local ranger forces can become elite, 
which is a better solution than pouring in foreign manpower to solve an 
African problem. Kenya has been through bad patches before, with 
elephant poaching leading to chaos, and has come back from the brink. 
It can do so again.
    The principal of local buy-in, combined with training of local 
people to be disciplined scouts and rangers and a healthy collaboration 
between the private sector, conservationists and the national wildlife 
management authority, give this project a good chance of success. It 
can be regarded as a role model.
    I personally believe, that high-tech solutions can also help. 
Tracking of elephants by GPS and satellites was pioneered by Save the 
Elephants in Kenya, Mali, Central Africa and South Africa, and has now 
proved to be useful in greatly improving elephant security. This is one 
of several high-tech solutions proposed. Save the Elephants is also 
developing algorithms to detect wounding and mortality and organizing 
patrols according to alerts that are generated automatically. If the 
resources of the U.S. agency DARPA were made available it would greatly 
promote these high-technology solutions.
    We would like to develop a new high-tech collar incorporating more 
sensors that can give information of tactical use, such as gunshot 
detectors and accelorometers to measure fine movements. Thinking 
outside the box is needed to defeat the poaching and the use of remote 
sensors, gunshot indicators, and drones would help to give an edge over 
well armed and highly motivated criminal gangs.

Lowering Demand
    The other main priority is to tackle the demand for ivory. There 
has been a paradigm shift in conservation thinking that acknowledges 
demand for ivory is the key factor driving poaching of elephants. 
Currently, demand for ivory exceeds supply. China has emerged as the 
leading driver of illegal trade in ivory. According to the Kenya 
Wildlife Service, 90 percent of ivory seized at Kenya's airports 
involves Chinese, and since 2007, the amount of illegal ivory seized in 
Kenya has gone up by 800 percent.
    In hindsight, it looks as if the new spike in demand for ivory and 
the resulting poaching crisis was exacerbated by the decision in 2008 
to allow a one-off sale to China of legal ivory harvested from 
elephants culled from the growing populations in Southern Africa. Where 
up until that point, all ivory had been illegal under the ban, this 
influx of ``good'' ivory into the market no doubt created the 
perception in the minds of potential Chinese consumers that it was no 
longer problematic to buy ivory in general, undermining the 
effectiveness of the ban. The result appears to have been a spike in 
demand, fed by the growing wealth of China and its neighbors, the 
confusion over legal versus illegal ivory, and the predictable 
willingness of ivory traders to exploit that confusion and sell 
illegally harvested ivory as though it were legal.
    In October 2010, I visited China to learn how the Chinese regarded 
their own elephants. In Xishuangbanna, the last of the wild Chinese 
elephants still hold out in the forests. I learned that the Chinese 
highly value their own wild elephants, and they are strictly protected. 
If China would respect elephants in Africa as well as her own, much of 
the problem would be solved. ``If the buying stops, the killing can 
too.'' It is a phrase borrowed from the NGO, WildAid, that has much 
truth.
    It appears, however, that the one-off sales permitted in 2008 by 
the CoP of CITES may have promoted demand within China, which, along 
with Japan, was registered as having adequate controls in ivory 
marketing. Recent ivory trade studies by Esmond Martin, the trade 
monitoring information collected by TRAFFIC/ETIS, and investigations by 
the Environmental Investigation Agency, International Fund for Animal 
Welfare, and BBC Panorama have shown that the majority of ivory now on 
sale in China comes from illegal sources. Demand for ivory in China is 
flourishing as never before and is driving the illegal killing of 
elephants, but the consequences of their buying illegal ivory is 
largely unknown by the Chinese public.
    For the first time in the history of continental Africa, large 
numbers of Chinese are living in Africa collecting ivory and shipping 
it out. This is an incredibly potent force when coupled with the fact 
that the Chinese probably have more financing available than almost any 
other investor in Africa today. According to Tom Milliken, Global 
Elephant and Rhino Program Leader for TRAFFIC, ``There is more 
disposable income in China today than in history. Ivory has the cachet 
of being a luxury status commodity, and more people than ever before 
are able to own a piece of ivory now. The demographics of China 
absolutely swamp anything.''
    Ivory trade controls have broken down. In other words, the controls 
that were imagined by the CITES parties to exist at the heart of the 
ivory importing, and would justify the one-off sales of ivory, have 
failed.
    If we accept that demand for ivory is the key factor driving 
elephant poaching, and that it is unsustainable, then it is logical 
that united world action is needed to lower demand for ivory if 
elephants are to survive. At bottom, China holds the key to the future 
of the African elephant. The preponderance of illegal ivory in China 
makes anything less than a moratorium a distraction and impracticable.

                            RECOMMENDATIONS

    The United States Government should use its considerable diplomatic 
connections to encourage the two main markets for illegal ivory--China 
and Thailand--to take immediate measures to end the flourishing illegal 
trade. China's recent positive wildlife trade enforcement actions must 
be enshrined and sustained over the long term. Ideally the U.S. 
Government could share some awareness of the elephant situation and 
work toward a joint leadership with China to solve the problem. If 
China would declare a unilateral 10-year moratorium on ivory imports, 
there would be a future for elephants in Africa.
    And Thailand must enact serious legislative reforms to control its 
internal ivory market. Failing these needed actions, the U.S. 
Government should ensure that those countries driving the demand are 
held to task at the upcoming CITES CoP in March 2013. The United States 
should also consider application of the Pelly amendment and the 
sanctions process that law offers in cases where CITES is being 
seriously undermined. I can think of no wildlife trade situation more 
serious than that now facing the African elephant, due to the exploding 
demand for and illegal trade in ivory.

    The Chairman. Thank you very much, Dr. Douglas-Hamilton.
    I understand you have a video.
    Dr. Douglas-Hamilton. Yes. This is a video.
    The Chairman. How long is the video?
    Dr. Douglas-Hamilton. I think it is just a minute or 2.
    The Chairman. Can we show that now before we have----
    Dr. Douglas-Hamilton. Yes. It comes from BBC Panorama.

    [Video shown.]

    The Chairman. Well, that sums it up pretty effectively. 
Thank you very, very much, Doctor.
    Mr. Cardamone.

STATEMENT OF TOM CARDAMONE, MANAGING DIRECTOR, GLOBAL FINANCIAL 
                   INTEGRITY, WASHINGTON, DC

    Mr. Cardamone. Thank you, Mr. Chairman, Senator Coons, and 
members of the committee. I appreciate the opportunity to 
appear before you today to make the connection between illegal 
wildlife trafficking and national security. Global Financial 
Integrity is a Washington, DC-based research organization that 
is focused on the opacity of the global financial system and 
the facilitating role the lack of transparency plays in money 
laundering and corruption and the threat it poses to the 
security of all nations.
    Ivory poaching, like all forms of illegal wildlife trade, 
is a very profitable business. Global Financial Integrity 
estimated the value of the illicit trade in all forms of 
wildlife, excluding fishing and timber, at up to $10 billion 
annually. In recent years, organized crime syndicates, 
militias, and even terrorist elements have reportedly taken 
notice of the profits that can be made in wildlife trafficking, 
generating an alarming uptick in the scale of the industry and 
posing serious national security concerns for the United States 
and our partners.
    Organized criminal networks involved in illicit wildlife 
trafficking routinely use sophisticated money-laundering 
schemes to move profits and shield their organizations from 
detection and prosecution. The use of anonymous shell 
companies, often layered across multiple jurisdictions, is one 
of the most effective tools available to money launderers, 
obscuring the money trail, and impeding law enforcement 
investigations. They are frequently used not just by 
traffickers, but also by terrorists, drug cartels, arms 
dealers, kleptocrats, tax evaders, and rogue states to easily 
launder their money.
    Unfortunately, the United States is a breeding ground for 
these shell corporations. It is estimated that nearly 2 million 
companies are established in the United States each year, and 
the vast majority of them are not required to provide any 
information, neither names nor addresses, about the true owners 
of the firms. This lack of information means that shell 
companies with hidden owners are opaque to law enforcement.
    While most shell companies are likely to be involved in 
legitimate businesses, U.S. national security is left to chance 
because of our inability to tell the difference between an LLC 
created by a dentist in Texas and one set up by a government 
entity in Tehran.
    Viktor Bout, the so-called ``Merchant of Death,'' who 
provided arms to the Taliban, the FARC, and to child soldiers 
in Sierra Leone, controlled at least a dozen shell corporations 
which were registered in Texas, Florida, and Delaware. 
Additionally, a recent World Bank report revealed the United 
States was the locale of choice for corrupt foreign politicians 
establishing anonymous shell companies to launder their money.
    It is also important to ensure that, when good laws are in 
place to counter money laundering, financial institutions 
comply with the law. Recent reports have raised concerns that 
this may not be the case.
    A recent study from the British Government revealed that 75 
percent of U.K. banks investigated in a recent round of 
targeted regulator oversight were not sufficiently complying 
with antimoney laundering regulations. There is no reason to 
believe the situation is any different at American banks. 
Indeed, major American financial institutions, including the 
former Wachovia Bank, Citibank, and most recently HSBC Bank USA 
have allegedly not been performing adequate due diligence on 
their customers.
    Congress should address these problems. Senate bill 1483, 
the Incorporation Transparency and Law Enforcement Assistance 
Act, is bipartisan legislation that would establish beneficial 
ownership registries that could be accessed by law enforcement 
and tax authorities. The bill is heartily supported by the 
Departments of Justice, Treasury, and Homeland Security, and 
many law enforcement organizations also endorse the bill. By 
implementing S. 1483, not only will the Nation's security be 
stronger, the United States will secure the moral high ground 
needed to encourage its allies and global fora like the 
Financial Action Task Force in Paris, the G8 and the G20 to 
consider beneficial ownership registries as a new international 
norm.
    The primary point I want to make today is that the 
mechanisms in the global financial system that permit the 
laundering of illegal ivory proceeds are the same mechanisms 
used by Viktor Bout, drug cartels, and terrorist groups. Shell 
companies, secret bank accounts, and a host of other opaque 
entities create a structure that facilitates trafficking of all 
types and adversely impacts U.S. national security. Addressing 
this challenge by creating corporate registries should be a 
priority for Congress.
    Thank you again for the opportunity to address the 
committee. My written testimony has been provided for further 
details, and I look forward to your questions.
    [The prepared statement of Mr. Cardamone follows:]

                  Prepared Statement of Tom Cardamone

    Thank you Mr. Chairman, Ranking Member Lugar, and members of the 
committee. I appreciate the opportunity to appear before you today to 
make the connection between illegal wildlife trafficking and national, 
as well as global, security. Global Financial Integrity is a 
Washington, DC-based research organization that is focused on the 
secrecy inherent in the global financial system and the facilitating 
role it plays in tax evasion, money laundering, and corruption and the 
threat it poses to the security of all nations.
    Ivory poaching, like all forms of illegal wildlife trade, is a 
profitable business. Indeed, the U.S. State Department estimates the 
market price of poached ivory at $400 per pound.\1\ Global Financial 
Integrity recently estimated the global value of the illicit trade in 
all forms of wildlife, excluding fishing, at between $7.8 and $10 
billion.\2\ In recent years, organized crime syndicates, militias, and 
even terrorist elements have taken notice of the profits that can be 
made in the illegal trafficking of wildlife, generating an alarming up-
tick in the scale of the industry and posing serious national security 
concerns for the United States and our partners.

                        LOW RISKS, HIGH PROFITS

    In comparison to other forms of transnational crime, the risks and 
penalties associated with the illegal poaching and trafficking of 
wildlife are small. In many countries, poachers and traffickers face 
little more than a small fine and a couple of months in prison if 
caught, while penalties for drug trafficking can result in the death 
penalty.\3\
    On the other hand, rhino horn can now rival cocaine and gold in 
value by weight, making it an extremely lucrative business in which to 
engage.\4\

                          TERRORISM CONNECTION

    In the wake of the September 11, 2001, terrorist attacks on the 
United States, actions taken by Congress and the administration to 
target terrorist financing nearly eliminated the proliferation of shell 
banks and decapitated al-Qaeda's central command. This has forced the 
cash-starved organization and its affiliates to look for new sources of 
funding. Al-Qaeda affiliates can no longer count on al-Qaeda central 
command to finance their operations; they must raise most of their 
funding on their own.\5\ The illicit trafficking of wildlife appears to 
be one of the ways a number of al-Qaeda affiliates have chosen to raise 
money to fund their operations.
    Media reports indicate that two Bangladesh-based, Islamic terrorist 
groups affiliated with al-Qaeda, Jama'atul Mujahideen Bangladesh (JMB) 
and Harkat-ul-Jihad-al-Islami (HuJI), are raising funds for their 
operations via the illegal poaching of ivory, tiger pelts, and Rhino 
horns, among other things, in the Kaziranga jungle in northeastern 
India.\6\
    Last year, The Independent on Sunday, the British newspaper, and 
Vanity Fair separately reported that there is evidence that al-Shabaab, 
a Somali Islamist group with ties to al-Qaeda, has connections to the 
illicit poaching and trafficking of both ivory and rhino horn.\17\ \18\

                 ARMED GROUPS, MILITANTS AND INSURGENTS

    Several militias, armed groups, and insurgent groups have 
reportedly profited from illicitly poaching and trafficking wildlife in 
Africa and elsewhere.
    Central and east Africa are home to wildlife populations, active 
smuggling and poaching operations, and ongoing conflicts. In some cases 
these converge. During its years of war with Northern Sudan, the Sudan 
People's Liberation Army of what is now South Sudan is alleged to have 
poached ``elephants with grenades and rocket-propeller guns.'' \9\
    Sudanese militias, including the Janjaweed, are also reported to 
have engaged in the poaching of ivory for profit in Chad, Kenya, and 
elsewhere.\10\ \11\ Further east, Somalia's lack of governance makes it 
the perfect ground for smuggling of all kinds, and Somali poachers are 
allegedly engaged in significant poaching operations in Kenya.\12\
    In the war-torn Democratic Republic of Congo, the Congolese Army, 
the Rwandan Democratic Liberation Forces (FDLR) which led the Rwandan 
genocide in the 1990s, and the National Congress for the Defense of the 
People (CNDP) are all accused of participating in poaching in U.N. and 
INTERPOL reports.\13\
    Additionally, the Congressional Research Service (CRS) reports that 
Angola's National Union for the Total Independence of Angola (UNITA) 
and the Mozambican National Resistance (RENAMO) were two more ``militia 
or insurgent groups that were allegedly involved in wildlife 
trafficking'' during conflicts in those countries.\14\

                         LINKS TO DRUG CARTELS

    There are also possible ties between the illegal wildlife trade and 
drug traffickers. According to the CRS, much anecdotal evidence 
suggests that animal traffickers utilize similar smuggling routes as 
drug traffickers, particularly in Central and South America. The report 
stated the following:

          The United Nations reports that members of the former Cali 
        drug cartel in Colombia and Mexican drug dealers have also 
        allegedly smuggled mixed shipments of drugs and wildlife 
        products into the United States. According to the Brazilian 
        National Network Against the Trafficking of Wild Animals 
        (RENCTAS), 40% of an estimated 400 criminal rings smuggling 
        animals were also involved in other criminal activities, 
        especially drug trafficking. The CITES Secretariat has also 
        reported that combinations of parrots and drugs have been 
        smuggled together from Cote d'Ivoire to Israel.

    Further, the former Medellin drug cartel was allegedly involved in 
the illegal trade of rare birds.\15\

                 SHELL COMPANIES AND ANIMAL TRAFFICKING

    As organized crime, militias, and terrorist entities have become 
more involved in the illegal trade of wildlife in recent years, the use 
of sophisticated money laundering schemes to move their profits and 
shield the organizations from detection and prosecution are routinely 
detected.\16\ Illegally poached ivory from some 300 Zambian elephants 
was discovered by Singapore customs officials in 2002, and 
``investigations revealed a complex network of shell companies and 
pseudonyms used in procuring the ivory.'' Not surprisingly, as of 2010, 
8 years after the ivory was confiscated, ``no significant members of 
the network have been prosecuted.'' \17\
    Likewise, an illegal shipment of elephant tusks was discovered in 
2006 by Honk Kong customs officials, and INTERPOL indicates the paper 
trail led to another ``interlocking web of shell companies.'' \18\
    Further, the U.N. Secretary General noted in 2003 the high level of 
corruption, the involvement of organized crime and the heavy use of 
shell companies in the illegal trade of caviar. The Secretary General 
wrote the following:

          The caviar business exhibits most of the indicators of 
        involvement of organized crime elucidated above. The level of 
        violence and corruption are high, the trade is very well 
        organized, there are numerous front companies, the schemes for 
        circumventing restrictions are sophisticated and sometimes 
        involve the use of intermediary jurisdictions, there are 
        multiple shipments and the trade reaps large rewards that are 
        either integrated with legitimate profits by front companies or 
        used to acquire luxury goods.\19\

    Moreover, the Secretariat of the Convention on International Trade 
in Endangered Species of Wild Fauna and Flora (CITES) has highlighted 
``the establishment and use of fake or `front' companies to distribute 
and market wildlife products'' and noted that ``various forms of 
wildlife crime lend themselves to money-laundering activities and, 
thus, will attract the involvement of organized criminal groups.'' \20\

                ORGANIZED CRIME'S USE OF SHELL COMPANIES

    The use of anonymous shell companies, often layered via multiple 
jurisdictions, is one of the most effective tools available to money 
launderers and organized criminals, obscuring the money trail and 
impeding law enforcement investigations. They are frequently used not 
just by wildlife traffickers, but also by American and foreign 
terrorists, narcotraffickers, arms dealers, corrupt foreign officials, 
tax evaders, rogue states, and other criminals, to easily launder their 
money.\21\
    Anonymous shell companies are utilized by the arms dealers who 
supply animal traffickers, militants, and terrorists, with weaponry. 
They are used by the corrupt public official who accepts kickbacks and 
bribes into his or her offshore account in order to look the other way 
as poachers illegally pillage their country's natural resources. They 
are used by terrorists looking to clandestinely move their money around 
the world to finance their heinous crimes. They are used by rogue 
regimes, like Iran and North Korea, to circumvent international 
sanctions. They are used by drug traffickers like those in Mexico who 
have killed 50,000 people in their country in just the past 6 
years.\22\ Finally, they are used by tax evaders, who cost the 
developing world an estimated $1 trillion per year in illicit 
outflows.\23\ \24\

                  SHELL COMPANIES IN THE UNITED STATES

    Unfortunately, lax regulation and disparate state statutes make the 
United States a breeding ground for anonymous shell corporations. It is 
estimated that nearly 2 million companies are established in the United 
States each year, and the vast majority of those companies are not 
required to provide any information--neither names nor addresses--about 
the beneficial owners of the firms.\25\ And by ``beneficial owner'' I 
am referring to a person, rather than a law firm or agent, which 
controls or benefits financially from the activities of the 
incorporated entity. This lack of information means that shell 
companies with hidden owners are opaque to law enforcement and tax 
authorities. It also means that when illegal activity is suspected, an 
investigation often run into dead-ends.

                  THE THREAT TO U.S. NATIONAL SECURITY

    Of course, this situation is ripe for exploitation by foreign and 
domestic terrorists, drug cartels, arms dealers, foreign kleptocrats, 
tax evaders and traffickers of all stripes. While most shell companies 
are likely to be involved in legitimate business, U.S. national 
security is left to chance because of our inability to tell the 
difference between an LLC created by a dentist in Texas from one set up 
by a government entity in Tehran.
    Indeed, only after a long and expensive investigation was it 
discovered that 40 percent of the property located at 650 Fifth Avenue 
in New York was, in fact, owned by Iranian citizens who represented 
Bank Melli, the National Bank of Iran. The reason the investigation was 
delayed was that the individuals hid behind a partnership, which had, 
as one of its components, a shell company formed in New York which 
itself was controlled by an anonymous company set up in the island of 
Jersey.\26\
    Moreover, Viktor Bout, the so-called ``Merchant of Death,'' who 
provided arms to the Taliban, the FARC and to child soldiers in Sierra 
Leone, controlled at least a dozen shell corporations, which were 
registered in Texas, Florida, and Delaware. With benign-sounding names 
such as the ``Central African Development Fund'' or ``Daytona Pools,'' 
Bout was able to outwit and outrun law enforcement for decades until 
his recent arrest and conviction.\27\
    Further, a recent report from the World Bank revealed that the 
United States was the locale of choice for corrupt foreign politicians 
establishing offshore shell companies to launder their money and gain 
access to the international financial system.\28\

                 NONCOMPLIANCE: MONEY LAUNDERING LAPSES

    It is also important to ensure that, when good laws are in place to 
counter money laundering, financial institutions are complying with the 
law. Recent reports have raised concerns that this may not be the case.
    A recent study from the British Government revealed that 75 percent 
of U.K. banks were not sufficiently complying with antimoney laundering 
(AML) regulations.\29\ There is no reason to believe the situation is 
any different at American banks. Indeed, major American banks have been 
found to be in violation of their due diligence requirements in recent 
years. In 2010, the U.S. attorney prosecuting Wachovia for AML failures 
stated, ``Wachovia's blatant disregard for our banking laws gave 
international cocaine cartels a virtual carte blanche to finance their 
operations by laundering at least $110 million in drug proceeds.'' \30\
    Last month, Citibank was fined by the Office of the Comptroller of 
the Currency ``for failing to comply with a federal law that requires 
banks to establish protections against money laundering,'' \31\ and a 
special report by Reuters earlier this month alleged that HSBC's U.S. 
subsidiary, HSBC Bank USA, was guilty of ``apparent antimoney 
laundering lapses of extraordinary breadth.'' The report claims that 
the ``bank understaffed its antimoney laundering compliance division 
and hired `gullible, poorly trained, and otherwise incompetent 
personnel,' '' it claims that HSBC USA ``maintained accounts with `high 
risk' affiliates such as `casas de cambios'--Mexican foreign-exchange 
dealers--widely suspected of laundering drug-trafficking proceeds,'' 
and it states that ``in some instances, `management intentionally 
decided' not to review alerts of suspicious activity.'' \32\
    This shows a clear disregard for the law among many U.S. and 
international banks, and, although we live in a climate of fiscal 
austerity, it is important to ensure that U.S. financial regulators 
have the staff, funding, and resources necessary to adequately ensure 
compliance with the law. Congress should use its authority to increase 
the budgets of the Nation's financial watchdogs to make certain that 
they can do their jobs effectively.
    As a member of the Financial Accountability and Corporate 
Transparency Coalition, Global Financial Integrity sent a letter to 
U.S. Treasury Secretary Geithner in September, asking him to conduct a 
study, as the U.K. has done, to determine how well U.S. banks are 
complying with their AML obligations.\33\ We have yet to have a 
response to that letter from anyone in the administration.

                               SOLUTIONS

    While there is no silver bullet in the effort to curtail the 
ability of rebel and militant groups, as well as criminal and terrorist 
entities, to launder illicit funds garnered from ivory trafficking and 
other crimes, Congress has an important role to play to address the 
problem. Senate bill 1483, the ``Incorporation Transparency and Law 
Enforcement Assistance Act,'' is bipartisan legislation that would 
require companies to divulge the person or persons who own the firm and 
would require states to establish registries with this information, 
which could be accessed by law enforcement and tax authorities.
    The burdens that this legislation would impose on the states are 
minimal, while the benefits to national security are significant. No 
longer would the likes of Viktor Bout or the National Bank of Iran be 
able to forestall investigations by shielding their activities behind 
multiple layers of shell companies.
    While this legislation has some way to go before passage, it should 
be noted that it is heartily supported by the Department of Justice as 
well as the Treasury and Homeland Security Departments. Additionally, 
the Obama administration has included beneficial ownership as a core 
commitment of its Open Government Partnership Action Plan. Several law 
enforcement organizations also endorse the bill, including the Federal 
Law Enforcement Officers Association, the Fraternal Order of Police, 
and the Society of Former Special Agents of the FBI.

                           THE GLOBAL IMPACT

    Of course, one may question how a pending bill in Congress can have 
an impact on ivory poaching or other wildlife trafficking. As Assistant 
Secretary of State William Brownfield pointed out in February, 
``terrorist and insurgent groups have evolved into criminal 
entrepreneurs . . . engaging in illicit activities to finance their 
operations.'' \34\ Organized criminal networks that do not have 
political agendas are even more pervasive and often just as violent. 
The way these groups are able to hide, launder, and funnel illicit 
funds is through layers of nominee trusts, partnerships, shell 
companies, numbered bank accounts, and other entities for which little, 
if any, information is known. By implementing the ``Incorporation 
Transparency and Law Enforcement Assistance Act,'' not only will the 
Nation's security be stronger, but the United States will have secured 
the moral high ground needed to encourage its allies to consider 
beneficial ownership registries as a new global norm.

                                  FATF

    For example, this past February, the Financial Action Task Force 
(FATF) in Paris concluded a review of its international antimoney 
laundering provisions. While great progress was made in some areas, 
FATF did not strengthen its rules on anonymous corporate vehicles. The 
new standards do not require the disclosure of the true beneficial 
owners of corporate entities when they are formed, leaving it instead 
as an option for each member state to decide.\35\ This was a lost 
opportunity to address a major loophole used by many criminal entities. 
A strong incorporation transparency law would indicate the U.S. 
commitment to solving this problem.

                                   G8

    Additionally, the G8 nations have a mandate to coordinate efforts 
related to terrorist financing, money laundering and corruption. A 
subset of the G8 called the Roma/Lyon Group, which is comprised of law 
enforcement, intelligence and justice ministry experts, is specifically 
tasked with addressing terrorist financing, trafficking, and 
transnational crime. This group could be an effective advocate for 
global efforts to establish corporate registries. The benefit of a U.S. 
law requiring these registries is that it would have a clear influence 
on the future agenda of this group.
    The primary point I would like to make today is that the mechanisms 
in the global financial system that permit laundering of illegal ivory 
proceeds and funneling of money to armed groups are the same mechanisms 
used by Viktor Bout, drug cartels, and terrorist groups. Shell 
companies, secret bank accounts, and a host of other opaque entities 
create a structure that facilitates trafficking of all types, and 
adversely impacts U.S. national security and supports rebel groups. 
Addressing this challenge by creating corporate registries should be a 
priority for Congress.

----------------
End Notes

    \1\ Begley, Sharon, ``Extinction Trade: Endangered Animals Are the 
New Blood Diamonds as Militias and Warlords Use Poaching To Fund 
Death,'' Newsweek, March 1, 2008, accessed October 7, 2010, http://
www.newsweek.com/id/117875/output/print.
    \2\ Haken, Jeremy. ``Transnational Crime in the Developing World,'' 
Global Financial Integrity, February 2011: p. 11-14. http://
transcrime.gfintegrity.org/.
    \3\ Fison, Maryrose, ``The <brit-pound>6bn trade in animal 
smuggling,'' The Independent on Sunday, March 6, 2011, accessed May 20, 
2012, http://www.independent.co.uk/environment/nature/the-1636bn-trade-
in-animal-smuggling-2233608.html.
    \4\ Wyler, Liana Sun and Pervaze A. Sheikh, ``International Illegal 
Trade in Wildlife: Threats and U.S. Policy,'' Congressional Research 
Service, August 22, 2008: p. 7, accessed May 22, 2012, http://
fpc.state.gov/documents/organization/110404.pdf.
    \5\ Levitt, Matthew, ``Money Troubles: The Financial Woes of al-
Qaeda's Leaders,'' IHS Jane's Defense & Security News, January 2012, 
accessed May 22, 2012, http://www.washingtoninstitute.org/uploads/
Documents/opeds/4f4d219444758.pdf.
    \6\ Levy, Adrian and Cathy Scott-Clark, ``Poaching for Bin Laden,'' 
The Guardian, May 4, 2007, accessed May 22, 2012, http://
www.guardian.co.uk/world/2007/may/05/terrorism.animalwelfare.
    \7\ Fison, Maryrose.
    \8\ Shoumatoff, Alex, ``Agony and Ivory,'' Vanity Fair, August 
2011, accessed May 22, 2012, http://www.vanityfair.com/culture/
features/2011/08/elephants-201108.
    \9\ Zajtman, Arnaud, ``The Battle for DR Congo's Wildlife,'' BBC, 
September 17, 2004, accessed May 22, 2012, http://news.bbc.co.uk/2/hi/
africa/3667560.stm.
    \10\ Begley, Sharon.
    \11\ Owono, Julie, ``The Martyrdom of Elephants: A Sad Tale of 
Greed,'' Al Jazeera, March 7, 2012, accessed May 22, 2012, http://
www.aljazeera.com/indepth/opinion/2012/03/201235112432
745412.html.
    \12\ Begley, Sharon.
    \13\ United Nations Security Council, ``Letter dated 15 November 
2010 from the Chair of
the Security Council Committee established pursuant to Resolution 1533 
(2004) concerning 
the Democratic Republic of the Congo addressed to the President of the 
Security Council,'' November 29, 2010, http://reliefweb.int/sites/
reliefweb.int/files/resources/856C29158407076F492577
EB001FD9D3-Full_Report.pdf.
    \14\ Wyler, Liana Sun and Pervaze A. Sheikh: p. 24-25.
    \15\ Ibid: p. 19-20.
    \16\ Written testimony of John M. Sellar, Secretariat of the 
Convention on International Trade in Endangered Species of Wild Fauna 
and Flora (CITES), before the U.S. House of Representatives, Committee 
on Natural Resources, 5 March 2008, accessed May 21, 2012, http://
naturalresources.house.gov/uploadedfiles/sellartestimony03.05.08.pdf.
    \17\ UNODC, ``The Globalization of Crime: A Transnational Organized 
Crime Threat Assessment,'' 2010: p. 153, accessed May 17, 2012, http://
www.unodc.org/unodc/en/data-and-analysis/tocta-2010.html.
    \18\ Associated Press, ``Wildlife Smugglers See Low Risk, High 
Profit,'' June, 7, 2007, accessed May 21, 2012, http://
www.msnbc.msn.com/id/19092695/ns/world_news-world_environment/t/
wildlife-smugglers-see-low-risk-high-profit/.
    \19\ Report of the U.N. Secretary General, ``Illicit Trafficking in 
Protected Species of Wild Flora and Fauna and Illicit Access to Genetic 
Resources,'' United Nations Economic and Social Council, March 4, 2003, 
accessed May 22, 2012, http://www.unodc.org/pdf/crime/commissions/
12_commission/8e.pdf.
    \20\ Sellar, John M.
    \21\ FACT Coalition, ``Anonymous U.S. `Shell' Corporations: A 
National Security Code Red,'' http://www.gfintegrity.org/storage/gfip/
documents/FACT/fact_sheet_beneficial_ownership.pdf.
    \22\ Archibold, Randal and Damien Cave, ``Numb to Carnage, Mexicans 
Find Diver-
sions, and Life Goes On,'' The New York Times, May 15, 2012, accessed 
May 21, 
2012, http://www.nytimes.com/2012/05/16/world/americas/mexicans-
unflinching-in-face-of-drug-wars-carnage.html.
    \23\ FACT Coalition, ``Anonymous U.S. `Shell' Corporations: A 
National Security Code Red,'' http://www.gfintegrity.org/storage/gfip/
documents/FACT/fact_sheet_beneficial_ownership.pdf.
    \24\ Kar, Dev and Sarah Freitas, ``Illicit Financial Flows from 
Developing Countries Over
the Decade Ending 2009,'' Global Financial Integrity, December 2011, 
http://iffdec2011.
gfintegrity.org/.
    \25\ Government Accountability Office, ``Company Formations: 
Minimal Ownership Information is Collected and Available,'' GAO Report 
No. GAO-06-376, April 2006: p. 10, http://www.gao.gov/new.items/
d06376.pdf.
    \26\ Federal Bureau of Investigation, ``President of Alavi 
Foundation Indicted for Obstruction of Justice,'' May 6, 2009, accessed 
May 23, 2012, http://www.fbi.gov/newyork/press-releases/2009/
nyfo050609.htm.
    \27\ U.S. Senate Permanent Subcommittee on Investigations, ``U.S. 
Corporations Associated with Viktor Bout,'' November 2009, http://
www.levin.senate.gov/imo/media/doc/supporting/2009/
PSI.exhibit1.110509.pdf.
    \28\ World Bank/UNODC, ``Puppet Masters: How the Corrupt Use Legal 
Structures to Hide Stolen Assets and What to Do About It,'' October 24, 
2011, accessed May 22, 2012, http://www1.worldbank.org/finance/
star_site/documents/Puppet%20Masters%20Report.pdf.
    \29\ Rubenfeld, Samuel, ``U.K. Faults Banks In Money Laundering 
Review,'' The Wall Street Journal, June 22, 2011, accessed May 23, 
2012, http://blogs.wsj.com/corruption-currents/2011/06/22/uk-faults-
banks-in-money-laundering-review/.
    \30\ U.S. Department of Justice, ``Wachovia Enters Into Deferred 
Prosecution Agreement,'' March 17, 2012, accessed May 22, 2012, http://
www.justice.gov/usao/fls/PressReleases/100317-
02.html.
    \31\ Zibel, Alan, ``US Regulator Cites Citibank For Violating 
Money-Laundering Law,'' Dow Jones Newswires, April 5, 2012, accessed 
May 22, 2012, http://online.wsj.com/article/BT-CO-20120405-708286.html.
    \32\ Mollenkamp, Carrick, Brett Wolf and Brian Grow, ``Special 
Report: Documents Allege HSBC Money-Laundering Lapses,'' Reuters, May 
3, 2012, accessed May 22, 2012, http://www.reuters.com/article/2012/05/
03/us-hsbcusa-probes-idUSBRE8420FX20120503.
    \33\ Rubenfeld, Samuel, ``Anti-Corruption Coalition Requests US AML 
Review,'' The Wall Street Journal, September 14, 2011, accessed May 22, 
2012, http://blogs.wsj.com/corruption-currents/2011/09/14/anti-
corruption-coalition-requests-us-aml-review/.
    \34\ Remarks by William R. Brownfield, Assistant U.S. Secretary of 
State for the Bureau of International Narcotics and Law Enforcement 
Affairs, before the Roma/Lyon G8 Sub-Group, February 22, 2012, accessed 
May 22, 2012, http://www.youtube.com/watch?v=5cklCZ_5tMw.
    \35\ Global Financial Integrity, ``GFI Praises FATF Tax Evasion 
Crackdown, Disappointed in Failure to Address Anonymous Shell 
Companies,'' February 16, 2012, accessed May 23, 2012, http://
www.gfintegrity.org/content/view/497/70/.

    The Chairman. Well, thank you very much. Your full 
testimony will be placed in the record as if read in full. I 
appreciate it.
    Mr. Secretary General.

  STATEMENT OF JOHN SCANLON, SECRETARY GENERAL, CONVENTION ON 
  INTERNATIONAL TRADE IN ENDANGERED SPECIES OF WILD FAUNA AND 
                   FLORA, GENEVA, SWITZERLAND

    Mr. Scanlon. Thank you very much, Chairman Kerry, and thank 
you to yourself and to the committee members for your interest 
in this topic. It is a great honor to have an opportunity to 
testify before you this morning.
    CITES was adopted right here in Washington, DC, in March 
1973, at a plenipotentiary conference that was hosted by the 
United States Government. And the United States has been a very 
strong supporter of the implementation of CITES since that 
time, and it has been at the forefront of efforts to combat the 
illegal trade in wildlife.
    As you know, CITES regulates trade in around 35,000 species 
to be sure such trade is legal, sustainable, and traceable, and 
there is a high volume of legal trade which is a multibillion 
dollar business.
    But today we are here talking about another aspect of CITES 
and that is tackling illegal trade in wildlife, and this is a 
growing problem worldwide.
    The value of this illegal trade is now estimated at being 
anything between $5 billion and $20 billion per year. That 
excludes timber and marine resources. And the extent of illegal 
trade in wildlife is further reinforced when you look at the 
published results of specific enforcement operations undertaken 
by organizations such as INTERPOL and the World Customs 
Organization.
    And Chair and committee members, it is very clear organized 
crime is actively involved in the illegal trade of wildlife. 
This has been made clear by INTERPOL both through its 
Secretariat and its governing body which has passed resolutions 
on the topic and by the United Nations Commission on Crime 
Prevention and Criminal Justice and the U.N. Office of Drugs 
and Crime. And there is absolutely no doubt that organized 
crime is involved in the illegal trade of elephant ivory and 
rhino horn.
    We have heard from Iain this morning about a major spike in 
the illegal killing and the illegal trade of both elephant 
ivory and with respect to rhino horn, and these are reaching 
levels that cannot be sustained. There have been record numbers 
of large seizures of elephant ivory, a large seizure being over 
800 kilograms. That is about 1,800 pounds I think in weight. 
You cannot take 800 kilograms of ivory from central Africa, 
export it through East Africa into Asia without very organized 
and sophisticated networks, and these are what are in place to 
trade illegally in this substance.
    And with rhino, we have gone from 13 rhino illegally killed 
in South Africa in 2007 to 448 illegally killed in 2011, and 
the numbers are up to 220 already this year, putting us on 
track for illegal killings of up to 600. This is despite the 
best efforts of the South African Government which has really 
enhanced its enforcement effort.
    Chair, CITES exists with the objective of ensuring the 
survival of species in the wild, but the impacts of this 
illegal trade goes well beyond the impact of those species. 
Criminal syndicates use violence. They are well armed. They are 
very savvy in the use of modern technology, and they are very 
adaptive in avoiding detection. They are exploiting local 
people in some of the poorest countries on the planet. They are 
corrupting officials and they are wounding and they are killing 
enforcement officers in the field.
    As such, they are depriving local people of legitimate 
development choices and they are depriving states of revenue, 
not to mention robbing states of their cultural heritage and 
their natural resources. This is undermining governments. It is 
undermining the rule of law. It is undermining security and it 
must be stopped.
    The example, Chair, has been given by you this morning 
regarding Cameroon and Iain reinforced that as well. But there 
we had rebels coming from across borders of two states, Sudan 
and Chad, into northern Cameroon massacring elephants for the 
purpose of getting their ivory that they will use to finance 
activities that they want to take with respect to local 
conflicts.
    Can I give you another example? It is not in my written 
testimony, but we are just finishing a video we are doing with 
U.N. Television on rhino and the killing of rhino and the 
illegal trade in their horn. And it is in Kruger National Park 
in South Africa where we have interviewed local people who are 
relying upon that park and the rhino in that park for their 
livelihoods. And the final comment made by the woman we 
interviewed was this. She said, when you are killing rhino, you 
are killing us. And you cannot put it any better than this. 
This is destroying the livelihoods of local people.
    But these syndicates are hard to beat. As has been pointed 
out already, there are very high profits to be made. With 
respect to rhino horn, the latest estimate we have is the black 
market price has gone up to $65,000 a kilogram. That is way 
above the price of gold.
    But the problem we have is not only are profits large, but 
the risk of detection is low. And if you are detected, the risk 
of prosecution is low, and if you are prosecuted, the risk of 
being incarcerated is also low in far too many cases.
    But we know how to beat these syndicates. We have the know-
how. We have the technology. We just have to apply it more 
often and we have to apply it with greater rigor. And the risks 
that are associated not only to wildlife survival in the wild, 
but the risks associated to local people, to governance, and to 
security are such that we must up the ante.
    And we know what to do. We need to take additional measures 
operationally, that is, in terms of legislation, in terms of 
the penalties that can be imposed in terms of enforcement 
measures. We need to take further coordinating efforts both 
internationally, regionally, and at the national level. And we 
must move beyond seizures. We must move beyond seizures to 
prosecute and, after prosecuting, to get convictions and, after 
convictions, to start incarcerating these people that are 
committing these crimes.
    Chairman, it should not be elephants, rhino, and tigers 
that are behind bars. It should be the poachers and the 
smugglers who are behind bars. And that is our objective.
    We need to up the ante politically as well. We need to get 
strong and clear messages made in range states, transit states, 
and consumer states at the highest possible level saying that 
this activity will not be tolerated whether from a range state 
where the poaching takes place, a transit state where 
contraband finds its way to the end destination, or the 
consumer state.
    And we also have to look further at resourcing. That is 
both in terms of human resources, the sharing of technology, 
and financial resources. I have had the opportunity to work in 
many different organizations over the years, and I can say that 
you can get very high returns for investing in this area for a 
minimal investment.
    There is some good progress in a number of areas that I 
would like to briefly highlight. We have seen the creation of 
the International Consortium on Combating Wildlife Crime at the 
international level, a consortium of the CITES Secretariat, 
INTERPOL, the U.N. Office of Drugs and Crime, the World Bank, 
and the World Customs Organization, signed off by the head of 
all organizations, be it President, secretary general, or 
executive director, providing coordinated support, including to 
the network of wildlife enforcement networks that the United 
States has been so supportive of. And we have seen good 
national coordination efforts emerging in South Africa, China, 
and right here in the United States.
    At a political level, Chair, we were very happy to see the 
outcome of the U.S.-China Strategic and Economic Dialogue in 
May of this year where paragraph 47 said that China and the 
United States would work together to combat illegal trade in 
wildlife, and they will have a meeting in June following up on 
the implementation of that paragraph.
    Chairman, but CITES has no financial mechanism. The Global 
Environment Facility does not serve as a financial mechanism to 
this convention, whereas it does serve as a financial mechanism 
to the Convention on Biological Diversity, the Cartagena 
Protocol, and others. This is a historic anomaly that we 
believe we also have an opportunity to correct to let parties 
to CITES have access to a financial mechanism to tackle this 
major problem.
    Chair, the 40th anniversary of our convention will be in 
March next year. The convention is known as both CITES and in 
some parts of the world, the Washington Convention. This 
coincides with the 16th meeting of the Conference of the 
Parties, and that provides us a wonderful opportunity to take 
stock of the current situation, to put in place new 
initiatives, to send very clear and concise political messages 
regarding not tolerating this crime, and to look at opening up 
the Global Environment Facility to CITES.
    Chair, we are all in this together. We are only going to 
succeed if there is strong action taken at a national level in 
all states, but we desperately need ongoing international 
support. In your inspiring opening remarks, you said issues 
deserving attention need to get focus, and we certainly greatly 
appreciate, Chair, the focus that you are giving, and your 
committee is giving, to this critical issue. And we greatly 
appreciate the support the United States is providing and has 
historically provided to tackling this illicit trade in 
wildlife.
    I thank you again.
    [The prepared statement of Mr. Scanlon follows:]

               Prepared Statement of John E. Scanlon \1\

    CITES stands at the intersection between trade, environment, and 
development and the Convention is needed more today than it was back in 
March 1973 when it was adopted right here in Washington, DC.\2\
    CITES regulates trade in close to 35,000 species of plants and 
animals, including listed timber and aquatic species, to ensure that 
such trade is legal, sustainable and traceable. CITES holds records of 
over 12 million trades, with about 850,000 legal trades being reported 
by CITES Parties to the Secretariat annually.\3\
    The focus of this hearing is on the illegal trade in wildlife, 
which is the focus of this testimony.
    The United States of America hosted the Plenipotentiary Conference 
that adopted CITES in 1973 and it has been at the forefront of 
international efforts to stop the illegal wildlife trade.\4\
    Illegal trade in wildlife is happening at a scale that poses an 
immediate risk to both wildlife and to people and their livelihoods. An 
even greater effort is required, and new approaches need to be taken, 
if we are to adequately address this risk, including through: employing 
more formidable and coordinated enforcement responses at Global, 
regional, subregional and national levels; making better use of modern 
enforcement techniques and technologies; attracting additional 
financial and human resources at national and international level, and 
through more effectively suppressing the demand that is driving illegal 
trade.
    Strong and clear political messages from the highest possible 
levels are also required to combat the illegal trade in wildlife.
    The 40th anniversary of CITES on 3 March 2013, which coincides with 
the 16th meeting of the Conference of the Parties in Bangkok, offers an 
ideal opportunity for Parties to take stock of their law enforcement 
efforts to date, to agree on enhanced enforcement measures, and to send 
strong and clear political messages on combating the illegal trade in 
wildlife.

             ORGANIZED CRIME IS INVOLVED IN WILDLIFE CRIME

    Wildlife crime is a growing problem worldwide.
    INTERPOL\5\ and the United Nations Commission on Crime Prevention 
and Criminal Justice \6\ have both recognized the increasing 
involvement of organized crime \7\ syndicates in wildlife crime--
syndicates that: carry out detailed planning; have significant 
financial support; understand and utilize new information technology, 
and are often well armed.
    These syndicates engage in the international management of 
shipments and do not hesitate to use violence or threats of violence 
against those who try to stand in their way. They constantly adapt 
their tactics to avoid detection and prosecution, making national 
borders increasingly irrelevant. And such tactics are particularly 
evident with illegal trade in African elephants and rhinos.
    In doing so, these syndicates exploit people in rural communities 
in some of the poorest countries of the world, corrupt officials and 
kill and injure enforcers, which poses a serious threat to the 
stability, economy, natural resources, and cultural heritage of these 
countries. These criminals are laundering their ill-gotten gains and in 
some instances using them to finance armed conflicts and other criminal 
activities. This in turn undermines good governance and the rule of 
law. They must be stopped.
    Yet, all too often, the serious nature of wildlife crime is not 
sufficiently recognized and the resources devoted to addressing the 
threat are inadequate. Wildlife crime carries a lower risk of detection 
and prosecution, and often has relatively low penalties, making it an 
attractive target for criminal gangs. Stronger penalties and more 
effective enforcement measures are required.
    In order to counter these criminals, it is critical for the 
enforcement community to have access to intelligence that will enable 
them to identify emerging trends in a timely manner, to address current 
trends, to plan for future activities, and to deploy the best available 
techniques and technologies.

                  THE MASSIVE SCALE OF WILDLIFE CRIME

    The effectiveness of CITES implementation at a national level is 
severely challenged by the extent of illegal trade. The CITES 
Secretariat does not place a value on illegal wildlife trade but it 
notes that others have valued it at anything between USD 5-20 billion 
\8\ and USD 8-10 billion \9\ a year (excluding timber and marine 
wildlife).
    The estimates of the extent of wildlife crime is further reinforced 
by the published results of short-term intensive wildlife enforcement 
actions that are taken by organizations such as INTERPOL\10\ and the 
World Customs Organization,\11\ as well as domestic operations such as 
``Operation Crash'' in the United States of America.\12\ Further, 
according to data submitted by CITES Parties to the Elephant Trade 
Information System (ETIS), large-scale ivory seizures, defined as 
seizures of more than 800 kg of ivory, are at an all time high. Such 
seizures serve as a useful proxy measure for assessing the involvement 
of organized crime in the trade.
    The species affected by illegal trade are not only those in which 
international commercial trade is prohibited (Appendix I), such as the 
tiger, but also those in which such trade is regulated to ensure 
sustainability, such as the Queen conch (Appendix II). The 
Congressional Research Service Report for Congress of February, 2, 
2009, identified some of the most lucrative illicit wildlife 
commodities as including tiger parts, caviar, elephant ivory, rhino 
horn, and exotic birds \13\ and reptiles--excluding marine and timber 
species.\14\
    The depth of analysis of wildlife crime is poor in comparison to 
that of other areas of illicit trade--such as the analysis of the 
illicit trade in drugs through the UNODC World Drugs Reports.\15\ UNODC 
is now working on a series of environmental crime reports, with a focus 
on wildlife crime. There is a need for a more systematic and thorough 
global analysis of the illicit trade in wildlife.
    However, a more detailed and thorough analysis is available on the 
illegal killing of, and trade in, African elephants. This is achieved 
through the four global monitoring and reporting systems for elephants 
and trade in elephant specimens recognized under CITES, namely:

  <bullet> The programme for Monitoring the Illegal Killing of 
        Elephants (MIKE), managed by the CITES Secretariat;
  <bullet> The Elephant Trade Information System (ETIS), managed for 
        CITES by TRAFFIC to track illegal trade in ivory and other 
        elephant specimens;
  <bullet> Annual reports of CITES Parties on the authorized trade in 
        specimens of CITES-listed species, including legal trade in all 
        elephant specimens, compiled by UNEP-WCMC and available online 
        through the CITES Trade Data Base; and
  <bullet> The African and Asian Elephant Database, housing information 
        on elephant population numbers and range, maintained by IUCN 
        through the SSC African Elephant and Asian Elephant Specialist 
        Groups.

    These four monitoring and reporting systems are working closely 
together to deliver timely, integrated, evidence-based reports to the 
CITES Parties to inform their decisionmaking.
    The CITES Parties and the Secretariat also derive valuable 
information from multiple other sources, including from 
intergovernmental bodies involved in tackling illegal wildlife trade, 
and from nongovernment organizations taking an active interest in these 
issues.

        CITES' SERIOUS AND INCREASING CONCERN WITH ILLEGAL TRADE
                        IN ELEPHANTS AND RHINOS

    Last year, we witnessed seriously escalating levels of illegal 
trade in elephant ivory and in rhino horn, which is pushing these 
species toward extinction. Such trade is putting money in the hands of 
criminals--including those involved in armed conflicts. It is also 
depriving local people of livelihoods in many instances, and robbing 
countries of their natural resources and cultural heritage, as well as 
of potential revenue \16\--not to mention the costs associated with 
taking enforcement measures. It must be stopped and elephant and rhino 
range States need further support to achieve this objective.

Illegal killing and trade in African elephants of serious and 
        increasing concern
    The latest analysis of the MIKE and ETIS data is currently being 
completed for the 62nd meeting of the CITES Standing Committee in July 
2012 and the documents will be publicly released on the CITES Web site 
in the coming weeks, in advance of the meeting.
    Consequently, all of the relevant data and analysis cannot yet be 
fully shared but the report will be provided to the committee 
immediately upon release. The following key findings that emerge from 
the analysis can however be shared today:
            MIKE
  <bullet> The currently escalating levels of illegal killing across 
        the entire African elephant range are of serious and increasing 
        concern;
  <bullet> The number of elephants killed illegally in 2011 is likely 
        to run into the tens of thousands;
  <bullet> Poaching levels are now clearly increasing in all African 
        subregions;
  <bullet> The levels of illegal killing exceed what can be sustained 
        in all four African subregions in 2011, with elephant 
        populations now in net decline;
  <bullet> The Central African subregion continues to display the 
        highest levels of elephant poaching;
  <bullet> The ongoing increase in levels of illegal killing of 
        elephants started in 2006, with 2011 displaying the highest 
        levels of poaching since MIKE records began; and
  <bullet> The rise in levels of illegal killing and the dynamics 
        surrounding it are worrying, not only for small and fragmented 
        elephant populations, but also for previously secure large 
        populations.

      At the site level: areas suffering from higher levels of poverty 
        experience higher levels of elephant poaching.
      At the county level: governance emerges as the single most 
        important national-level correlate of elephant poaching, with 
        higher elephant poaching levels where governance is weak.
      At the global level: demand for ivory, which is widely recognized 
        to be a key factor driving the illegal killing of elephants, is 
        clearly on the increase. The observed increases in the levels 
        of illegal killing of elephants are closely mirrored by trends 
        in levels of consumer spending in major ivory consuming States.
            ETIS
  <bullet> Three of the five years in which the greatest volumes of 
        ivory were seized \17\ and reported to ETIS since 1989 occurred 
        in 2009, 2010, and 2011, with figures still being compiled for 
        2012;
  <bullet> Successive years of peak seizure volumes is not a pattern 
        previously observed in the ETIS data and it stands as a very 
        worrying indication that illegal trade in elephant ivory 
        continues to surge in an unabated manner;
  <bullet> There is value in using large-scale ivory seizures as a 
        proxy measure for assessing the involvement of organized crime 
        in the trade, with 2011 ending with more large-scale ivory 
        seizures than any previous year in the ETIS data;
  <bullet> The trend in large-scale ivory seizures closely matches the 
        poaching trend reported by MIKE;
  <bullet> The criminal syndicates behind these large movements of 
        ivory are believed to be highly adaptive and the emergence of 
        new trade routes in the ETIS data are likely to be evidence of 
        evolving tactics;
  <bullet> Very few large-scale ivory seizures actually result in 
        successful followup law enforcement actions, including 
        investigations, arrests, convictions, and the imposition of 
        penalties that serve as deterrents; and
  <bullet> Unregulated, or insufficiently regulated, domestic ivory 
        markets are enabling the laundering of elephant ivory from 
        illegal sources.

    The ETIS data suggests that demand is principally coming from Asia, 
with the main destinations being China and Thailand, with East African 
ports remaining the paramount exit point for illegal consignments of 
ivory.
    Overall, MIKE and ETIS are independently detecting very similar 
patterns at different points in the illegal ivory supply chain. This 
should give confidence as to the reliability of results being produced 
by the two monitoring systems.

Cameroon mass killing incident
    In February 2012 the CITES Secretariat expressed its grave concern 
over reports of the poaching of close to 450 elephants in Bouba Ndjida 
National Park in northern Cameroon.\18\
    The CITES Secretariat also worked through the existing networks of 
all of its partners in the International Consortium on Combating 
Wildlife Crime (see below) to alert all relevant national authorities 
of the incident in an effort to seize the contraband before it could be 
traded and thereby prevent the perpetrators profiting from their 
crimes.
    Governments of the region were offered support to find, and bring 
to justice, the criminals responsible and to locate and seize the 
poached ivory. Potential transit and final destination countries were 
also been urged to remain extremely vigilant and to cooperate with one 
another.
    It was reported that elephants had been slaughtered by groups from 
Chad and the Sudan over several weeks, taking advantage of the dry 
season. The poached ivory is believed to be exchanged against money, 
weapons, and ammunition to support conflicts in neighboring countries.
    The Secretariat contacted the Ministers for Forests and Wildlife 
from Cameroon, Chad, the Central African Republic, the Democratic 
Republic of the Congo and the Sudan offering support to help galvanize 
enforcement efforts and transboundary antipoaching mechanisms in 
Africa.
    The response from the Ministry of Environment, Conservation and 
Tourism of the Democratic Republic of the Congo suggested the 
organization of a regional conference that would bring together the 
Ministers responsible for environment, defence, Customs and police, to 
put in place cross-border mechanisms against the illegal trade in ivory 
and to discuss measures to prevent the recurrence of annual poaching 
activities by organized groups. This suggestion is being further 
explored by the CITES Secretariat, in consultation with interested 
States, taking into consideration the role of existing structures such 
as the Central Africa Forests Commission (COMIFAC) and the outputs of 
the Central African Workshop on Wildlife Trafficking and Dismantling 
Transnational Illicit Networks (see below).
Gabon meeting for stronger local and regional approaches
    The Central African Workshop on Wildlife Trafficking and 
Dismantling Transnational Illicit Networks,\19\ which took place from 
2-5 April 2012 in Libreville, organized by the United States of 
America's Embassies in Gabon and the Central African Republic, in 
collaboration with the Government of Gabon, was an important step 
toward creating stronger local and regional approaches and 
collaborative platforms to combat wildlife poaching and trafficking. 
The CITES Secretariat participated in the meeting.

African Elephant Range States Meeting
    In April 2012, the African elephant range States came together for 
the Fourth African Elephant Meeting, held in Nairobi, Kenya, under the 
auspices of the CITES MIKE Programme. At the meeting, the range States 
recognized the seriousness of the ongoing escalation in levels of 
illegal killing of elephants and the illegal trade in ivory, as well as 
the need for an urgent and escalated response at all levels.
    The range States further recognized the need for substantial 
resources, from both within and outside the range States, to address 
the emergency. The range States reiterated their commitment to the 
implementation of the African Elephant Action Plan \20\ while calling 
for donors to support its implementation through the African Elephant 
Fund as well as MIKE and ETIS.

Rhinoceroses under serious threat
    CITES does not have the same monitoring systems for rhinos as it 
does for elephants. However, given the limited number of rhinos and 
that the majority of the remaining animals are in South Africa (about 
80 percent), reliable data on illegal killing is available. 
Comprehensive reports are being submitted to the 62nd meeting of the 
CITES Standing Committee on a range of actions being taken by the CITES 
Secretariat and others to combat the illegal trade in rhino horn, which 
will be also provided to the committee.
    In 2007 there were 13 rhino poached in South Africa. This number 
rose to 448 in 2011--with poaching levels reaching 220 so far this 
year, with 166 arrests, meaning that levels of poaching are likely to 
exceed 600 in 2012.\21\
    In 2011, a subspecies of the black rhino was declared extinct in 
the wild in West Africa and we also witnessed that Vietnam lost its 
last Javan rhino, which is understood to have been killed by poachers.
    Based upon available information, the demand for rhino horn is 
principally coming from Asia, with the major destination appearing to 
be Vietnam, where, according to a report commissioned by the CITES 
Secretariat, increasing levels of demand have been fueled by rumors of 
rhino horn being a cure for cancer, and with the horn being 
increasingly used in a manner akin to a recreational drug, such as 
``rhino wine'' to improve male sexual performance, and to cure the 
effects of over consumption, such as to cure a hang over--none of which 
form part of the traditional usage of rhino horn.\22\
    In parallel to organized crime being involved in rhino poaching and 
trade, there are clear indications that organized crime syndicates are 
also active across the European Union to acquire and trade rhino horns. 
This has prompted EUROPOL to launch a specific action on the illegal 
trading of rhino horns within the European Union.
    In addition, theft of rhino horns from museums, auction houses or 
at antique or taxidermist shops has occurred in the European Union. 
Since 2011, the agency has recorded 56 successful and 10 attempted 
thefts. Criminals stole horns from museums and private collections in 
15 countries, with many of the thefts believed to be linked to an 
organized criminal group ``who are known to use intimidation and 
violence to achieve their ends.'' The group is believed to be active in 
Asia, North and South America and Europe.\23\
    In the United States of America seven people were arrested on 
charges of trafficking in endangered black rhinoceros horn in February 
2012, as part of ``Operation Crash,'' a multiagency effort to 
investigate and prosecute those involved in the black market trade of 
endangered rhinoceros horn.\24\
    In South Africa, persons from Mozambique and Vietnam seeking to 
smuggle rhinoceros horn out of the country were given long custodial 
sentences--sending out a powerful message to those who seek to engage 
in illegal wildlife trade. These convictions reflect the combined 
efforts of enforcement officials, prosecutors, and the judiciary in 
South Africa where the whole system worked to bring these criminals to 
justice.
    There are also technical exchanges between government officials 
from South Africa and Vietnam, and the Secretariat is working to 
enhance international cooperation between range, transit and consumer 
States, namely China, Thailand, South Africa and Vietnam.
    It is clear that the increased levels of rhino poaching and rhino 
horn thefts has an impact on several continents and that a well-
coordinated law enforcement response, as well as high-level political 
responses, will be required to effectively addresses this trend.
    With an estimated 25,000 rhinos left in the wild, these current 
rates of illegal killing could drive the species to extinction 
throughout the world during the lifetime of our children.
     the need for collaboration in fighting illegal wildlife trade
    Fighting poaching and illegal trade in wildlife is about fighting 
serious crime, especially when dealing with species that attract high 
returns such as elephant and rhinos. There is a need for collaboration 
and joint work at multiple levels, including: among range, transit, and 
consumer States; among international entities involved in the fight 
against wildlife crime; among States at the regional and subregional 
level; and among multiple enforcement authorities at the national 
level.
    Taking enforcement action is a national responsibility. And the men 
and women who work to protect elephants and rhinos in their habitats 
every day do extraordinary work under extremely difficult conditions. 
We applaud the tireless efforts of these officials, who are serving in 
the front line. Yet, despite all of these courageous efforts, poaching, 
and illegal trade continue to increase.
    The fight to save these species extends well beyond their habitat. 
The actual site where an animal is poached can be the start of a long 
chain of criminality--a chain that may stretch from forests, through 
rural villages, to large cities, across provincial and national 
borders, via land, air and sea ports or crossing points, until the 
animals tusks or horns are finally delivered to clandestine markets, 
dealers and consumers, often many thousands of kilometers from where 
the animal was killed.
    Antipoaching personnel acting alone can do little to break these 
links further up that chain. But Customs and Police can--and that is 
why the coordinated approach across agencies is critical, both 
nationally and internationally.
    Given the nature and scale of the risk associated with the illegal 
trade in wildlife, it is now acknowledged that a more organized and 
sophisticated response needs to be taken by the law enforcement 
community to tackling the problem.

                   RESPONSES TO THE CURRENT SITUATION

Coordinated and formidable enforcement support through ICCWC
    In recognition of this pressing need, five international 
organizations joined forces in late 2010 to create the International 
Consortium on Combating Wildlife Crime (ICCWC).\25\ ICCWC exists to 
support those officers serving in the front line in carrying out their 
essential duties--and in doing so to work with regional wildlife 
enforcement networks such as the ASEAN Wildlife Enforcement Network 
(WEN) and South Asian WEN--networks that have benefited greatly from 
support from the United States of America through the State Department 
and other agencies such as the Department of Justice. To date there are 
no such networks in Africa, and Central Africa in particular may 
benefit from such a network.
    ICCWC seeks to ensure that perpetrators of serious wildlife crimes 
will face a more formidable and coordinated response, as distinguished 
from the present situation where the risk of detection and punishment 
is all too low. It also seeks to deploy modern techniques and 
technologies that are applied in different areas to tackling wildlife 
crime, such as controlled deliveries and the use of wildlife forensics. 
It also seeks to ``follow the money'' and address asset forfeiture and 
corruption.\26\
    ICCWC comprises the CITES Secretariat, INTERPOL, the United Nations 
Office on Drugs and Crime (UNODC), the World Bank and the World Customs 
Organization (WCO). The CITES Secretariat chairs the Consortium.
    CITES is encouraged by the level of commitment to tackling wildlife 
crime that has been demonstrated by each participating organization, 
including the strong personal commitment shown by each executive head--
Secretary General Noble of INTERPOL, Executive Director Fedotov of 
UNODC, President Zoellick of the World Bank and Secretary General 
Mikuriya of WCO.
    The Consortium came together in Shanghai, China, last year to 
provide training in controlled deliveries for Customs, police and 
prosecutors from close to 20 countries and across Africa and Asia.\27\ 
This workshop built the capacity of participants to use this effective 
enforcement technique to target and identify criminals who engage in 
transnational smuggling of wildlife contraband. The Consortium also 
convened the heads of Customs and police from across the 13 tiger range 
States on tiger crime in early 2012 \28\--meetings led by the WCO and 
INTERPOL respectively. UNODC has also led the development of an ICCWC 
Wildlife and Forest Crime Toolkit, the national implementation of which 
is being explored with several States.
    At international level, bold steps are being taken to practice what 
is being preached regarding better coordination, which is to the 
benefit of national authorities and regional and subregional networks. 
Further technical, financial, and political support is required to 
continue this effort.
    The same level of cooperation is required at the national level if 
we are going to seriously tackle wildlife crime. And while it takes 
considerable effort, it is being done, as is evident from the efforts 
being made in South Africa and the United States of America. Recent 
significant moves toward national collaboration are also evident in 
China through the establishment of the National Inter-Agency CITES 
Enforcement Collaboration Group (NICECG) of China, which has just 
completed a major nationwide enforcement operation.\29\
    CITES implementation has also recently been brought to the fore at 
the highest political level. In the joint statement issued after the 
fourth round of the U.S.-China Strategic and Economic Dialogue held 
from 3 to 4 May in Beijing, article 47 states that: ``We decide to 
jointly support the wildlife law enforcement efforts and to combat the 
smuggling of endangered and protected species. China and the United 
States will attend the Special Investigation Group Meeting held from 20 
to 21 June 2012 in Nanning, China, led by ASEAN-WEN. At the meeting, 
wildlife investigators and forensic experts will identify and recommend 
improved enforcement and inspection efforts.'' \30\
    ICCWC is also working to raise the profile and awareness of 
wildlife crime among politicians, diplomats, policymakers and 
decisionmakers, as well as the judiciary, so that they may better 
understand why this area deserves to be a high priority for law 
enforcers and why they should devote further human and financial 
resources to it.
    The threat posed by wildlife crime was brought to the attention of 
the United Nations Security Council by the Executive Director of UNODC, 
Yury Fedotov, in his briefing on ``Emerging Challenges to International 
Peace and Security'' in November of last year.\31\
    ICCWC is taking the fight against wildlife crime to another level 
through sharing data, analysis, intelligence, enforcement techniques 
and resources. Further support is required to enhance this collective 
effort.

Moving beyond seizures--linking the entire ``enforcement chain''
    As reported through ETIS, and noted above, very few large-scale 
ivory seizures actually result in successful followup law enforcement 
actions, including investigations, arrests, convictions and the 
imposition of penalties that serve as deterrents. This comment applies 
to wildlife crime more generally.
    While they are essential, enforcement efforts to stop wildlife 
crime must not just result in seizures--they must result in 
prosecutions, convictions, and strong penalties to stop the flow of 
contraband. The whole ``enforcement chain'' must work together. And 
this is why the work of ICCWC is so essential in supporting States and 
regional and subregional networks, as the ICCWC partners collectively 
deal with the entire enforcement system. The recent training by ICCWC 
(led by WCO) in controlled deliveries is an excellent example of the 
sorts of measures that are required to track down the criminal 
syndicates.

Increasing financial resources
    In light of the scale of wildlife crime, and the risks to wildlife 
and people associated with this crime, the financial resources to 
tackle wildlife crime are clearly inadequate. ICCWC is working with the 
donor community, as well as with governments, agencies, and 
institutions that may have the money and know-how to assist range, 
transit, and consumer States, and to supply the logistics that many of 
them need so badly.
    All Parties to CITES have also invested their own resources in 
establishing Management Authorities and putting into place necessary 
legislation and enforcement measures, some of which require additional 
support from the international community.

African Elephant Conservation Fund
    The United States of America has been active in its support for the 
African Elephant Conservation Fund,\32\ which has benefited from 
appropriations from the United States Congress, and its support is 
greatly appreciated and continues to be desperately needed. It can help 
support the sorts of specific measures that are referred to below.

African Elephant Fund
    The African Elephant Fund has also been established \33\ in support 
of the implementation of the African Elephant Action Plan,\34\ a plan 
supported by all 38 range States of the African elephant, and further 
support is sought for the fund. The Action Plan includes as its first 
priority objective: ``reduce illegal killing of elephants and illegal 
trade in elephant products.''

Global Environment Facility
    The Global Environment Facility (GEF) does not serve as a financial 
mechanism for CITES, making it extremely difficult to secure GEF 
funding in support of CITES and enforcement actions in particular. This 
situation does not reflect the importance of tackling wildlife crime 
and is being considered by the CITES Standing Committee,\35\ which is 
addressing whether GEF should serve as a financial mechanism for CITES. 
Any change to existing arrangements would require decisions by the 
CITES Conference of the Parties and the GEF Assembly.
    The CITES Secretariat raised the issue of providing additional 
funding to tackle wildlife crime in a presentation to the Council of 
the GEF, in November, 2011.\36\ Making GEF a financial mechanism for 
CITES would open up additional financing opportunities for Parties to 
enforce the Convention.
    In the meantime, the CITES Secretariat has worked with South Africa 
to develop a CITES-related GEF project that will support the use of 
modern forensics in tackling poaching of rhinos and the illegal trade 
in rhino specimens. The project has been signed off by the Chief 
Executive Officer of GEF and will be considered by the GEF Council in 
June, 2012.

The World Bank
    The World Bank has been very active in mobilizing resources for 
wildlife crime issues, including illegal timber trade and tiger 
conservation, and in perusing major initiatives to ``follow the 
money,'' which is vital to ensure that criminals do not benefit from 
the proceeds of their criminal activities.

Foundations, the private sector and nongovernment organizations
    The CITES Secretariat is also seeking to mobilize support from 
foundations and the private sector to support enforcement actions, and 
in particular to support the use of modern forensic techniques.\37\
    The nongovernment sector has been very active in raising financial 
resources in support of elephants and rhinos.

Creative and innovative capacity-building
    The CITES Secretariat has created affordable capacity-building 
through the open CITES Virtual College.\38\ The recent release of the 
updated ``Enforcement module'' has been of great benefit to enforcement 
officials, as is evident from the feedback from the Royal Thai 
Customs,\39\ which introduced CITES to 60 Customs officials through the 
Virtual College.

Some very specific issues needing further attention
    A number of specific, and important, issues will come to the 
attention of CITES Parties, the Standing Committee and the Conference 
of the Parties for their consideration over coming months, including: 
domestic controls over ivory sales; the absence of reporting from some 
range States on African elephant issues; the need for enhanced 
legislation in some States; and the need for better controls at known 
ports being used as exit ports for illegal shipments.
    There are also opportunities to work with States to consider new 
regional and subregional wildlife enforcement networks, such as for 
Central Africa.
    Further technical and financial support at international and/or 
national levels is required to address such issues.
      the 40th anniversary of cites--``the washington convention''
    The 40th anniversary of the adoption of CITES on 3 March, 2013 \40\ 
presents an ideal opportunity to further evaluate the extent of illegal 
trade in wildlife, to agree upon any further measures to combat such 
trade that the Parties may wish to initiate, to request the GEF to 
serve as a financial mechanism for CITES,\41\ and to send very strong 
and clear political messages on combating the illegal trade in 
wildlife.

----------------
End Notes

    \1\ See: http://www.cites.org/eng/disc/sec/SG.php.
    \2\ In some parts of the world, such as Japan, CITES is referred to 
as ``the Washington Convention.''
    \3\ See CITES Trade Data Dashboards: http://dashboards.cites.org/.
    \4\ Including through its strong support for the implementation of 
CITES, Congress appropriations for the African Elephant Conservation 
Fund, support for the establishment of regional and subregional 
Wildlife Enforcement Networks in Southeast Asia, South Asia, and 
Central America and the establishment of the Coalition Against Wildlife 
Trafficking by the State Department in 2005.
    \5\ See: http://www.cites.org/eng/news/pr/2010/
20101108_Interpol.shtml.
    \6\ See: http://www.cites.org/eng/news/sundry/2011/
20110421_res_UNCCPCJ.php.
    \7\ See U.N. Convention against Transnational Organized Crime: 
http://www.unodc.org/documents/treaties/UNTOC/Publications/
TOC%20Convention/TOCebook-e.pdf.
    \8\ See Congressional Research Service Report: http://opencrs.com/
document/RL34395/.
    \9\ See Global Financial Integrity Report: http://
transcrime.gfintegrity.org/.
    \10\ See Operation TRAM: http://www.interpol.int/layout/set/print/
News-and-media/News-media-releases/2010/PR014 and Operation RAMP: 
http://www.interpol.int/layout/set/print/News-and-media/News-media-
releases/2010/PR089.
    \11\ See Operation GAPIN: http://www.wcoomd.org/reports/
?v=1&lid=1&cid=2&id=277.
    \12\ See: http://www.justice.gov/usao/cac/Pressroom/2012/030.html.
    \13\ See for example: http://newswatch.nationalgeographic.com/2012/
01/17/the-worlds-most-traded-wild-birds-senegal-parrots-color-morphs-
and-the-wild-caught-bird-trade/.
    \14\ See: http://opencrs.com/document/RL34395/.
    \15\ See: http://www.unodc.org/unodc/en/data-and-analysis/WDR-
2010.html.
    \16\ The loss of revenue from illegal logging alone is estimated by 
the World Bank to be over USD 10 billion per year, with the value of 
illegally harvested timber being estimated at a minimum of USD11 
billion. See World Bank Study on ``Justice for Forests'' at: http://
siteresources.worldbank.org/EXTFINANCIALSECTOR/Resources/
Illegal_Logging.pdf.
    \17\ This trend refers specifically to large scale ivory seizures 
(i.e., seizures of >800 kg of ivory >1,765 lb).
    \18\ See: http://www.cites.org/eng/news/pr/2012/
20120228_elephant_cameroon.php.
    \19\ See: http://www.state.gov/r/pa/prs/ps/2012/03/187006.htm.
    \20\ See: http://www.cites.org/common/cop/15/inf/E15i-68.pdf.
    \21\ See: http://www.environment.gov.za/.
    \22\ See paper to be presented to the 62nd meeting of the CITES 
Standing Committee.
    \23\ See: https://www.europol.europa.eu/content/press/europol-and-
ireland-identify-organised-crime-group-active-illegal-trading-rhino-
horn-9.
    \24\ See: http://www.justice.gov/usao/cac/Pressroom/2012/030.html.
    \25\ See: http://www.cites.org/eng/prog/iccwc.php.
    \26\ The CITES Secretariat participated in the side event on 
``Corruption, Environment and the U.N. Convention Against Corruption 
(Marrakesh, October 2011) and the resulting UNODC publication. CITES 
paper available at: http://www.unodc.org/documents/eastasiaandpacific//
indonesia/publication/Corruption_Environment_and_the_UNCAC.pdf.
    \27\ See: http://www.cites.org/eng/news/sundry/2011/
20111219_cd_workshop.php.
    \28\ See: http://www.cites.org/eng/news/pr/2012/
20120214_tiger_bkk.php.
    \29\ See: http://www.cites.org/eng/news/pr/2012/
20120509_certificate_cn.php.
    \30\ See: http://www.state.gov/r/pa/prs/ps/2012/05/189287.htm.
    \31\ See: http://www.unodc.org/unodc/en/speeches/security-council-
briefing-23-nov-2011.html.
    \32\ See: http://www.fws.gov/international/DIC/pdf/Afe_fs.pdf.
    \33\ See: http://www.cites.org/eng/news/pr/2011/
20111221_cites_za_elephant.php.
    \34\ See: http://www.cites.org/common/cop/15/inf/E15i-68.pdf.
    \35\ See: http://www.cites.org/eng/com/sc/61/E61-16.pdf.
    \36\ See: http://www.cites.org/eng/news/SG/2011/20111108_GEF.php.
    \37\ See: http://www.cites.org/eng/news/pr/2012/
20120209_innovative_finance.php.
    \38\ The CITES Virtual College has experienced almost global access 
with 4,900 unique visitors from 168 countries and territories 
representing 78 different language groups. See: https://eva.unia.es/
cites/.
    \39\ See: http://www.cites.org/eng/news/sundry/2012/
20120503_vc_thailand.php.
    \40\ This coincides with the opening of the 16th meeting of the 
Conference of the Parties to CITES to be held in Bangkok.
    \41\ In the event the Parties take a decision to make such a 
request.

    The Chairman. Well, thank you very much, Mr. Secretary. We 
appreciate it. We appreciate your leadership and what CITES is 
trying to do. I know it is difficult. That was interesting 
about the financial mechanism. I will sort of follow up on that 
in a moment.
    Let me begin. I want to try to bear down on a couple of 
things here.
    Dr. Douglas-Hamilton has said that he thinks the single 
thing that might have the greatest impact and that would 
really, ``save the elephant,'' is to have the biggest consumer 
country, China, unilaterally reinstate the import ban. Could 
you speak to that, Secretary General? Do you concur that that 
would have the single greatest impact?
    Mr. Scanlon. Chair, the major consumer states of ivory 
appear to be China and Thailand. With respect to rhino horn, it 
appears to be Vietnam that seems to be the primary end 
destination for rhino horn.
    Issues such as whether or not to open up trade or not we 
leave within the realm of the parties to determine. There were 
the two one-off sales, as you are aware, in terms of elephant 
ivory following the ban in 1989. We will be presenting a report 
to our standing committee in July of this year. It will be 
released within the next week or two which will include a 
thorough analysis of where we are at at the moment with respect 
to illegal trade and illegal killing in elephants. Clearly, the 
issue of demand has to be tackled. If we can curb demand, then 
we can curb supply. But in terms of what measures the parties 
decided or individual parties may want to put into place, I 
would leave it to them.
    The Chairman. Well, Dr. Hamilton, there was a ban in place 
for a number of years. Correct? How many years did we have the 
ban in place?
    Dr. Douglas-Hamilton. It was the best part of 20 years.
    The Chairman. And there was a ban globally on any kind of 
importation. Was there not?
    Dr. Douglas-Hamilton. That is correct. But it was relaxed 
twice to allow some sales of stockpiles from countries that did 
not have a poaching problem.
    The Chairman. When was it relaxed?
    Dr. Douglas-Hamilton. Two one-off sales of raw ivory were 
made, the first was in 1999 and the second in 2008.
    The Chairman. And it was relaxed with respect to a few 
countries only?
    Dr. Douglas-Hamilton. Yes, the first sale included 
Botswana, Namibia, and Zimbabwe who sold to a single buyer, 
Japan, the second sale took place in 2008 when Botswana, South 
Africa, Namibia, and Zimbabwe sold to China and Japan.
    The Chairman. They were allowed to export it?
    Dr. Douglas-Hamilton. They were allowed to sell their ivory 
stocks to only two countries, China and Japan. And China, in 
fact, came on board at the last moment. They applied to be 
given that special buyer status.
    The Chairman. Who signed off on that? Who granted that 
permission?
    Dr. Douglas-Hamilton. That was granted by the standing 
committee of the CITES Convention.
    The Chairman. So CITES, in effect, has the ability to come 
back and reverse that. Does it not?
    Dr. Douglas-Hamilton. I do not know that they do. I think 
it is all in the hands of the CITES parties.
    The Chairman. Since we have CITES here, Secretary General, 
since CITES relaxed it, could CITES tighten it up again?
    Mr. Scanlon. Thank you, Chair. Yes. The ban was put in 
place in 1989. There were two what were called one-off sales. 
They have been completed. So the ban on the legal trade in 
ivory remains in place. There were two what are called one-off 
sales because they were for existing stockpiles. It was 
approved by the Conference of the Parties, and then it was only 
approved in terms of sales to two states, as Iain has stated, 
Japan and China. If trade were to be reopened, it would require 
another decision of the Conference of the Parties.
    The Chairman. So what you are saying is that the only thing 
that was relaxed was the one-off sale.
    Mr. Scanlon. Yes. There were two one-off sales.
    The Chairman. Two one-off sales took place to two 
countries, Thailand and China.
    Mr. Scanlon. Japan and China.
    The Chairman. Japan and China. Excuse me.
    So it appears as if that has, indeed, whetted the appetite.
    Mr. Scanlon. I would say there are differing opinions on 
that, Chair. There are some who are very strongly of the view 
that it has whetted the appetite and has opened up trade. There 
are others who have quite a contrary view who do not see a 
correlation between it. So I would say there are mixed views on 
that. The Secretariat will express itself in its paper to the 
standing committee next----
    The Chairman. Well, the bottom line remains that you have 
two countries, maybe three, that stand out for their illegal 
activities: China, Thailand, and Vietnam. Thailand and China as 
to the elephant and Vietnam as to the rhino. Correct?
    Mr. Scanlon. In terms of end states, China and Thailand on 
all the analysis we do seem to be the largest end states, not 
the only ones, but the primary end states of illegal trade in 
ivory. And our analysis suggests Vietnam is the primary end 
state in terms of illegal trade in rhino horn.
    The Chairman. My experience in law enforcement, certainly 
dealing with drugs and other issues, but also on this committee 
in the 1980s when we did a lot of work on narcotics globally 
that led us to do a lot of work on the banking structure and on 
some of these opaque issues which are very damaging, shows you 
have to approach this comprehensively. I do not think there is 
one mandate. But certainly China getting tougher on the 
importation--
I mean, if you can sell openly and people are buying and 
trading and everybody knows what is going on, and there is no 
penalty, you have a problem. So it seems to me that those 
countries are going to have to join in to the enforcement 
effort.
    Is there something more that they could do?
    Mr. Scanlon. Thank you, Chair. Just with respect to China, 
they put in place quite significant enforcement-related 
measures. I have visited there several times and have met most 
of the enforcement authorities. They probably have one of the 
world's largest management authorities with 122 staff.
    The reason why we are aware that China is such a 
destination is because of the success of Chinese customs in 
making large-scale seizures because the data we rely upon is 
the data that comes from the state that actually carries out 
the seizure, and China has been very effective in closing down 
a number of its ports. That is why we are seeing now a number 
of the syndicates trying to go through Cambodia or Lao PDR or 
Malaysia to get to China because of the effective enforcement 
action in China at the border.
    They have also just late last year put in place a 
coordinated enforcement mechanism, and just a few months ago, 
they mobilized around 100,000 enforcement officers across the 
country to carry out a major enforcement activity. So I would 
say they are fully engaged in the enforcement initiative.
    I think the area we have to focus on here--and we are in 
discussion--with China is with respect to domestic controls and 
whether the domestic controls that allowed legal trade in ivory 
have loosened and we need to get them tightened up in a way 
that does not allow the laundering of illegally traded ivory 
through the legal market. And that is an area where I think we 
are in dialogue in terms of a way of strengthening that.
    The Chairman. Well, I want to come back in a few minutes to 
the front line of enforcement. I mean, there are certain 
different lines here and tiers. I know Senator Coons, who has 
been with us since the beginning, has a scheduling conflict, so 
I want to allow him to ask a few questions here without any 
regard to time. Take your time and ask what you need to.
    Senator Coons. Thank you, Senator Kerry.
    The Chairman. I would just note it is sort of interesting 
that we have three Democrats here trying to preserve the 
Republican Party symbol. [Laughter.]
    Senator Coons, go ahead.
    Senator Coons. The chairman leaves me uncharacteristically 
speechless. [Laughter.]
    Thank you, Chairman, and thank you to the panel.
    I just wanted to follow up briefly with some questions 
since I have an opportunity to meet with folks who might be 
relevant to these few questions.
    In the reading, I see that AFRICOM, the United States 
command for Africa, is working with the Botswana defense forces 
on providing some of the communications and other logistical 
support and capabilities to better address poaching. I 
wondered, either Dr. Hamilton or Mr. Cardamone, if you had any 
input or advice on whether that is a model that is worthy of 
replication, whether you think AFRICOM has been contributing 
significantly to the antipoaching efforts. There are other 
regions obviously. We have centrally focused here on central 
Africa where there are much less well developed national 
defense structures and they have much more pressing challenges.
    So I would be interested in what you think AFRICOM can and 
should be doing on supporting national efforts by our African 
allies, and then second, if I could, just USAID and its efforts 
both in habitat preservation and in conservation. I would be 
interested in whether the CARPE program offers the 
infrastructure to coordinate efforts in the Congo basin. So if 
you would in order, please, Dr. Hamilton and Mr. Cardamone, on 
what AFRICOM and what USAID can and should be doing.
    Dr. Douglas-Hamilton. I think it has been very effective 
what has happened in Botswana. It is one of the reasons that 
Chobe is one of the very few of these sites that are looked at 
under the MIKE program that have very low poaching levels. They 
have not only the Botswana army dedicated, but they have help 
from the U.S. forces as well.
    I think it would be very helpful to have more involvement 
especially in East Africa. There has been a huge amount of 
money poured into central Africa and quite rightly so because 
it was the worst-hit area. But we are now seeing levels of 
poaching in East Africa that formerly were typical of central 
Africa, and we have just got to stop that. If we could have 
much more help with training maybe from the U.S. forces and, 
indeed, intelligence and surveillance and any of the resources 
that they could marshal, it would be a great help.
    Senator Coons. Mr. Cardamone.
    Mr. Cardamone. I think AFRICOM's ability to train forces 
and assist forces that can interdict and prevent this 
trafficking is very valuable and helpful not only to address 
the very real problem of poaching but the long line that leads 
back to regional and national security. By taking the product 
out of action, you take the money out of the system as well. 
Addressing militant groups and insurgent forces and other 
entities that are working counter to U.S. interests is 
certainly primary among what AFRICOM is trying to do, and this 
is a way to sort of starve the beast.
    Senator Coons. Dr. Douglas-Hamilton referenced DARPA and 
the potential benefits of being able to better track not just 
elephants, but also poached elephant ivory. My impression from 
your testimony is that the illicit pathways by which poached 
ivory makes it from Africa to the markets of Thailand or China 
are relatively well known. Would it be advantageous in fighting 
poaching and the trade in illegal ivory to have more 
sophisticated capacity to track specific tusks or pathways for 
the illegal trade? Mr. Scanlon or Mr. Cardamone, would you care 
to comment on that?
    Mr. Scanlon. Thank you, Senator. Absolutely. We are working 
very closely with parties on using more modern forensic 
techniques in wildlife crime, DNA testing. We work with the 
South African Government in particular to see whether or not 
they can enhance their in-house capacity because we need to 
know where the stock is coming from, and if we can track it 
from destination to home, it will be advantageous. We are also 
looking at other technologies. We have also raised the 
discussion with China as well and other states in the Asian 
region with respect to using modern techniques for tracking 
wildlife contraband which would make it much easier to actually 
carry out enforcement measures.
    Senator Coons. I found Dr. Douglas-Hamilton's paraphrase of 
the expression, ``if the buying stops, the killing can too,'' 
quite compelling and intend to raise this particular issue with 
national leaders in East Africa on my upcoming visit.
    Thank you so much for your testimony here today.
    The Chairman. Thanks a lot, Senator Coons.
    Senator Udall.
    Senator Udall. Thank you, Chairman Kerry. I really 
appreciate you holding this hearing and focusing on this issue 
because I believe it is a very, very important one.
    I just recently returned from Africa on a trip that was 
focused more on PEPFAR and HIV/AIDS. And it is incredible what 
we are doing there, but that is another side part of the 
picture.
    But we had an opportunity, when there was a national 
holiday, to spend a couple of hours in a game park up in 
northern Namibia, Etosha, and saw these just magnificent 
creatures that are there. And I really identify with what 
Secretary Scanlon said. Very, very poor countries where 
individuals are gaining a living--you can call it ecotourism or 
sustainable range management or whatever, but they are out 
there on the ground living, and as a result of these animals, 
they are able to stay in the country rather than go into the 
shanty towns where you just have this abject poverty.
    So I wanted to focus a little bit. So it was incredible 
just to be there and see that and have that experience and see 
the creatures and know that people--this is part of their 
livelihood. And these poachers are taking that away from them, 
and I think it could cause real instability there on the 
ground.
    I would like to focus a little bit--and Senator Kerry did a 
good job on a couple of the issues, but focus a little bit more 
on the law enforcement side of this. It seems to me--and, Dr. 
Hamilton, I wanted you to talk a little bit about this. If you 
had very strong wildlife penalties, elevating wildlife 
penalties, and then you had strong prosecution, you could nip 
this at the bud. Now, granted, it has grown to the point where 
you have 200 armed horsemen moving from Sudan and so you need a 
significant counterforce to do something about that. But is 
there a problem in terms of the penalties? Is there a problem 
in terms of enforcement? And then what do the witnesses here at 
the table believe we can do about that in order to plug that 
hole? Because I think you start there with that issue.
    Please, Dr. Hamilton.
    Dr. Douglas-Hamilton. There is a big problem on the 
penalties. They are, in general, across Africa far too low, and 
the enforcement of those penalties that exist is far too weak. 
I can speak to Kenya in particular where there is a plan under 
the new constitution to bring in much more severe penalties, 
and I know the Kenya Wildlife Service and the NGOs are pushing 
to have this law introduced much earlier. But it is crucial 
that magistrates should be given the message and the power to 
punish properly, which they do not have at present. The same is 
true elsewhere in Africa, and there are few countries that have 
strong law enforcement in that respect.
    Senator Udall. All the countries where we have the big 
problem in terms of the elephants being wiped out do not have 
very strong penalties and do not have very good enforcement?
    Dr. Douglas-Hamilton. Well, I am not aware of every single 
case, but there is always great latitude for magistrates to 
take initiative, and they need to be given great political 
direction. So if this point is raised at the highest levels 
with African governments in discussion, then it could be put on 
the agenda, and I think it is really important that the U.S. 
Government and the Foreign Relations Committee should take 
every opportunity to do that.
    Senator Udall. And I think many of us are interested in 
doing that.
    Secretary Scanlon.
    Mr. Scanlon. Thank you, Senator. And, yes, one thing we 
have noticed is sometimes a seizure is seen as a success. I 
mean, a seizure is part of the enforcement chain, but you have 
to go beyond a seizure. You have to investigate. You have to 
prosecute and you have to penalize. And so what we are trying 
to push is that seizure is an important part of the enforcement 
process, but the whole enforcement chain needs to be engaged 
from the customs or the police right through to the prosecutors 
through to the judiciary. This goes to the whole issue of rule 
of law and good governance.
    The other thing we are finding is that quite often those 
who are prosecuted are, if you like, at the wrong end of the 
chain. They are those that are in the front line of poaching, 
perhaps those that are not driving this illegal trade. They are 
the ones that are being engaged at a low rate to actually 
involve themselves in poaching and illegal trade. We need to 
actually catch the kingpin. We need to find out who is it where 
that is actually driving this trade and ordering the purchase 
of these illicit items.
    That is why we have put in place through this consortium I 
mentioned before training in what is called controlled 
deliveries. It has been used in dealing with illegal trade in 
narcotics whereby you do not seize the contraband when you 
identify it. You track it to home so you can find out who, in 
fact, ordered the ivory and get that person, not the person 
lower down the chain. So we are trying to use more effective 
enforcement techniques that have been used in fighting the war 
against drugs, et cetera and apply them to wildlife crime.
    South Africa is a very good example of a state that has 
taken very strict measures with respect to wildlife crime, and 
they have, over the past few months, incarcerated nationals of 
Mozambique for over 20 years for smuggling in rhino horn and 
nationals of Vietnam for over 10 years for smuggling in rhino 
horn. They are very hard with respect to anyone that is coming 
to steal their wildlife, and they have put in place the sort of 
measures, the sort of coordinated measures, through the 
National Crime Bureau of INTERPOL that are necessary at a state 
level to really clamp down and send a strong message: you steal 
our wildlife, you are going to jail. So we use South Africa as 
a good example albeit, with all that effort, they are still 
really struggling to deal with this illegal trade in rhino 
horn.
    Senator Udall. Do each of these countries that are having a 
problem in terms of the elephants being wiped out have the 
capability you are talking about in terms of getting the 
kingpin?
    Mr. Scanlon. I would say ``No.'' And the analysis we have 
done shows that the highest rates of illegal killing are those 
states that had the weakest governance. So where you have the 
weakest governance, you find the highest levels of illegal 
killing. And as we were talking about earlier--this whole issue 
of governance and rule of law and having systems in place--
where it is weak, we see high levels of killing.
    Senator Udall. Well, I am going to stop because Senator 
Risch has showed up, Chairman Kerry, and we are very excited 
about the idea that a Republican has showed up to at least 
question. We do not know what Senator Risch's position will be, 
but I am going to yield the floor at this point.
    Senator Risch. Thank you so much. You guys have been doing 
all you can to make us elephants extinct, that I thought I 
should come up.
    I do have a serious question. You mentioned the rule of law 
and strong governance as being helpful, maybe even critical in 
controlling the illegal trade. And I think that is probably 
true in everything, whether it is narcotics or whether it is 
piracy of intellectual property or what have you.
    Who are the bad actors? Where do you find the countries 
where they can take the product in and rework it to whatever 
they do with the ivory to put it into the stream of commerce 
and are protected by the government or essentially by the 
culture there? Who are the bad actors in this regard?
    Mr. Scanlon. Thank you, Senator. I think as a general 
statement, we can say that the risk of detection with wildlife 
crime is lower than for other crimes. The penalties associated 
with wildlife crime are lower than other crimes, and the risks 
of incarceration are lower than others. So that is pretty a 
general statement.
    And we then see examples where wildlife crime is perhaps 
taken more seriously, and I just gave South Africa as an 
example where very long custodial sentences were given to 
individuals stealing the wildlife in South Africa.
    I would say it is a bit of a mixed bag in most parts of the 
world with respect to the sorts of measures that are in place.
    One thing we have noticed is what I said before, that 
seizure is sometimes seen as a success. Seizure is, in fact, a 
failure. That animal is dead. You have seized the contraband, 
but the person who wanted it is still wanting it. That is why 
we have put in place this training in controlled deliveries and 
other more effective techniques in dealing with crime, whether 
it is wildlife crime or not, because we have to get to the 
perpetrators, those who are actually driving the demand. And I 
would say in those countries where the demand is driven, they 
have quite strong laws. In China, for example, it used to be 
they had the death penalty as the highest penalty for wildlife 
crime. It is now life imprisonment as the highest penalty that 
can be imposed for wildlife crimes, and other states vary.
    In Thailand, I know they are looking at their legislation. 
They do have a problem with domestic controls over ivory. They 
have a legal domestic market. It is not well regulated. It 
needs to be tightened. We are in discussion with them on that. 
These are the sorts of things that are very targeted where we, 
as the Secretariat, tend to work with the state to try and lift 
them up to a level that would be more in keeping with the 
objectives of the convention.
    Senator Risch. You are not able to identify a particular 
hot spot in the world, though. You referred to it as a kind of 
checkered and mixed bag. You do not have one particular area 
that you can put your finger on and say, look, this is an area 
we really need to concentrate on.
    Mr. Scanlon. There are certain areas we have to 
concentrate. I think the main end market for rhino horn seems 
to be Vietnam. I think we need to, at a political level and at 
an operational level, really enhance our efforts there because 
we need some very strong political signals coming with respect 
to this being unacceptable and really enhance the effort being 
made at an operational level because they have made no seizures 
there, I think, since 2008. Yet, all the evidence coming from 
South Africa and other countries is that this is a prime 
destination.
    With respect to other states, I think if we look at Africa, 
I think they are the states that we will all be familiar with 
that have weaker systems in terms of their rule of law and 
governance. And as you said, Senator, it is not just wildlife 
crime. It is other types of crime as well that perhaps are not 
getting the attention that they deserve. Again, we try and work 
with these states to lift them up.
    There was one state in Africa, Nigeria, that was the 
subject of a trade suspension under CITES for 6 years because 
of its inadequate legislation and lack of enforcement effort. 
That was just lifted at the last standing committee in August 
of last year following the enactment of new legislation and the 
establishment of a new enforcement authority.
    So the parties to CITES do intervene where they see a 
systematic lack of effort to put in place legislation or 
enforcement measures. Somalia is subject to a trade suspension 
for all trade at the moment, and there is one other state 
subject to a trade suspension for lack of legislation, 
Mauritania. So there are certain states that have been 
identified by the parties and have been subject to recommended 
trade suspension for failure to fully comply with the 
convention.
    Senator Risch. Has anybody else got a comment on that 
aspect of the issue?
    Mr. Cardamone. Yes. I would just like to say that I fully 
support Mr. Scanlon's idea that you have to go to the person at 
the top. Who is driving the trade? What is the demand and who 
is that person or who is that syndicate? And interdicting just 
the low-level poachers is not going to get at the problem.
    The major difficulty in determining who the head of that 
syndicate is, is the ability to hide behind legal structures 
throughout the world in various jurisdictions around the globe, 
and that is either through a shell corporation that hides its 
money in a secret bank account that also hides behind a trust, 
a nominee trust or a foundation. So there are layers upon 
layers upon layers of opacity in the financial system and in 
the corporate structures that enable these syndicates to hide 
behind. And I think that addressing this opacity is the thing 
that the international community can do as far as an attempt to 
cut off the money supply.
    Senator Risch. Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator. I appreciate 
it.
    You mentioned earlier--well, let me ask a quick question. 
On the seized material, how much of that finds its way back 
into the market? Do you have any sense of that, Dr. Hamilton?
    Dr. Douglas-Hamilton. I really do not.
    The Chairman. Do you, the CITES folks, have a sense of 
that? Where does it go? What happens to all this? I saw in the 
video enormous stocks of tusks, of seized material, but knowing 
the way things work in a lot of those places, I am wondering, 
Does that stay in the evidence room? Is it destroyed? What 
happens to it?
    Dr. Douglas-Hamilton. Sometimes it gets destroyed. We had a 
burning of ivory in Kenya recently, which was a consignment 
that had been seized in Singapore and it had come from Nairobi. 
But that ivory was not Kenya ivory. It had come from all sorts 
of other countries, and Kenya had been used, because of its 
efficiency in transport, as a transit point.
    So that ivory eventually was surrendered back to Kenya, and 
the countries of origin were identified through detective work 
and through looking at the DNA profile of some of the DNA found 
on the ivory. And it was agreed amongst all those parties that 
they should burn that ivory and destroy it, which was a very 
good solution and it sent out a strong signal.
    The Chairman. Well, does that need to become the norm? 
Should there be a part of the convention that should require 
that all stocks are assembled and in fact destroyed? Because if 
there is a secondary value, seizing it and then selling it or 
putting it into the black market under the table or otherwise 
does not do you much good. You still have the same incentive 
there to go after it.
    Dr. Douglas-Hamilton. I think it would be an excellent 
idea, but one would need perhaps to tie some recompense to 
those countries so that the stocks to be destroyed, 
nevertheless, attract an equivalent amount of money in aid that 
could be put into elephant conservation.
    The Chairman. Well, that is an interesting idea.
    We do have our Reward bill which we are working on, 
bipartisan, and I hope maybe we can frame something into that.
    Mr. Secretary General, you also talked about the need to 
send strong messages here and you talked about the three states 
where you ought to do that: the range state, the transit state, 
and then finally the consumer state. We have talked a bit about 
the consumer state and what we may be able to do there.
    Clearly, it is critical to highlight the need for China, 
Thailand, Japan, Vietnam, and other countries to raise the 
level of enforcement and a penalty, and I think we need to put 
this on the agenda at ASEAN and other meetings, No. 1.
    No. 2, what other messages do you have in mind that might 
make a difference at each of those state levels, in the range 
state, transit state, and consumer state?
    Mr. Scanlon. Thank you, Chairman. One of the great 
strengths of CITES is it is a very pragmatic and very 
operationally focused convention. So it works very much at 
ground level trying to actually achieve things.
    One of its weaknesses has been the higher level political 
engagement, and with some of these issues, if we do not get 
very high-level political engagement and very strong political 
signals, it is very hard at the operational level. So one of 
our objectives the last few years has been to try and lift this 
debate, not lose the operational side, but lift the debate into 
a higher political sphere so that in countries that are 
consumer or transit countries, at the highest political level 
the message is unequivocal. This is not going to be tolerated. 
You will be punished severely if you are found breaching this 
convention and the national legislation that implements it. So 
we are working with all states, consumer, range, and transit 
states, and trying to bring them together at a higher political 
level to have that discussion about what they are going to do 
in terms of sending these messages.
    We do, Chairman, have an opportunity at our next Conference 
of the Parties in March of next year to have a higher level 
ministerial session whereby we can bring together higher 
political figures to actually send these very strong signals. 
So that is an obvious opportunity, but we are in conversation 
with states.
    I should say we are also doing that at the operational 
level, and there are good exchanges, I know, at the operational 
level between South Africa and Vietnam, for example, on rhino 
trade. But we are really strongly of the view, working through 
the sort of the fora you have just mentioned, ASEAN and other 
fora, to actually get this on the agenda and send a message 
will have a significant impact, a positive impact.
    The Chairman. And anybody. You talked about the high return 
for minimum investment with respect to a couple of those 
things. On the front line, on the range state, if 200 people 
can get on their horse in transit countries and come raging in 
with their AK-47s and massacre 400 of these animals, we have a 
fundamental problem in terms of security forces, law 
enforcement, army, whatever it is. What, if anything, can be 
done to augment that capacity? Could that happen through the 
African Union? Could that happen through some other kind of 
coordinated force or something? It seems that some minimal 
level of increased deterrent force would send a pretty strong 
message.
    Dr. Hamilton.
    Dr. Douglas-Hamilton. I think any forum should have it 
raised. The point is that this elephant crisis is just not on 
many people's radar until now, neither in the States nor in 
Africa. With increased awareness and raising this point, all 
these fora should be used. But it will not avoid the need for 
the nitty-gritty, which is to build up forces on the ground to 
engage local people and get them on our side and to use 
everything in our armories to solve this elephant problem.
    The Chairman. We are going to have three votes in the 
Senate, which generally finds a way to end our hearings one way 
or the other, in about 5 minutes. So we have a moment here for 
colleagues to weigh in with additional questions and a little 
leeway.
    As I said in my opening comments, we are inundated. We have 
got a lot going on. There are a lot of people out of work. We 
have got a lot of deficit issues, budget issues. I mean, there 
is a lot going on. People are consumed.
    The trick here, though, is not to lose sight of the 
connectedness of all of these things. This is not just about 
elephants. It is not just about poaching in one place. The dots 
connect here to the whole issue of failed states, governance, 
lack of law enforcement, preying on people, the sort of random 
violence that comes as a consequence of this, the enormous sums 
of money. Criminal syndicates are walking away with billions of 
dollars out of this. And one of the things that I saw full 
square in the 1980s when we began to look at Noriega's bank of 
preference and ran across Osama bin Laden's name was that this 
is all interconnected. The opaqueness is used by all of these 
illicit entities, including terrorist groups, to move their 
money, to avoid accountability, to stay outside of governing 
structures. And all of those entities that are outside of those 
governing structures are depleting the capacity of states to 
function and to do what they are supposed to do.
    So I think that this is worth raising the heat on it a 
little bit because those same thugs who can come in there and 
do that are also going to rape, pillage, plunder, move 
narcotics, facilitate somebody's ability to get money illicitly 
and may wind up blowing up a bunch of people in some community 
square. And so I think it is important to fight back against 
failed statism, against the absence of governance, and I view 
this as a component of that. Am I wrong or what would you say 
to that, both of you involved on the enforcement side?
    Mr. Cardamone. Yes, I think that is right. It is not an 
Africa problem. It is a global problem because of all the 
connections you have just laid out. And what facilitates that 
is the opacity in the system.
    Justice Brandeis a long time ago said sunlight is the best 
disinfectant, and he was talking in another era about a 
different issue, but that comment holds to this. Without 
international effort, international focus, without global 
political will, this problem will not go away. Neither will the 
problems of terrorism or transnational crime because the 
connective tissue is the opacity in the financial system, and 
until organizations like the G20 and others really focus on 
this, we are going to be talking about this problem for quite a 
long time.
    The Chairman. Do you want to comment, Mr. Secretary 
General?
    Mr. Scanlon. Just briefly, Chair. And I think the 
interconnections you have talked about are supported by what we 
observe through the convention. It is supported by what 
INTERPOL is observing and has passed resolutions on, and it is 
also what is observed by the U.N. Commission on Crime 
Prevention and Criminal Justice and the resolutions that they 
have passed on the topic.
    The Chairman. Dr. Douglas-Hamilton, you mentioned DARPA and 
the possibility of thinking out of the box. Can you just fill 
that in a little bit more for us?
    Dr. Douglas-Hamilton. I think that DARPA have the 
intellectual resources, quite extraordinary ones. I know some 
of the people there, and we have discussed ideas for making the 
dream elephant collar or for putting up gunshot detectors in 
all the hills and integrating this into a system that is a sort 
of command and control system but at a local level where it is 
very easy to get the information fed back to a quick reaction 
force. In a way, antipoaching is like a minor guerilla war. 
Part of it is you have to reach out to hearts and minds, other 
parties. You have got to beat in the field. And for that, the 
more technical support we can get, the better.
    The Chairman. Well, give the committee just a shorthand,
1-minute version of the one, two, three things that you think 
will make the greatest difference here that need to be followed 
up on.
    Dr. Douglas-Hamilton. I think No. 1 is the antipoaching in 
the field, which we have covered fairly well.
    No. 2 is controlling the transit points which have been 
dealt with well by the Secretary General and where we need 
again more tracking mechanisms for following ivory and rhino 
horn because we have got this huge gap of the middlemen that do 
not get arrested, prosecuted, and put away. We do not even know 
who they are in many cases. We know the demand is on one side 
and the supply is on the other.
    And finally, demand. I believe that if China were to take 
bold leadership, it would be hugely in their own interests. At 
the moment, they are getting a terrible reputation for their 
environmental record in Africa by having fingers pointed as 
being the prime instigators of illegal ivory and rhino horn 
trading. And it is a tiny, little trade that matters nothing to 
China compared to their other interests in building and 
developing.
    So finally I would end there.
    The Chairman. When you say the tracking of the ivory, are 
there mechanisms? Do we have any ability to track the ivory 
now?
    Dr. Douglas-Hamilton. There are gadgets that can be used at 
a certain level. The problem is that they have to be embedded 
within the ivory. There is also DNA tracking which is an 
extremely promising field that needs a lot more work. You can 
trace ivory back to its origins through the DNA. But if we have 
little sensors, they can be used. It is a question of at which 
stage they get located. But I think again the technical 
abilities of having smaller and smaller sensors are there. It 
is just that we need to apply whatever might be available to 
this field.
    The Chairman. Well, it seems to me--this may be the 
wackiest idea ever, but it seems to me that it would be pretty 
appealing to some big game hunters, instead of killing the 
elephants, tranquilize them, embed them, and you wind up doing 
a service in the same process.
    Dr. Douglas-Hamilton. Funnily enough, we had a program like 
that. We called it ``green hunting,'' and the idea was to use 
the undoubted energies of hunters for conservation to what I 
would say is a more ethical use, to dart an elephant and use it 
for science and law enforcement.
    The Chairman. Sure. You get the whole feedback of the 
entire hunt, et cetera, but you could leave them feeling pretty 
good about the future.
    Anyway, let us pursue these things and we will pursue them.
    Senator Risch, do you have any more you want to ask? 
Senator Udall, go ahead.
    Senator Udall. Thank you, Senator Kerry. And I echo what 
you said. I think it was very eloquently said.
    I just want to come back to this law enforcement side where 
you have this total inequality. I mean, when you have 200 
armed, heavily armed, people moving out of Sudan down into 
Cameroon, they get into a national park there in Cameroon and 
kill 200 to 450 elephants out of a total of maybe 600, and then 
they take the ivory and move back up and it is part of their 
whole syndicate, if someone or entity or government does not 
confront that kind of activity, I mean, it is going to 
continue, and you are going to see the elephant populations 
decimated in a variety of different places, whether it is 
Cameroon or the Central African Republic or others.
    And so is there the capability there? If we know that these 
heavily armed militias, or whatever you want to call them, are 
moving across country borders to engage in this kind of 
killing, is there a force to confront them and to push them 
back? Because it would seem to me if that happens a couple of 
times, it is not going to happen again if they are very 
decisively encountered and confronted and pushed back. I do not 
know who would be the best here.
    Dr. Hamilton.
    Dr. Douglas-Hamilton. I would like to answer for our own 
neck of the woods, which is East Africa. It is not the same 
situation. You cannot have a roaming gang like that traversing 
through Kenya and getting away with it. And sometimes I feel 
that what we have going in Kenya is a little bit taken for 
granted, that everybody says, oh, well, Kenya is doing very 
well. They do not really need any help, which I would have 
bought until a year ago when these CITES MIKE figures showed us 
that actually our levels of poaching were like central Africa. 
So I think it is a different situation, and that the roaming 
bands that just goes hither and thither across borders is very 
much a central and west African phenomenon tied up with Lord's 
Resistance Army and heaven knows what irredentist movements.
    Senator Udall. Mr. Secretary General.
    Mr. Scanlon. Senator, very briefly. What we did do in 
response to the incident was we activated all of the networks 
we have through INTERPOL, World Customs, and U.N. Office of 
Drugs and Crime to try and seize their contraband so that at 
least these criminals got no financial gain for their act. But 
we are also working with all countries of the region to look at 
how we can bring them together collectively, possibly through a 
wildlife enforcement network in the same way that has been 
supported by the United States and other parts of the world so 
they can start sharing intelligence collectively and support 
one another in these endeavors.
    And the Government of Cameroon did ultimately deploy its 
defense forces to this park to expel the poachers. So they did 
act, albeit it was after the event, but we are hoping that that 
will set a precedent for any potential incidents in the future.
    But I think regional or subregional support is necessary 
and through this consortium we have with INTERPOL, World 
Customs, U.N. Office of Drugs and Crime, we think we can lend 
them the sort of support they might need to improve their 
support.
    Senator Udall. And I think it was the case here that the 
rangers in the park did not have any weapons, were not armed at 
all, and here you have a heavily armed force that moves in and 
takes that kind of activity. So you need to think at a whole 
different level in terms of law enforcement when it comes to 
some of these things that are going on.
    But we really appreciate your lifetime commitment to this, 
Dr. Hamilton. You have been working so hard, and we really 
appreciate the Secretary General and Mr. Cardamone here working 
on this. And I do not know if you have any additional thoughts 
on what I talked about. Thank you very much. I really 
appreciate it.
    The Chairman. Folks, the vote is now on and we need to 
proceed to the floor in order to take part in that.
    But I want to thank you for coming in today. I think this 
has been really helpful, educational, and important, and I 
think it sets out some interesting avenues for us to pursue, 
both in terms of just diplomacy and work between countries, but 
also some specific initiatives that we may be able to take and 
certainly some conversations that we can have with leaders in 
other countries in order to try to keep the focus moving in the 
right direction.
    So, Dr. Douglas-Hamilton, thank you for your life's work on 
this effort. We really appreciate it and respect it, and we are 
going to continue to stay focused on this, I can assure you.
    Thank you. Thank you all for being with us.
    We stand adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


 Responses of Dr. Iain Douglas-Hamilton to Questions Submitted for the 
                    Record by Senator James E. Risch

    Question. Much of your written testimony discussed declining 
elephant populations in Kenya and parts of central and western Africa. 
However, in numerous southern African countries elephants are 
frequently culled because of significant overpopulation problems.

  <bullet> Can you explain why elephants are thriving in southern 
        African countries that allow hunting while they are not doing 
        as well in areas where hunting is limited or banned such as 
        Kenya?

    Answer. It used to be true that in the Kruger National Park in 
South Africa and in the national parks of the former Rhodesia elephants 
were culled, but this is no longer the case. South African scientists 
consider that culling at present is not needed to control elephant 
numbers in the Kruger National Park (though it is not ruled out as a 
last resort option for the future). Tracking studies have shown they 
can emigrate to neighbouring countries.
    Well-managed hunting can certainly result in increasing wildlife 
populations, especially where there is adequate community on privately 
owned land, but it has not saved South Africa's rhinos, nor has it 
saved elephants in many countries in Africa which still permit hunting.
    Elephants are currently thriving in parts of southern Africa for 
many reasons, principally due to adequate funding for wildlife 
protection, and an absence of the formidable sort of poachers found 
further north. This could change once the elephant reserves in the rest 
of Africa are exhausted and the only region left to satisfy ivory 
demand would be the hitherto immune parts of Southern Africa. So long 
as demand for ivory exceeds supply no elephant population in Africa 
will be safe whether or not sport hunting exists.

    Question. It is my understanding that Kenya banned hunting in 1977. 
Numerous studies have found that creating an incentive to coexist with 
wildlife has been a central reason why so many populations of species 
are now thriving, especially elephants, rhinos, and lions. Of the 23 
southern African nations that have regulated hunting, a trend of 
positive species population growth has been reported. The growing 
population of white rhino has been one of the most notable success 
stories. However, in countries like Kenya, where wildlife utilization 
by indigenous people is extremely limited and where sport hunting does 
not exist, wildlife population levels continuously decline and are low.

  <bullet> Do you believe that the ban on hunting in Kenya has 
        exacerbated the poaching problem because local people do not 
        have an economic incentive to protect wildlife?

    Answer. I do not believe that the ban on hunting in Kenya has 
exacerbated the poaching problem. It is not true that in Kenya wildlife 
populations continuously decline. In many protected areas, both private 
and public they have thrived, most particularly elephants in the years 
following the ivory trade ban. Recent higher levels of illegal killing 
have not been caused by an absence of sport hunting, but by a sudden 
rise in ivory prices.
    While I do not dispute that in many places well-managed sport 
hunting can contribute to thriving wildlife populations, elephants also 
declined in many countries that had an active hunting industry, such as 
such as Central African Republic in the 1970s and 1980s. Likewise, in 
East Africa in the neighboring countries of Tanzania and Kenya, the 
first permits hunting and the second does not. Yet levels of illegal 
killing of elephants, from MIKE records, and trade seizures, reached 
record levels in both countries in 2011, regardless of hunting policy.
    So while hunters can play a useful role in promoting conservation 
in those countries where hunting is legal, and where communities get a 
benefit, hunting is not a panacea that can easily be exported to solve 
all of Africa's wildlife poaching problems.
                                 ______
                                 

          Responses of John E. Scanlon to Questions Submitted 
                       by Senator James E. Risch

    Question. Mr. Scanlon, it is my understanding that CITES has a 
quota that allows for the trade of five black rhinos per year. Do you 
believe that this trade is sustainable, and can you please explain the 
conservation benefits that this trade quota provides to local 
communities?

    Answer. When adopting the Convention text in March 1973, States 
explicitly recognized ``the ever-growing value of wild fauna and flora 
from aesthetic, scientific, cultural, recreational and economic points 
of view'' in the Convention's Preamble.
    The earliest Resolution of CITES Parties that is still in effect 
today concerns the trade in hunting trophies of species listed in 
Appendix I, which was adopted in 1979 [Resolution Conf. 2.11 (Rev.)]. 
This resolution provides guidance on the uniform interpretation and 
application of the Convention with regard to trade in hunting trophies 
to ensure that their exportation is not detrimental to the survival of 
the species.
    The Parties have also collectively adopted export quotas for 
Markhor hunted in Pakistan, Black rhinoceros in Namibia and South 
Africa, and Leopard in 12 African countries, with other States having 
adopted voluntary export quotas for hunting trophies of Appendix II 
listed species.
    More specifically, Namibia and South Africa were each authorized by 
the Conference of the Parties to CITES to establish an annual export 
quota of hunting trophies of five adult male black rhinoceroses 
(Diceros bicornis) through Resolution Conf. 13.5 (Rev. CoP14). This 
Resolution of the Conference of the Parties, adopted in 2004 and 
revised in 2007, was approved by consensus.
    The black rhino population of Namibia stood at 1,435 individuals at 
the start of 2008 (see document CoP15 Doc. 45.1\1\), and by the end of 
2010 this figure had increased to 1,750 (IUCN Red List, 2011), 
representing an annual rate of increase of 6.8 percent. An export quota 
of trophies from five animals represents under 0.3 percent of the 
Namibian black rhino population in 2010 and is well below the current 
rate of increase.
    South Africa had a black rhino population of 1,488 animals at the 
start of 2008, which increased at an annual rate of over 8.7 percent 
per annum to 1,915 animals at the end of 2010. The quota of five 
trophies from animals per year represents less than 0.3 percent of the 
population and is well below the current rate of increase.
    Namibia committed to invest all proceeds from rhino hunting to the 
Game Products Fund, and for those funds to be used in community 
conservation projects (see document CoP14 Inf. 43 \2\). Similarly, 
advice received on the sustainable use of rhinoceroses in South Africa 
suggests it has generated revenues for nature conservation authorities, 
created additional jobs, brought in additional revenues from abroad and 
provided conservation incentives to private landowners (see documents 
CoP13 Doc. 19.3 and 19.4\3\).
    Resolution Conf. 8.3 (Rev. CoP13) of the Conference of the Parties 
on Recognition of the benefits of trade in wildlife recognizes, inter 
alia, that the sustainable use of wild fauna and flora, whether 
consumptive or nonconsumptive, provides an economically competitive 
land-use option and that the returns from legal use may provide funds 
and incentives to support the management of wild fauna and flora to 
contain the illegal trade.
    The Parties are the ultimate source of interpretation and 
implementation of the Convention. Through their decisions, the Parties 
to CITES have recognized that: trophy hunting of species within 
appropriately set quotas falls within the ambit of the Convention; that 
the sustainable use of wild fauna and flora, whether consumptive or 
nonconsumptive, provides an economically competitive land-use option; 
and that commercial trade may be beneficial to the conservation of 
species and ecosystems and/or to the development of local people when 
carried out at levels that are not detrimental to the survival of the 
species in question.

    Question. Do you believe that poaching is less prevalent in African 
countries that have community-based natural resource management 
programs that include managed hunting?

    Answer. While enforcement measures are essential, when taken alone 
such measures are unlikely to eradicate poaching and illegal wildlife 
trade.
    Data from the CITES programme for Monitoring the Illegal Killing of 
Elephants (MIKE) show that sites with a better law enforcement capacity 
tend to experience lower levels of poaching. However, the data also 
demonstrate that elephant poaching is higher in areas of high infant 
mortality and low food security (see document SC62 Doc. 46.1), 
highlighting the close relationship between the well-being of local 
communities and the health of elephant populations, and suggesting that 
there may be a greater incentive to poach elephants in areas where 
human livelihoods are insecure. The causality of these relationships is 
sometimes referred to in the context of community-based natural 
resource management (CBNRM). Namibia is often cited as an example of 
the success of CBNRM programmes that include hunting as a central 
income generation activity for conservation and local communities 
alike.
    Well-managed CBNRM programs are ecosystem management tools that can 
positively impact on conservation and provide a way in which local 
people can become involved in CITES implementation. The application of 
CBNRM, however, must be consistent with the obligation of a Party to 
effectively implement the Convention and to ensure that CITES trade is 
legal, sustainable, and traceable. Under such circumstances, the use of 
CBNRM becomes a CITES implementation tool that has as its central 
component the building of local people's capacity to conserve, 
sustainably use, and derive equitable benefit from, the wild animals 
and plants that surround them.
    The relevance of CBNRM to the conservation and sustainable use of 
CITES-listed species in exporting countries was extensively discussed 
at an international symposium organized by the Austrian Ministry of the 
Environment and the European Commission in Vienna, Austria, in 2010. 
The proceedings are available at http://pubs.iied.org/pdfs/
14616IIED.pdf.

    Question. Can you please explain the difference between the legal 
trade in ivory under CITES and the illegal trade? Does the legal trade 
in ivory provide conservation and economic benefits to the species and 
countries involved?

    Answer. The aim of CITES is to ensure, through a globally 
recognized system of permits and certificates, that the international 
trade in wild fauna and flora is legal, sustainable, and traceable. The 
Convention establishes an international legal framework together with 
common procedural mechanisms for the general prohibition of 
international commercial trade in species threatened with extinction 
(Appendix I), and for an effective regulation of international trade in 
species not necessarily now threatened with extinction (Appendices II 
and III).
    Before any Party grants an export permit for specimens of species 
in Appendices I or II, its Scientific Authority must advise that the 
proposed export will not be detrimental to the survival of the species 
(the so-called ``nondetriment finding'' in Article III, paragraph 2(a), 
and Article IV, paragraph 2(a), of the Convention), which includes 
international trade in rhino hunting trophies and the sale of elephant 
ivory in certain limited circumstances. Another important precondition 
for issuing a CITES permit and certificate is the determination by the 
Management Authority that the specimens were obtained in a lawful 
manner (i.e., in conformity with the laws of the State for the 
protection of fauna and flora).
    Article VIII, paragraph 7 of the Convention requires each Party to 
submit an annual report on its CITES trade, containing a summary of 
information on, inter alia, the number and type of permits and 
certificates granted, the States with which such trade occurred, the 
quantities and types of specimens, and the names of species as included 
in Appendices I, II, and III. CITES now has records of over 12,000,000 
authorized trade transactions in its data bases that can all be readily 
searched, for example through the CITES Trade Database Dashboards. This 
reporting requirement further helps to ensure the legality, 
sustainability and traceability of CITES trade.
    By definition, illegal trade in CITES listed species is unregulated 
(i.e., outside the law); it is not conducted on the basis of any 
scientific finding; and it goes unreported. Such illegal trade is 
difficult to accurately detect, trace, quantify or control. It violates 
the Convention and relevant national laws and is also highly likely to 
be unsustainable, thus posing risks to the conservation and sustainable 
use of wild species. Furthermore, illegal trade deprives local people 
of legitimate development opportunities and governments of potential 
revenue, and entails significant human and financial costs associated 
with law enforcement operations. As the benefits of illegal trade 
accrue to criminals, such trade has been described as the ``theft'' of 
a State's natural wealth or resources and its cultural heritage.
    In the case of illegal trade in ivory and other elephant specimens, 
the CITES monitoring programme ETIS (Elephant Trade Information System) 
collects and analyses global data on seizures and confiscations. The 
most recent information, presented in document SC62 Doc. 46.1,\4\ show 
a worryingly high and increasing trend in illegal trade in ivory from 
Africa to Asia.
    Current levels of poaching of high-profile species such as the 
African elephant and African rhinoceroses can influence the debate on 
the conservation benefits of trade in trophies, and concern over 
illegal trade may prompt some to take more cautious positions on 
sustainable use. The hunting community can assist with efforts to 
address illegal trade--efforts which will ultimately be in their own 
best interests.\5\
    The legal ivory sales conducted under the supervision of CITES in 
2008 generated revenue of USD 15,469,391 which, as stipulated by the 
CITES Conference of the Parties, were used exclusively for elephant 
conservation and community conservation and development programmes 
within or adjacent to elephant range States, as described in document 
SC58 Doc. 36.3.

----------------
End Notes

    \1\ http://www.cites.org/eng/cop/15/doc/E15-45-01.pdf.
    \2\ http://www.cites.org/common/cop/14/inf/E14i-43.pdf.
    \3\ http://www.cites.org/eng/cop/13/doc/E13-19-3.pdf and http://
www.cites.org/eng/cop/13/doc/E13-19-4.pdf.
    \4\ http://www.cites.org/eng/com/SC/62/E62-46-01.pdf.
    \5\ See also the speech of the CITES Secretary-General to the CIC 
at: http://www.cites.org/eng/news/SG/2011/20110512_SG_CIC.php.
                                 ______
                                 

     Prepared Statement of Ginette Hemley, Senior Vice President, 
    Conservation Strategy and Science, World Wildlife Fund and Tom 
              Milliken, Elephant and Rhino Leader, TRAFFIC

    Mr. Chairman, Mr. Ranking Member, and members of the committee, 
thank you for the opportunity to testify on the global implications of 
poaching in Africa. My name is Ginette Hemley, Senior Vice President 
for Conservation Strategy and Science for World Wildlife Fund-US. My 
testimony today is offered on behalf of World Wildlife Fund-US and 
TRAFFIC North America and incorporates significant technical inputs 
from Tom Milliken, Elephant and Rhino lead for TRAFFIC. It is also 
reflects the views of the broader WWF and TRAFFIC networks around the 
globe. WWF is the largest private conservation organization working 
internationally to protect wildlife and wildlife habitats. WWF 
currently sponsors conservation programs in more than 100 countries 
with the support of 1.2 million members in the United States and more 
than 5 million members worldwide. TRAFFIC, a joint program of WWF and 
IUCN--The World Conservation Union, is the world's leading wildlife 
trade monitoring organization. It is a global network, with 25 offices 
around the world, working to ensure that trade in wild plants and 
animals is not a threat to the conservation of nature. Over the past 35 
years, TRAFFIC has gained a reputation as a reliable and impartial 
organization and a leader in the field of conservation as it relates to 
wildlife trade.

                              INTRODUCTION

    Poaching and illegal wildlife trade is one of the greatest current 
threats to many of Africa's most charismatic, valuable and ecologically 
important species. In my testimony, I will focus in particular on a 
couple of species that have seen a dramatic upsurge in poaching in the 
last couple of years: African elephants and rhinos. Products made from 
the parts of elephants and rhinos are in great demand in Asia for 
purported medicinal purposes (e.g., rhino horn) or as a demonstration 
of enhanced wealth and status (e.g., ivory or rhino horn carvings). 
Growing wealth in Asia, particularly in China, has resulted in a steep 
increase in Asian consumers with the means to purchase such products. 
At the same time, the poachers supplying these products have shifted 
from local criminals armed with spears or shotguns to the entrance of a 
new set of highly organized and heavily armed gangs, often including 
militia and military personnel, that violate international borders, 
carry AK-47s and rocket-propelled grenades, and possess strong 
connections to transnational criminal networks. In many parts of Africa 
and Asia, poachers and wildlife traffickers can operate largely with 
impunity due to weak law enforcement, poor capacity, governance 
shortfalls, and a failure of governments to recognize wildlife crime as 
the serious crime that it is.
    The combination of these factors make poaching and illegal wildlife 
trafficking a high profit, low risk endeavor, particularly as growing 
wealth in Asia and a growing demand for luxury wildlife products has 
caused the value of both ivory and rhino horn to soar. Recent years 
have seen a dramatic upsurge of poaching and illegal trade of high-
value wildlife products. Rhino poaching in South Africa has risen from 
approximately 13 in 2007 to 448 in 2011--more than a 3,000 percent 
increase.\1\ Additionally, 2011 saw more large-scale ivory seizures 
than any year since records began over 20 years ago.\2\ Tens of 
thousands of African elephants are killed every year to supply the 
market, with an average of 18 tonnes seized per year over the past 20 
years and annual highs of over 32 tonnes seized. While seizures are 
smaller, rhino horn is worth far more than elephant ivory--rhino horn 
is priced higher than cocaine pound for pound. Illicit traders can make 
more profit from smuggling a kilo of rhino horn than they would make 
from smuggling any illicit drug, and the risks are minimal in 
comparison. It is estimated that 3,000 kg of illicit rhino horn reaches 
Asian markets each year.
---------------------------------------------------------------------------
    \1\ http://wwf.panda.org/?uNewsID=203098.
    \2\ http://www.traffic.org/home/2011/12/29/2011-annus-horribilis-
for-african-elephants-says-traffic.html.
---------------------------------------------------------------------------
    As a result of soaring demand and poor capacity for law 
enforcement, wildlife populations of many key African species 
threatened by poaching and trade are plummeting, and many African 
countries are witnessing the rapid decimation of their wildlife--a 
potentially valuable resource on while to build sustainable growth and 
eventually bring greater stability to conflict-torn and impoverished 
regions of the continent.

                AFRICA'S NEW POACHING CRISIS: ELEPHANTS

    WWF has over 40 years of experience in elephant conservation. 
Through WWF's African Elephant Program, we aim to conserve forest and 
savanna elephant populations through both conservation projects and 
policy development. WWF works with elephant range state governments, 
local people and nongovernmental partners to secure a future for this 
powerful symbol of nature. TRAFFIC tracks illegal trade in elephant 
ivory using records of ivory seizures that have occurred anywhere in 
the world since 1989. The Elephant Trade Information System (ETIS), one 
of the two monitoring systems for elephants under CITES, is managed by 
TRAFFIC and currently comprises over 18,000 elephant product seizure 
records from some 90 countries, the largest such collection of data in 
the world. TRAFFIC will be conducting a comprehensive analysis of these 
data later this year for the 16th meeting of the Conference of the 
Parties to the Convention on International Trade in Endangered Species 
of Wild Fauna and Flora (CITES).
    Elephants are important keystone species, and their future is tied 
to that of much of Africa's rich biodiversity. African elephants help 
to maintain suitable habitats for many other species in savanna and 
forest ecosystems, directly influencing forest composition and density 
and altering the broader landscape. In tropical forests, elephants 
create clearings and gaps in the canopy that encourage tree 
regeneration. In the savannas, they can reduce bush cover to create an 
environment favorable to a mix of browsing and grazing animals. Many 
plant species also have evolved seeds that are dependent on passing 
through an elephant's digestive tract before they can germinate; it is 
calculated that at least a third of tree species in west African 
forests rely on elephants in this way for distribution of their future 
generations.
    African elephants once numbered in the millions across Africa, but 
by the mid-1980s their populations had been devastated by poaching. An 
international ban on the sale of ivory, put in place in 1989, helped to 
slow the rate of decline significantly for the past two decades in many 
parts of Africa. The status of the species now varies greatly across 
the continent. Some populations have remained in danger due to poaching 
for meat and ivory, habitat loss, and conflict with humans. In Central 
Africa, where enforcement capacity is weakest, estimates indicate that 
elephants in the region declined by more than 50 percent in the 12 
years between 1995 and 2007,\3\ primarily due to poaching. This is in 
spite of the global trade ban in ivory trading, in place since 1989. 
Elephants in Central Africa are also heavily impacted by the existence 
of large, unregulated domestic ivory markets, especially those still 
functioning in Kinshasa, Democratic Republic of Congo (DRC) and Luanda, 
Angola. In other parts of Africa, populations have remained stable or 
grown. However, recent trends indicate that whatever gains were made 
over the past 25 years may be in the process of being reversed as a new 
wave of poaching is emerging, which is unprecedented in its intensity 
since the global ivory trade ban went into force and which is 
threatening to wipe out elephants in many of the areas where they still 
remain.
---------------------------------------------------------------------------
    \3\ Decline based on IUCN Elephant Specialist Group African 
Elephant Status Reports from 1995 and 2007 http://www.african-
elephant.org/aed/pdfs/aed1995.pdf#nameddest=cafrovw and http://
www.african-elephant.org/aed/pdfs/aesr2007c.pdf.
---------------------------------------------------------------------------
Escalating Ivory Trade and Large-Scale Ivory Seizures
    Illegal trade in ivory has been steadily increasing since 2004. The 
increases were rather modest initially, but since 2009 the upward 
escalation has surged. Looking at 23 years of data, 3 of the 5 years in 
which the greatest volumes of ivory were seized globally occurred in 
2009, 2010, and 2011. Successive years of high-volume, illegal trade in 
ivory is not a pattern that has been previously observed in the ETIS 
data. This represents a highly worrying development and is jeopardizing 
two decades of conservation gains for the African Elephant, one of 
Africa's iconic flagship species and an animal that the U.S. public 
feels adamant about protecting. Requiring greater finance, levels of 
organization and an ability to corrupt and subvert effective law 
enforcement, large-scale movements of ivory are a clear indication that 
organized criminal syndicates are becoming increasingly more entrenched 
in the illicit trade in ivory between Africa and Asia. ETIS recognizes 
seizure volumes of 800 kg or more as the threshold for defining a 
large-scale ivory seizure. This type of seizure is becoming more 
frequent in the data, with more than half of the large-scale ivory 
seizures that have happened since 2000 occurring in the last 3 years. 
In 2011, there were 14 large-scale ivory seizures, involving an 
estimated 24.3 tonnes of ivory, more than any previous year in the ETIS 
data and reaching a double-digit figure for the first time in over two 
decades. This annual volume equates to ivory being sourced from at 
least 2,500 dead elephants. Virtually all large-scale ivory seizures 
involve container shipping, a factor that imposes considerable 
challenges to resource-poor nations in Africa.
    Large-scale movements of ivory exert tremendous impact upon illegal 
ivory trade trends. Unfortunately, very few large-scale ivory seizures 
actually result in successful investigations, arrests, convictions and 
the imposition of penalties that serve as deterrents. International 
collaboration and information sharing between African and Asian 
countries in the trade chain remains weak, and forensic evidence is 
rarely collected as a matter of routine governmental procedure. 
Finally, the status of such large volumes of ivory in the hands of 
Customs authorities in various countries, which generally do not have 
robust ivory stock management systems, remains a problematic issue and 
leakage back into illegal trade has been documented.


------------------------------------------------------------------------
                                                      Wt. of large-scale
              Year                No. of large-scale    ivory seizures
                                    ivory seizures           (kg)
------------------------------------------------------------------------
2003............................                  3               4,421
2004............................                  2               2,750
2005............................                  2               4,742
2006............................                  6              16,442
2007............................                  2               2,152
2008............................                  0                   0
2009............................                  8              19,303
2010............................                  6               9,797
2011............................                 14              24,300
------------------------------------------------------------------------
 Table 1: Number of large-scale ivory seizures and volume of ivory
  represented in raw ivory equivalent by year, 2003-2011 (ETIS data, 17
  April 2012).


Trade Routes Out of Africa
    In terms of ivory trade flows from Africa to Asia, East African 
Indian Ocean seaports remain the paramount exit point for illegal 
consignments of ivory today, with Kenya and the United Republic of 
Tanzania as the two most prominent countries of export in the trade. 
This development stands in sharp contrast to ivory trade patterns 
previously seen whereby large consignments of ivory were also moving 
out of West and Central Africa seaports. Whether the shift in shipping 
ivory from West and Central African Atlantic Ocean seaports reflects a 
decline in elephant populations in the western part of the Congo Basin 
remains to be determined, but the depletion of local populations is 
steadily being documented throughout this region, according to the 
IUCN's Species Survival Commission's African Elephant Database. Data on 
elephant poaching from the Monitoring Illegal Killing of Elephants 
(MIKE) program, the other site-based monitoring system under CITES, 
also show that illegal elephant killing has consistently been higher in 
Central African than anywhere else on the African Continent. Now, 
however, poaching is seriously affecting all parts of Africa where 
elephants are found.

End-Use Markets in Asia
    In terms of end-use markets, China and Thailand are the two 
paramount destinations for illegal ivory consignments from Africa. 
Whilst repeated seizures of large consignments of ivory have occurred 
in Malaysia, the Philippines and Vietnam since 2009, these countries 
essentially play the role of transit countries to China or Thailand. 
Directing large shipments of ivory to other Asian countries for onward 
shipment is an adaptation by the criminal syndicates to the improved 
surveillance and law enforcement action in China and Thailand where 
targeting of cargo from Africa has increased. Importation into other 
Asian countries allows the shipping documents to be changed, concealing 
the African origin of the containers in question. In the case of 
Vietnam, which shares a long terrestrial border with China, ivory is 
being smuggled overland into China. ETIS data also suggest that 
Cambodia, Laos, and most recently Sri Lanka are now rapidly emerging as 
new trade routes into China and Thailand, reflecting further 
adaptations by the criminal networks behind this trade.
    Thailand has one of the largest unregulated domestic ivory markets 
in the world and consistently fails to meet CITES requirements for 
internal trade in ivory. Recently, interdictions of several large 
shipments of ivory have occurred at Thailand's ports of entry, 
resulting in over 8.3 tonnes of ivory being seized since 2009. This 
development is welcomed, but there is almost no evidence of similar law 
enforcement pressure on the hundreds of retail ivory vendors in the 
country's marketplace which effectively exploit legal loopholes in 
Thailand's legislation to offer tens of thousands of worked ivory 
products to tourists and local buyers. An initial attempt by the Thai 
Government to address these legal deficiencies and provide a basis for 
stricter market regulation has been blocked by industry insiders, and 
the view that remedial measures in Thailand will only result if 
sanctions are imposed under CITES or an application of the Pelly 
amendment is increasingly taking hold as the only hope for breaking the 
current impasse. The ETIS data underscore the global reach of 
Thailand's ivory markets as more than 200 ivory seizure cases have been 
reported by other countries regarding illegal ivory products seized 
from individuals coming from Thailand over the last 3 years.
    Without any doubt, ivory consumption in China is the primary driver 
of illegal trade in ivory today. But, in contrast to Thailand, the 
Chinese Government recognizes ivory trafficking as the country's 
greatest wildlife trade problem and law enforcement officials are 
making almost two ivory seizures every single day, more than any other 
country in the world. Regardless, strict implementation of China's 
domestic ivory trade control system seriously faltered in the wake of 
the CITES-approved one-off ivory sale held in four Southern African 
countries in late 2008. Various observers to China, including TRAFFIC 
monitors, have found government-accredited ivory trading retail outlets 
persistently selling ivory products without the benefit of product 
identification certificates, which previously were an integral 
discriminating feature in the Chinese control system. The ability of 
retail vendors to sell ivory products without product identification 
certificates means that they do not become part of China's database 
system, which is designed to track ivory products at the retail level 
back to the legal stocks of raw ivory at approved manufacturing 
outlets. This circumvention creates the opportunity to substitute 
products from illicit sources of ivory into the legal control system. 
It is expected that China will be reporting on its legal control system 
to the next meeting of the CITES Standing Committee in July 2012, as 
well as a recent law enforcement initiative taken in early May 2012 
that reportedly resulted in 1.3 tonnes of ivory being seized within the 
country.
    China remains the key for stopping the growing poaching crisis 
facing Africa's elephants. Whilst Chinese CITES authorities are engaged 
on ivory trade issues and law enforcement is certainly taking place on 
an unprecedented scale, China's demographics appear to be swamping the 
impact of such actions. Within the country, stricter internal market 
monitoring and regulation are needed, and investigative effort directed 
at fighting the criminal syndicates behind the ivory trade needs to be 
scaled up as a dedicated, ongoing concern. At the same time, Chinese 
nationals based throughout Africa have become the principle middleman 
traders behind the large illegal movements of ivory to Asia. The advent 
of Asian criminal syndicates in Africa's wildlife trade stands as the 
most serious contemporary challenge and China needs to actively 
collaborate with African counterparts to address the growing Chinese 
dimension in Africa's illegal trade in ivory and other wildlife 
products.
    The evidence is steadily mounting that African Elephants are facing 
the most serious crisis since the ivory trade ban under CITES was 
agreed to in 1989. Data from MIKE show an increasing pattern of illegal 
killing of elephants throughout Africa, and the ETIS data demonstrate 
an escalating pattern of illegal trade--one that reached new heights in 
2011. Those working on the ground throughout Africa are seeing an 
alarming rise in the number of elephants being illegally killed, even 
in areas that have been until recently relatively secure and free from 
large-scale poaching, such as southern Tanzania and northern 
Mozambique.\4\ They are also witnessing a disturbing change in the 
methods used by the poachers, who are frequently well armed with 
automatic weapons, professional marksmen and even helicopters. In most 
of the cases, poachers are better equipped than the park supervisors 
and guards. In some instances, they are better equipped even than local 
military forces.
---------------------------------------------------------------------------
    \4\ http://namnewsnetwork.org/v3/read.php?id=180566; http://
www.sanwild.org/NOTICEBOARD/2011a/
Elephant%20poachers%20use%20helicopter%20in%20Mozambique%20National%20Pa
rk.
HTM; http://www.savetheelephants.org/news-reader/items/selous-the-
killing-fields-40tanzania41.
html.
---------------------------------------------------------------------------
        IVORY & SECURITY: THREATS TO STABILITY & ECONOMY GROWTH

    Poaching, by definition, entails armed individuals, often gangs, 
operating illegally in wildlife habitats which, in many cases, are 
protected areas that attract tourists and contribute to the economic 
development of many African countries. Where poaching is particularly 
entrenched and pernicious, armed militias from one country temporarily 
occupy territory in another country, destroying its wildlife assets and 
posing serious national security threats on many levels. Every year, 
throughout Africa, dozens of game scouts are killed by poachers while 
protecting wildlife.
    The increase of large scale (>800kg) ivory seizures is evidence of 
the growing involvement of organized crime in the illicit trade in 
wildlife. Illegal wildlife trade is often conducted by well-organized 
criminal networks that are undermining efforts to strengthen the rule 
of law and governance in many countries. Illegal wildlife trade in the 
21st century has an estimated value of $7.8-$10 billion per year, a 
figure which, if correct, would make it the fifth-largest illicit 
transnational activity worldwide, after counterfeiting and the illegal 
trades in drugs, people, and oil.\5\ Illegal trades in timber and fish 
commodities rank sixth and seventh respectively. In terms of its size, 
wildlife trade outranks the small arms trade. It also has connections 
to these other illegal activities--guns, drugs and ivory may be 
smuggled by the same criminal networks and using the same techniques 
and smuggling routes. The White House recognized the importance of 
addressing the issue in the President's National Strategy to Combat 
Transnational Organized Crime and Converging Threats to National 
Security, released in July 2011, which highlighted environmental crimes 
as being among the top five most lucrative criminal activities.
---------------------------------------------------------------------------
    \5\ http://transcrime.gfintegrity.org/.
---------------------------------------------------------------------------
    Middleman ivory traders often direct poaching activity and engage 
in targeted efforts to corrupt law enforcement and wildlife protection 
efforts. In some cases, organized Asian criminal syndicates, which are 
now increasingly active in Africa, work with local economic and 
political elites to subvert control systems and operate with relative 
impunity. The trends in both the MIKE and ETIS data sets are highly 
correlated with governance shortfalls and corruption. In other words, 
where poaching of elephants and illegal trade in ivory is most acute, 
poor governance is likely to be a serious operating factor. A related 
issue is the theft of government ivory stocks, a persistent problem in 
many African countries. Just last month (April 2012) in Mozambique, 266 
pieces of elephant ivory, representing over one tonne of ivory, were 
stolen from the government ivory store in the Ministry of Agriculture 
building in Maputo. Overall, illegal trade in ivory produces a broad 
corrupting influence on governments.
    Poachers who profit from killing elephants and harvesting illegal 
ivory may also have ties to criminal gangs and militias based in 
countries such as Sudan (in the case of Central Africa) and Somalia (in 
the case of East Africa). Longstanding historical ties between slave 
trading, elephant poaching and the tribes that now form Sudan's 
Janjaweed militia (which has been responsible for many of the worst 
atrocities in Darfur), mean that illegal ivory may well be being used 
as powerful currency to fund some of the most destabilizing forces in 
Central Africa. It is in parts of West and Central Africa where the 
situation is most dire and severe poaching is already resulting in the 
local extinction of elephant populations. This fact--and the connection 
between wildlife crime and regional security--has been dramatically 
driven home in recent months due to several high-profile poaching 
incidents involving large-scale massacres of elephants, violations of 
international sovereignty and the need for military engagement, both by 
Central African governments and the U.S. military.

Democratic Republic of Congo: Garamba National Park
    Garamba National Park is located in northeastern DRC, on the border 
with South Sudan. For many years this park was supported by WWF to 
protect the last remaining population of northern white rhino, as well 
as the park's elephants. The park was invaded many times by both sides 
during the long civil war in Sudan, and poaching by well-armed militias 
was common. The result was a steady decline in rhino populations from 
at least 500 in the 1970s to the last observation in the wild several 
years ago. As a result of the ongoing poaching, Northern White Rhino 
are now considered extinct in the wild. Garamba NP is still home to one 
of the few remaining elephant populations in DRC. An analysis of 
elephant trends in DRC shows that there are probably only a handful of 
remnant populations of elephants in that country numbering more than 
500 individuals and that the country's total elephant population is 
less than 20,000 and declining rapidly--down from an estimated 100,000 
as recently as 50 years ago.\6\ Garamba NP is now comanaged by DRC's 
national park agency and Africa Parks Network, a Dutch NGO. Due to 
their efforts and the improved security following the tentative peace 
in Southern Sudan, the situation in the Park has seen a steady 
improvement in recent years and a reduction in poaching. This was true 
up until March 15 of this year. On that day, a foreign helicopter 
entered DRC airspace and 22 elephants were killed by a marksman, firing 
from the helicopter and killing the elephants with a single shot to the 
top of the head. While the actual slaughter was not witnessed, a 
Russian manufactured Mi-17 troop-carrying helicopter was photographed 
in the vicinity at the same time. The helicopter was illegal and of 
unknown origin.
---------------------------------------------------------------------------
    \6\ http://www.bonoboincongo.com/2009/02/01/how-many-elephants-are-
left-in-dr-congo/.
---------------------------------------------------------------------------
Cameroon: Bouba N'Djida National Park
    The most notorious and well-reported incident this past winter was 
the killing of at least 200 and perhaps upward of 400 elephants in 
northern Cameroon this past winter.\7\ In early February 2012, bands of 
heavily armed poachers illegally crossed from Chad into northern 
Cameroon's Bouba N'Djida National Park and, over the course of 2 
months, massacred hundreds of the park's elephants for their tusks. The 
poachers, believed to have come from Sudan and perhaps Chad with ties 
to the Janjaweed, traveled over 1,000 miles on horseback and 
disregarding international borders to systematically target the 
elephants of Bouba N'Djida NP. The park guards were ill-equipped, 
unarmed and few in number, and the Sudanese militants were able to 
operate with impunity for weeks. The Cameroonian Government was slow to 
react and recognize the severity of the problem, and repelling the 
invaders eventually required the involvement of the Cameroonian 
military, resulting in casualties on both sides and the seizure of both 
ivory and weapons. The crisis provoked the engagement of the U.S. 
military, including an in-person meeting between the President of 
Cameroon and the U.S. General Carter F. Ham, Commander of U.S. AFRICOM.
---------------------------------------------------------------------------
    \7\ http://www.usatoday.com/news/world/environment/story/2012-03-
16/cameroon-elephants-poaching/53564500/1.
---------------------------------------------------------------------------
Central African Republic: Dzanga-Sangha Reserve
    Over the past year, similar poaching attempts have been made by 
Sudanese militants targeting elephants in Central African Republic's 
Dzanga-Sangha Reserve. Gangs of armed horsemen have also attempted on 
at least two occasions to enter the Dzanga-Sangha protected area 
complex, home to the majority of the remaining elephants in Central 
African Republic (CAR). The first attempt in the fall of 2011 was 
successfully repelled by the CAR army (not without casualties) after 
WWF and other partners on the ground alerted the government to the 
imminent threat. The most recent attempt by the poachers is ongoing at 
the time of this testimony. In early May 2012, WWF became aware of the 
presence of about three dozen Sudanese raiders in CAR and determined 
that they were moving toward the Dzanga-Sangha Reserve. At least 8-10 
elephants have been killed outside of the park, and operations to 
capture and repel the invaders by the CAR military are currently 
underway. Both Cameroon and the Republic of Congo are coordinating in 
the effort and have stationed troops along their borders with CAR to 
prevent the poachers from moving into their territory.
    Despite the repeated threats, not a single elephant was poached in 
Dzanga-Sangha in 2011, the first such achievement in many years, due in 
large part to strong protection efforts that have been developed over 
several years by WWF and its governmental and nongovernmental partners, 
including the support of the U.S. Agency for International Development 
(USAID), through its Central African Regional Program for the 
Environment (CARPE). Another major factor helping to secure the park 
has been the cross-border cooperation that has been developed between 
park guards of the three bordering countries--CAR, Cameroon and 
Republic of Congo--each of which contain a portion of the Sangha River 
Tri-national landscape (of which Dzanga-Sangha is the CAR portion). 
Park guards engage in regular communication, joint patrols and joint 
law enforcement, so that information is rapidly shared and potential 
poachers can be pursued across border.

Success Stories
    The success in Dzanga-Sangha demonstrates that Central African 
countries can combat these environmental and security threats posed by 
transnational wildlife crime when governments engage and prioritize the 
issue, when enough capacity is in place to respond effectively, and 
when countries cooperate on a regional and transboundary basis. Such 
regional cooperation can also help to foment stronger regional ties on 
other issues and reduce regional tensions, as evidenced by the fact 
that countries that were in conflict with each other not long ago are 
now engaged in joint security missions to protect their shared wildlife 
resources. These wildlife resources, if properly protected, can form 
the basis for future economic growth in these impoverished, rural 
regions of the continent. In several African countries, this is already 
happening.
    In Namibia, community-run ``conservancies'' in which local 
communities own and manage their own wildlife resources and derive 
profits from ecotourism opportunities and sustainable use of wildlife 
have contributed to new attitudes toward wildlife, rebounding 
populations of such charismatic species as rhinos and tigers, and--just 
as importantly--an exponential increase in the economic benefits that 
communities receive from their wildlife, including income and 
employment. Due to joint-venture lodges and related eco-tourism 
opportunities, community conservancies now generate upward of US$6 
million annually for rural Namibians--up from an insignificant amount 
in the mid-1990s. These successful programs receive critical support 
from USAID and, more recently, the Millennium Challenge Corporation, as 
well as WWF and others. In Central Africa, a similar story can be told 
about Rwanda's Virunga National Park--Africa's oldest national park and 
one of its most important in terms of biodiversity. It is also the 
continent's best known park, because it is home to the last remaining 
mountain gorillas. Gorilla-based tourism is a huge economic engine: the 
annual revenue earned directly from gorilla tourism in the Virungas is 
now estimated at US$3 million. When combined with the additional income 
received by, for example hotels and restaurants, the total figure may 
exceed US$20 million shared between Rwanda, Uganda, and the Democratic 
Republic of Congo (DRC). In Rwanda alone, the number of tourists 
visiting the country from 2010 to 2011 increased 32 percent and tourism 
revenues rose an amazing 12.6 percent, from $200 million to $252 
million in 2011--much of it due to mountain gorillas and other eco-
tourism opportunities.
    Wildlife-based tourism in Central Africa is still in the early 
stages compared to the Virungas. Nevertheless, in the Dzanga-Sangha 
Reserve of CAR, WWF is already making significant progress to secure 
gorilla-based tourism as a long-term conservation tool and revenue 
generator for local communities. The program is seeing remarkable 
successes: compared to 2010, 2011 saw 14 percent more tourists visiting 
the park, and tourism revenue increased a full 44 percent, enough to 
pay park salaries. Tourism has been growing in Cameroon, with a 
government target to increase the number of foreign visitors to 500,000 
in 2012, up from the 350,000 who visited in 2006. According to 
government figures, the sector currently contributes more than 4 
percent of Cameroon's GDP and provides over 14,000 jobs. The current 
poaching crisis threatens to destabilize this economic engine by 
fomenting instability and driving away tourist dollars. More gravely, 
the crisis threatens to permanently rob many of these countries of a 
good portion of their future economic potential by rapidly eradicating 
their wildlife populations.

Role of the U.S. Government
    U.S. Government support is playing a critical role in helping to 
keep the poaching crisis at bay and build on successes, such as those 
in Dzanga-Sangha. Through the CARPE program, USAID is supporting 
biodiversity conservation and sustainable development efforts in 12 
large landscapes throughout Central Africa, including the Sangha River 
Tri-national. USAID receives important support in those efforts from 
the U.S. agencies, such as the Fish and Wildlife Service, the Forest 
Service and NASA, as well as over 50 governmental, nongovernmental and 
local partners, including WWF.
    Through the Department of State, the U.S. Government has also been 
at the forefront of international efforts to dismantle and bring a halt 
to the illegal wildlife trade. In 2005, the Department of State 
launched the Coalition Against Wildlife Trafficking (CAWT). The 
Department of State has also helped to form regional wildlife 
enforcement networks in Southeast Asia, South Asia, and Central 
America. In April 2012, the U.S. Embassies in Gabon and the Central 
African Republic--in partnership with the Government of Gabon--brought 
together law enforcement, government officials, and conservationists to 
share best practices to curb illicit wildlife trafficking in Central 
Africa. The Central African Sub-Regional Workshop on Wildlife 
Trafficking and Dismantling Transnational Illicit Networks was held 
April 3-5, 2012, in Libreville, Gabon and cochaired by the Governments 
of Gabon and the United States, which issued the following joint 
statement: ``Heavily-armed poachers operating in Central Africa--who 
have attacked law enforcement and military personnel--have become a 
threat to the national security of Central African countries. 
Furthermore, poaching and wildlife trafficking are largely intertwined 
with other criminal activities of transnational illicit networks that 
contribute to the insecurity and instability of economies globally and 
hinder sustainable development strategies, including efforts to 
preserve national resources and the promotion of eco-tourism as a 
source of revenue for governments and local communities.''
    The cochairs also recommended the creation of a regional wildlife 
enforcement network to combat wildlife trafficking and dismantle cross-
border illicit networks. WWF believes that an agreement to create such 
a regional network, signed by Central African heads of state and 
actively supported by key partners, including the United States, will 
help to elevate wildlife crime as an important issue, increase the 
seriousness with which it is treated in the region, enhance the 
collaboration between Central African governments on park protection 
and law enforcement, and promote much needed capacity-building, 
including the training and recruitment of more and better ``eco-
guards'' throughout the region.
    In addition to this existing involvement by the U.S. Government, we 
see the recent engagement by AFRICOM and the U.S. military around 
threats to regional security in Central Africa from transnational 
organized wildlife crime as a very welcome development. More can be 
done in terms of training and intelligence sharing to build the 
capacity of eco-guards and law enforcement and to improve the ability 
of African governments to prevent, prepare for and respond to the 
ongoing threats to their wildlife resources and their territorial 
integrity. In DRC, where much of the poaching of elephants and other 
wildlife is done by DRC nationals belonging to militias or army units, 
helping to increase awareness of the costs and penalties surrounding 
wildlife crime and to better manage and inventory ammunition and weapon 
stockpiles are potential remedies. The proliferation of arms is a major 
contributing factor to the mounting losses of elephants and other 
species, and steps to curtail their spread will help stem some of the 
tide. Legal systems in several countries also need to be strengthened 
and made to work so that wildlife crime is prosecuted fully and 
effectively alongside other serious crimes and no longer warrants 
merely a ``slap on the wrist.''

                 AFRICA'S OTHER POACHING CRISIS: RHINOS

    In addition to the poaching crisis affecting elephants in West, 
Central and Eastern Africa, a concurrent and related crisis is 
affecting rhinos in Southern Africa and threatens to spread to the rest 
of the continent. South Africa is experiencing an unprecedented surge 
in rhino poaching, up from 15 rhinos poached per year in the early 
2000s to 448 rhinos poached in 2011. The trend has continued in 2012, 
with eight rhinos poached on a single day in January, the highest one-
day death toll recorded. The situation is all the more shocking because 
South Africa is recognized to have the most well developed park system 
in Africa, with the highest capacity and best enforcement. The country 
is home to roughly 80 percent of the world's remaining rhinos, making 
it the main target for poachers.
    The reason for the spike in rhino poaching is surging demand for 
rhino horn in Vietnam, where many believe that the horn has medicinal 
properties and a recent rumor that ingesting it can cure cancer. Due to 
rising prosperity in Vietnam, wealthy buyers have driven up prices and 
demand for rhino horn to a level where it is now being sourced not just 
from live rhinos in South Africa, but also from trophies, antiques, and 
museum specimens in the United States and Europe. Rhino horn is now 
worth more than its weight in gold or heroin. While trade in rhino horn 
is illegal in Vietnam, possession is not. Rhino horns are officially 
permitted in Vietnam only as personal effects, not for commercial 
purposes (under CITES rules) and not to be traded or used post-import. 
Under the terms of the export permit from South Africa, horns are not 
to be used for commercial purposes. However, there does not appear to 
be any effort in Vietnam to clamp down on illegal trade in rhino horn. 
In fact, for any Vietnamese person legally importing a rhino horn 
trophy that was legally hunted in South Africa, the Vietnamese 
Government will actually levy a 3 percent tax on the value of the 
imported horn based on its street price as ground up medicine. 
Vietnamese are not known for trophy hunting, and it is illegal for any 
private individual to own a gun in the country, suggesting that the 
large majority of legally imported horns are actually intended for 
illegal purposes.
    Much like ivory poaching, rhino horn poaching and trading 
operations are associated with organized and well-armed criminal 
networks, some with access to high-powered weapons, helicopters, and 
night vision goggles. These paramilitary type operations can easily 
outgun wildlife rangers, and profits are now so high that even those 
charged with protecting rhinos are becoming corrupted and facilitating 
the poaching. There is no sign of abatement in poaching rates, in spite 
of military support and intervention in Kruger National Park, the 
primary site of the poaching surge. Many African nations fear their 
rhinos will be targeted next, particularly if South Africa manages to 
prevent further slaughter and the poachers seek out easier targets. 
Kenyan officials are particularly concerned that Kenya's rhinos will be 
targeted. In fact, Kenya is already seeing an increase in poaching 
losses and their losses as a percentage of their total rhino population 
are far worse than those in South Africa.
    In October 2010, the U.S. Department of State and WWF funded 
TRAFFIC to facilitate an international exchange mission on rhino horn 
trade between the South African and Vietnamese Governments, during 
which five South African officials visited Vietnam. In September 2011, 
five Vietnamese officials completed the exchange by visiting South 
Africa. The exchange revealed a good deal of mutual understanding. The 
two governments have drafted but have yet to sign a MOU on joint 
efforts to combat rhino horn trafficking. In September 2011, TRAFFIC 
facilitated an international workshop on rhino horn trafficking in 
Johannesburg, South Africa, under CAWT with funding from the U.S. State 
Department and the U.K. Department for Environment, Food and Rural 
Affairs (DEFRA). The Vietnamese Government participated along with 
other Asian and African nations and experts and recognized the 
challenges and concerns of African countries. The action plan produced 
from the workshop has been distributed to the participating 
governments. The South African Government is working with their African 
Government counterparts to share best practices, particularly in Kenya, 
and implement the plan of action created.
    In spite of these constructive steps, the situation on the ground 
has not improved: the price of black market rhino horn continues to 
skyrocket and rhinos continue to be killed at record rates in Southern 
Africa. Vietnam is coming under increasing criticism through CITES 
processes and in the international conservation community because of 
the perception that it is driving the slaughter of rhinos in South 
Africa and that the government is not taking the situation seriously. 
If the situation continues to escalate and strong actions are not taken 
by Vietnam to reduce demand and prevent the trade, pressure will build 
for measures to be taken against the country through CITES mechanisms, 
and the Vietnamese will come under harsh criticism at the Sixteenth 
Meeting of the Conference of the Parties (COP) to CITES in March 2013.

                            RECOMMENDATIONS

    Large-scale poaching and the illegal trade in ivory, rhino horn, 
and other wildlife products must no longer be seen as niche issues of 
concern only to environmentalists. Wildlife crime needs to be treated 
with the same seriousness and level of attention that we give to other 
transnational organized crime, such as drugs, weapons, and human 
trafficking, given the critical links to security and governance issues 
in many countries, particularly in Africa.
    What is needed now is a concerted effort to greatly raise the 
profile of the illegal wildlife trade and to take this high profit/low 
risk crime and turn it on its head, so that it becomes a crime of high 
risk and low profit. This requires enhanced enforcement, more 
prosecutions, stiffer penalties and public commitments by those with 
power and influence to ensure wildlife crime is treated as a serious 
offense on par with other transnational crimes, such as drug 
trafficking. It also requires concerted efforts to reduce the demand, 
particularly in those countries that are currently the largest 
consumers of illegal wildlife products--primarily China, Thailand, and 
Vietnam.
    As one of the world's foremost leaders in wildlife conservation and 
CITES, the United States Government should use its considerable 
diplomatic influence and technical capacity to work with the primary 
consumer countries mentioned above to shut down the illegal trade. The 
current levels of illegal trade in ivory and rhino horn not only pose 
the greatest threat to the species in more than two decades, it 
completely undermines 20 years of work and investment by CITES and its 
member nations. Recent wide-scale enforcement efforts by China are 
encouraging and must not be one-off activities--they must be 
institutionalized and sustained. Thailand must commit to and enact 
major legislative and enforcement reforms to control its internal ivory 
market. And Vietnam must take action at all levels to enforce the CITES 
rhino trade restrictions and launch public initiatives to reduce 
demand. These countries must be held to accountable to CITES and the 
global community.
    To drive needed action, the United States should consider 
application of the Pelly amendment and the sanctions process that law 
offers in cases where CITES continues to be seriously undermined. The 
Pelly amendment has been used sparingly but successfully in the past to 
achieve swift reforms in countries where endangered species trafficking 
was completely out of control, specifically for the illegal trade in 
tiger and rhino parts in Taiwan, China, South Korea, and Yemen. Each of 
those countries made major positive wildlife trade control improvements 
as a result of action under the Pelly amendment and parallel action 
through CITES. The ivory and rhino trade today is as serious as any 
wildlife trade issue in the past and warrants equally serious measures.
    Because the illegal wildlife trade overlaps with and potentially 
undermines a number of U.S. development goals in Africa and Asia, the 
U.S. Government should elevate it as a priority on related agendas. The 
administration should explicitly include international wildlife crime 
in its transnational organized crime strategy, released in July 2011. 
The State Department has already issued strong statements making these 
connections--more and higher-level statements elevating the seriousness 
of wildlife trafficking would be extremely helpful. One existing 
mechanism to help address the issue is CAWT, a U.S State Department-
created initiative that aims to highlight and coordinate wildlife trade 
at the highest levels internationally. This good initiative should be 
continued and reenergized.
    The U.S. Government should also work to improve intelligence 
sharing and cooperation in evidence-gathering between nontraditional 
partners such as Department of Defense, National Security Agency and 
CIA with environmental enforcement bodies such as USFWS, the State 
Department's International Narcotics and Law Enforcement (INL) office, 
Interpol's Environmental Crime Division, CITES, and Wildlife 
Enforcement Networks (WEN), such as ASEAN WEN, that are supported by 
the State Department. Better sharing of intelligence leads to more 
effective law enforcement.
    It is also important for the U.S. Government, particularly through 
the U.S. Fish and Wildlife Service and USAID, to maintain and (where 
possible) enhance its support for urgently needed park and wildlife 
protection efforts in Central Africa and other areas, through support 
for park rangers and park guards and law enforcement training programs. 
As outlined above, these vital front-line protection efforts have made 
a huge difference in some areas, and support should be expanded to 
other areas now at risk. Where suitable, collaborations with DOD/
AFRICOM should be explored, whether through training opportunities or 
logistical support.
    On specific initiative that the United States should continue to 
help advance, following on the successful workshop cochaired by the 
governments of the United States and Gabon in February 2012, is the 
creation of a regional wildlife enforcement network in Central Africa 
to combat wildlife trafficking and dismantle cross-border illicit 
networks. Such an agreement, signed by Central African heads of state 
and actively supported by key partners like the United States, will 
help to elevate wildlife crime as an important issue, increase the 
seriousness with which it is treated in the region, enhance the 
collaboration between Central African governments on park protection 
and law enforcement, and promote much-needed capacity-building, 
including the training and recruitment of more and better ``eco-
guards'' throughout the region.
    In general, WWF and TRAFFIC agree with the conclusions of the 
Congressional Research Report issued in February 2009 entitled 
``International Illegal Trade in Wildlife: Threats and U.S. Policy,'' 
\8\ which identified key issues the U.S. Congress should consider to 
strengthen the ability to combat illegal trade in wildlife parts and 
products including:
---------------------------------------------------------------------------
    \8\ Wyler, Liana Sun and Pervaze A. Sheikh. 2009. ``International 
Illegal Trade in Wildlife: Threats and U.S. Policy,'' Congressional 
Research Service, February 2 2009, p. 12.
---------------------------------------------------------------------------
          (1) Funding levels for U.S. wildlife trade inspection and 
        investigation capacity;
          (2) Assessing the role of U.S. foreign aid to combat wildlife 
        trafficking;
          (3) Supplementing legislative provisions to encourage 
        private-sector involvement in controlling wildlife trade;
          (4) Evaluating trade sanction laws relative to foreign 
        countries with weak enforcement of wildlife laws;
          (5) Incorporating wildlife trade provisions into free trade 
        agreements (FTAs); and
          (6) Addressing the domestic and international demand for 
        illegal wildlife through public awareness campaigns and 
        nongovernmental organization partnerships.
    We are once more at a crisis moment for Africa's elephants and 
rhinos. Addressing it will require outspoken, high-level leadership and 
concerted efforts on the ground, through diplomatic channels, and 
through all the available channels of law enforcement. As the 
established global leader on the conservation of these charismatic at-
risk species, the United States Government has a central and pivotal 
role to play in this endeavor.
    Mr. Chairman, on behalf of WWF and TRAFFIC, I thank you for the 
opportunity to provide testimony to the committee. Our organizations 
and their international networks are engaged on these issues on a daily 
basis, and we look forward to working with both Congress and the 
administration to address this crisis.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Three Additional Items of Testimony from Dr. Iain Douglas-Hamilton

             ITEM 1: THE AFRICAN ELEPHANT SPECIALIST GROUP

    One of the best sources of information on the status of African 
elephant populations is the African Elephant Specialist Group (AfESG) 
of the International Union of the Conservation of Nature (IUCN).
    The AfESG is part of the IUCN's Species Survival Commission (SSC). 
The SSC is a volunteer network of scientists, comprised of over 100 
different taxonomic and thematic specialist groups. The SSC network of 
experts provides the sound science upon which governments and 
nongovernmental organisations can base their conservation policies.
    The AfESG is one of the most active of the IUCN/SSC Specialist 
Groups (see attached Terms of Reference). It provides professional, 
independent advice to conservation agencies, governments, 
nongovernmental organisations and other relevant parties inside and 
outside Africa on matters associated with the conservation and 
management of the African elephant.

          AFRICAN ELEPHANT SPECIALIST GROUP TERMS OF REFERENCE

Mission
    To promote the long-term conservation of Africa's elephants 
throughout their range.
Objectives
    1 . To compile and synthesise information on the conservation and 
status of the African elephant across its range.
    2. To provide and improve technical information and advice on the 
conservation of Africa's elephants to the following:
          (a) Range State government agencies;
          (b) Nongovernmental organisations, including both 
        international and African-based organisations;
          (c) Intergovernmental organisations;
          (d) Nonrange state governments.
    Special effort will be made to target outputs in a manner that 
meets the needs of the above.
    3. To promote and catalyse conservation activities on behalf of 
Africa's elephants to be carried out by the above.
    4. To build capacity through the exchange of ideas, information and 
technical expertise among the members of the group.
Activities
    1. To review the status of elephant populations in Africa.
    2. To maintain, update, and improve the African Elephant Database 
and, ideally, to publish a report every 3 years.
    3. To undertake analyses of relevant data to assess conservation 
priorities.
    4. To provide technical information to assessments of the impact of 
human activities (including legal and illegal off-take, changing land 
use patterns, and changes in relevant national and international 
policies and legislation) on Africa's elephants.
    5. To contribute technical information to evaluations of the 
effectiveness of different management actions.
    6. To advise governments on options for conservation action through 
interactions on both national and regional bases.
    7. To improve technical support for the development, promotion, and 
implementation of conservation strategies.
    8. To facilitate coordination and cooperation in conservation-
related research on Africa's elephants to ensure that lessons learned 
can be disseminated and applied as widely as possible.
    9. To produce a peer-reviewed journal, Pachyderm, publishing 
articles on elephants and rhinoceroses.
    10. If funding allows, to hold a meeting of members every 2 years 
to facilitate information exchange and collaboration between members.
    11. To form task forces, as required, to examine technical issues 
in detail.
    12. In order to serve the public demand for information on Africa's 
elephants, to liaise with the IUCN/SSC to ensure that the information 
on the Specialist Group Web site is accurate.
    13. To liaise as closely as possible with the IUCN/SSC Asian 
Elephant Specialist Group.

ITEM 2: PREPARED STATEMENT OF DR. HOLLY DUBLIN, CHAIR, IUCN/SSC AFRICAN 
 ELEPHANT SPECIALIST GROUP TO THE FOURTH AFRICAN ELEPHANT RANGE STATE 
  MEETING CONDUCTED UNDER THE AUSPICES OF THE CITES MIKE PROGRAMME IN 
             AFRICA AT UNEP-GIGIRI, KENYA, 26-27 APRIL 2012

    I am very sorry not to be able to attend this week's important 
meeting, the first gathering of African elephant range States that I 
have missed in over 25 years. I always enjoy meeting up with old and 
new colleagues, and regret that unavoidable commitments have meant I 
cannot join you this week.
    I regret this all the more so as this is such an important time to 
gather and discuss the current situation for Africa's elephants. A 
worrying dynamic is emerging and many policy processes are underway.
    I want to draw particular attention to the joint report to the 
CITES Standing Committee from the IUCN Specialist Groups, CITES, 
TRAFFIC and UNEP-WCMC, which was just discussed. This represents the 
second such report we have compiled, and emphasizes even further the 
importance of considering together the available data all along the 
ivory supply chain. The on-going increase in illegal killing appears to 
be at its highest level since 2006, according to the latest MIKE 
analysis. Equally, the increasing frequency of large-scale seizures of 
illegal ivory is of great concern. These worrying changes are also 
reflected in the information we are collecting through the members and 
networks of the African Elephant Specialist Group. But worrying, too, 
is the apparent reticence of our Members and networks to share the 
specifics of this information more freely with the Authorities in 
countries where poaching appears to be serious and on the rise and I am 
concerned about the factors that may be driving this apparent fear of 
retaliation or persecution.
    It is important that we take time to consider the long-term future, 
in particular the increasing scale of demand, which may well outstrip 
the supply of ivory available through either legal or illegal channels 
in the future. With that in mind, I would encourage the Members of IUCN 
present to consider cosponsoring a Motion to the 5th World Conservation 
Congress in September this year. Once adopted, such a Resolution could 
unite IUCN Members, Commission Members, the Secretariat and IUCN's 
partners in the effort to develop a common, high-level strategy aimed 
at reducing demand and enhancing protection of elephant populations. 
This Resolution would need to go beyond the African Elephant Action 
Plan and draw attention to the current trends and the need for actions 
from all players--not just leaving the burden for the African Elephant 
Range States to try and resolve alone--a challenge which currently 
seems beyond our grasp.
    The context is complex and still reflects divergent views and 
different interests. But if everyone were to have their way--having 
sustainable elephant populations in Africa will require a shared vision 
and a highly strategic and collaborative investment of time and 
resources. Without this we will all lose what we cherish the most--our 
goose that lays the golden eggs--the icons of Africa--our elephants.
    As you now move into the next session on this topic, I would urge 
you to seriously consider the fact that virtually everything that has 
been tried to date is not working. We can no longer rely on our 
traditional ways of trying to gain control of this situation. 
Circumstances have changed and the dynamic is a new one, requiring 
innovation and new approaches. Our approaches of almost 40 years ago 
can no longer stand up to the challenge.
    You must come together and work to find fair, honest, positive and 
creative solutions that everyone can get behind. IUCN and the African 
Elephant Specialist Group stand by--ready to help, as always. Going 
forward we, as IUCN, can probably best do this if we are directed by a 
strongly worded Resolution--A CALL TO ACTION--directed to IUCN and the 
entire international community at the World Conservation Congress in 
September this year.
    I very much look forward to hearing about the progress on some of 
the most pressing issues you will address during the course of this 
meeting.
    Thank you and good luck with the work before you.
                                 ______
                                 
ITEM 3: A MOTION, COSPONSORED BY THE U.S. DEPARTMENT OF STATE, WITH THE 
TITLE ``CONSERVATION OF AFRICAN ELEPHANTS'' SUBMITTED FOR CONSIDERATION 
 TO THE IUCN WORLD CONSERVATION CONGRESS AT ITS FIFTH SESSION IN JEJU, 
                      KOREA, 6-15 SEPTEMBER 2012.

Sponsor

 Federal Ministry for the Environment, Nature Conservation and Nuclear 
Safety, Germany, IUCN Membership Number St--59.

CoSponsors

 Department for Environment, Food and Rural Affairs, United Kingdom, 
IUCN Membership Number St--290
  <bullet> Nature Kenya, IUCN Membership Number NGO--24695
  <bullet> Zoologische Gesellschaft Frankfurt von 1858--Hilfe fur die 
        bedrohte Tierwelt--IUCN Membership Number NGO--69.
  <bullet> Namibia Nature Foundation, IUCN Membership Number NGO--1080
  <bullet> Wildlife Conservation Society, IUCN Membership Number NGO--
        195
  <bullet> Deutscher Naturschutzring, IUCN Membership Number NGO--65
  <bullet> Department of State, United States, IUCN Membership Number 
        St--1042
                   conservation of african elephants
    ACKNOWLEDGING that the African elephant is a keystone species, 
providing a charismatic focal point for conservation action in Africa;
    APPRECIATING that conservation efforts have resulted in population 
increases in some range States over the last two decades, while 
populations have decreased in other range States;
    RECOGNISING that African elephants can provide significant benefits 
to national economies, as well as to local communities;
    NOTING that the measures taken by the Convention of International 
Trade in Endangered Species of Wild Fauna and Flora (CITES) to bring 
the illegal trade in elephant products under control still require 
significant commitments from elephant range States, transit countries, 
and from all ivory consuming States;
    ACKNOWLEDGING that the African elephant range States adopted the 
African Elephant Action Plan that address actions to be taken to 
effectively conserve and manage elephants across their range in Africa;
    APPRECIATING the establishment of the African Elephant Fund to 
support the implementation of the African Elephant Action Plan; and the 
contributions made by donors;
    RECOGNISING the serious and increasing levels of threat currently 
facing elephants, including illegal international and domestic trade in 
ivory, human elephant conflict, habitat loss and fragmentation, illegal 
killing for ivory and meat, lack of institutional and enforcement 
capacity and local overabundance;
    CONCERNED that poaching pressure is now increasing across all 
subregions in Africa, as shown by the 2011 analysis of data from the 
MIKE (Monitoring of Illegal Killing of Elephants) programme and that 
large scale poaching by organized criminals transnationally is rising 
steadily and is having serious impact on elephant populations;
    CONCERNED that illegal ivory trade is increasing, in particular, 
large-scale shipments of illegal ivory, as shown by the 2011 analysis 
of data from the Elephant Trade Information System (ETIS);
    APPRECIATING the awareness-raising activities on the illegal ivory 
trade undertaken by range States, consuming countries, international 
organizations, partnerships, and NGOs;
    CONCERNED that current levels of poaching may not be sustainable 
and could result in unacceptable losses of biodiversity, leading to 
elephant population declines and corresponding declines in economic 
opportunities for range States to benefit from their heritage;
    CONCERNED that the loss of elephants from ecosystems has a negative 
impact on many other species;
    RECOGNISING IUCN's role over many years in providing sound 
technical and scientific analyses as well as convening and supporting 
policy processes to facilitate dialogue on African elephant 
conservation;

    The World Conservation Congress at its fifth session in Jeju, 
Korea, 6-15 September 2012:
    1. Calls on all African elephant range States to prioritize the 
protection and conservation of elephant populations and to ensure that 
appropriate incentives for conservation, adequate legislation, and 
deterrent penalties are in place and implemented to achieve this goal; 
and calls on African elephant range States to ensure that local 
communities reap benefits as well as bearing the costs of living with 
elephants;
    2. Calls on all ivory consuming States to ensure that adequate 
policy, legislation, law enforcement and deterrent penalties are in 
place and implemented to control domestic ivory markets;
    3. Requests the Director General and the Species Survival 
Commission's African Elephant Specialist Group (AfESG) to work with the 
Secretariats of CITES and CMS, Interpol, UNODC, the World Bank, Lusaka 
Agreement Task Force (LATF), Association of Southeast Nations Wildlife 
Enforcement Network (ASEAN-WEN), International Consortium on Combating 
Wildlife Crime (ICCWC), FAO, UNDP and UNEP to convene a high-level 
meeting as soon as possible, and well in advance of the 16th Meeting of 
the Conference of the Parties (COP) to CITES, with the aim of 
recommending urgent measures needed by African elephant range States 
and consumer States to address the concerns relating to the 
conservation of the African elephant, and to carry these 
recommendations forward to range States and consumer States, and to the 
16th COP to CITES;
    4. Further requests TRAFFIC and the AfESG to work with the CITES 
Secretariat and the African Elephant Fund Steering Committee to present 
to the high-level meeting the latest results of research on the status 
of the African elephant and the ivory trade, in particular from the 
African and Asian Elephant Database, the two CITES elephant monitoring 
systems, MIKE and ETIS, and the status of implementation of the African 
Elephant Action Plan;
    5. Calls on African Elephant range States, especially those with 
declining populations of elephants to prioritize the allocation of 
funds to address elephant conservation and management, with a specific 
focus on increasing levels of law enforcement.
    6. Further calls on the global community to contribute to the 
African Elephant Fund to support the implementation of the African 
Elephant Action Plan; and
    7. Requests the Director General to report back on progress to the 
6th Session of the World Conservation Congress.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
